<html>
<title> - LEGISLATIVE HEARING ON H.R. 1199, H.R. 1200, H.R. 1126, H.R. 1628, H.R. 1826, A DRAFT BILL TO PERMIT THE SECRETARY OF VETERANS AFFAIRS TO ESTABLISH A GRANT PROGRAM TO CONDUCT CEMETERY RESEARCH AND PRODUCE EDUCATIONAL MATERIALS FOR THE VETERANS LEGACY PROGRAM, AND A DRAFT UPDATE OF H.R. 299</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
LEGISLATIVE HEARING ON H.R. 1199, H.R. 1200, H.R. 1126, H.R. 1628, H.R. 
   1826, A DRAFT BILL TO PERMIT THE SECRETARY OF VETERANS AFFAIRS TO 
  ESTABLISH A GRANT PROGRAM TO CONDUCT CEMETERY RESEARCH AND PRODUCE 
  EDUCATIONAL MATERIALS FOR THE VETERANS LEGACY PROGRAM, AND A DRAFT 
                           UPDATE OF H.R. 299

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         WEDNESDAY, MAY 1, 2019

                               __________

                            Serial No. 116-9

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
                              ______

               U.S. GOVERNMENT PUBLISHING OFFICE 
39-913                  WASHINGTON : 2021       


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DR. PHIL ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AMATA COLEMAN RADEWAGEN, American 
MIKE LEVIN, California                   Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          DR. NEAL DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DAN MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      GREG STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                   ELAINE LURIA, Virginia, Chairwoman

GIL CISNEROS, California             MIKE BOST, Illinois, Ranking 
GREGORIO KILILI CAMACHO SABLAN,          Member
    Northern Mariana Islands         GUS M. BILIRAKIS, Florida
COLIN ALLRED, Texas                  STEVE WATKINS, Kansas
LAUREN UNDERWOOD, Illinois           GREG STEUBE, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                         Wednesday, May 1, 2019

                                                                   Page

LEGISLATIVE HEARING ON H.R. 1199, H.R. 1200, H.R. 1126, H.R. 
  1628, H.R. 1826, A DRAFT BILL TO PERMIT THE SECRETARY OF 
  VETERANS AFFAIRS TO ESTABLISH A GRANT PROGRAM TO CONDUCT 
  CEMETERY RESEARCH AND PRODUCE EDUCATIONAL MATERIALS FOR THE 
  VETERANS LEGACY PROGRAM, AND A DRAFT UPDATE OF H.R. 299........     1

                           OPENING STATEMENTS

Honorable Elaine Luria, Chairwoman...............................     1
Honorable Mike Bost, Ranking Member..............................     3

                               WITNESSES

The Honorable Mark Takano, Chairman, Full Committee, Committee on 
  Veterans' Affairs, U.S House of Representatives................     4
The Honorable David P. Roe, M.D., Ranking Member, Full Committee, 
  Committee on Veterans' Affairs, U.S House of Representatives...     6
The Honorable Conor Lamb, Vice Chair, Committee on Veterans' 
  Affairs, U.S House of Representatives..........................     7
The Honorable Greg Steube, Committee on Veterans' Affairs, U.S 
  House of Representatives.......................................     8
Mr. Matthew Sullivan, Deputy Under Secretary for Finance and 
  Planning, National Cemetery Administration.....................     9
    Prepared Statement...........................................    45
        Accompanied by:

    Mr. Kevin Friel, Deputy Director for Pension and Fiduciary, 
        Veterans Benefits Administration

    Dr. Patricia Hastings, Deputy Chief Consultant, PDHS, 
        Veterans Health Administration

    Mr. Derrick Curtis, Director, Software Testing & 508, 
        Enterprise Portfolio Management Division, Office of 
        Information Technology

The Honorable Julia Brownley, Committee on Veterans' Affairs, U.S 
  House of Representatives.......................................    15
Ms. Melanie Brunson, Government Relations Officer, Blinded 
  Veterans Association...........................................    22
    Prepared Statement...........................................    48
Mr. Karl R. Horst, Major General, U.S. Army (Ret), President and 
  Chief Executive Officer, Congressional Medal of Honor 
  Foundation.....................................................    23
    Prepared Statement...........................................    51
Ms. Allison Adelle Hedge Coke, Distinguished Professor of 
  Creative Writing, University of California, Riverside..........    24
    Prepared Statement...........................................    51
Mr. Carlos Fuentes, Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................    30
    Prepared Statement...........................................    58
Mr. Rick Weidman, Executive Director, Policy and Government 
  Affairs, Vietnam Veterans of America...........................    32
    Prepared Statement...........................................    60
Mr. Chanin Nuntavong, Veterans Affairs and Rehabilitation 
  Division Director, The American Legion.........................    33
    Prepared Statement...........................................    62
Mr. Shane L. Liermann, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    35
    Prepared Statement...........................................    66
Dr. David A. Butler, Director, Office of Military and Veterans 
  Health, Health and Medicine Division, The National Academies of 
  Sciences, Engineering, and Medicine............................    36
    Prepared Statement...........................................    70
        Accompanied by:

    Dr. Ourania Kosti, Senior Program, Officer, Principal 
        Investigator, Radiation Effects Research Foundation, The 
        National Academies of Sciences, Engineering, and Medicine

                        QUESTIONS FOR THE RECORD

Richard Hiplit (This looks bad)..................................    72

                   MATERIALS SUBMITTED FOR THE RECORD

Paul R. Lawrence.................................................    74
Cheryl L. Mason..................................................    76

                       STATEMENTS FOR THE RECORD

American Federation of Government Employees......................    77
Association of the United States Navy............................    78
Congressman Doug LaMalfa (CA-01).................................    79
Mr. John Wells, Executive Director, The Military-Veterans 
  Advocacy.......................................................    79
Mr. Keith Kiefer,National Commander,National Association of 
  Atomic Veterans................................................    82
Mr. Ken Brownell, Veteran who participated in Enewetak Cleanup...    87
Mr. Robert Celestial, SGT. U.S. Army Retired (D.A.V.), Veteran 
  who participated in Enewetak Cleanup...........................    88


LEGISLATIVE HEARING ON H.R. 1199, H.R. 1200, H.R. 1126, H.R. 1628, H.R. 
   1826, A DRAFT BILL TO PERMIT THE SECRETARY OF VETERANS AFFAIRS TO 
  ESTABLISH A GRANT PROGRAM TO CONDUCT CEMETERY RESEARCH AND PRODUCE 
  EDUCATIONAL MATERIALS FOR THE VETERANS LEGACY PROGRAM, AND A DRAFT 
                           UPDATE OF H.R. 299

                              ----------                              


                         Wednesday, May 1, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room 1334, Longworth House Office Building, Hon. Elaine G. 
Luria [chairwoman of the Subcommittee] presiding.
    Present: Representatives Cisneros, Allred, Underwood, Bost, 
Bilirakis, Watkins, and Steube.
    Staff Present: Counsel.

         OPENING STATEMENT OF ELAINE LURIA, CHAIRWOMAN

    Ms. Luria. I call this legislative hearing to order.
    Good afternoon, I would like to welcome you all to the 
first legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs for the 116th Congress. As the 
Subcommittee's new chair, I welcome the other new Members on 
both sides of the aisle. I am confident that this Subcommittee 
will continue the bipartisan effort to care for our veterans 
who have been injured in service to our nation.
    Thank you to Ranking Member Bost for welcoming me and 
working with me on today's agenda, which includes 7 bills, one 
of which we are sponsoring together, H.R. 1200, the Veterans' 
Compensation Cost-of-Living Adjustment Act of 2019. This bill 
increases the rate of compensation for veterans with service-
connected disabilities and for their survivors who receive 
dependency and indemnity compensation.
    The disability compensation rate increase, or COLA, is tied 
to that which is provided to Social Security recipients under 
the Social Security Act. The authority required for VA to make 
this cost-of-living adjustment to veterans' benefits expires 
each year and must be extended by December, which is what H.R. 
1200 does. The increase for 2019 is 2.8 percent.
    I also want to welcome to the dais--I think he will be here 
shortly from votes--Chairman Mark Takano and Ranking Member 
Phil Roe, who are joining us today to advocate on behalf of 
draft legislation they have agreed to for H.R. 299, the Blue 
Water Navy Veterans Act of 2019.
    Thank you also to Representatives Conor Lamb and Julia 
Brownley, who I think will also be here shortly, who plan to 
speak on behalf of the Veterans Valuing Our Widows and Widowers 
Act, or the Veterans VOW Act. Without objection, Representative 
Lamb and Representative Brownley are permitted to sit on the 
dais at today's hearing.
    In addition to the COLA Adjustment Act and the Blue Water 
Navy Vietnam veteran's legislation we will discuss today, we 
are also taking testimony on H.R. 1199, the VA Website 
Accessibility Act, which passed the House last Congress, but 
did not make it through the Senate before the end of the 115th 
Congress. The VA Website Accessibility Act directs the VA 
secretary to conduct a study of all veterans-facing websites 
ensure they are access to believe veterans be disabilities, 
particularly, those who are visually impaired.
    This accessibility was guaranteed under the Rehabilitation 
Act of 1973, but VA is not yet fully compliant. This bipartisan 
legislation is cosponsored by my Committee colleague, 
Congressman Banks, and will ensure visually impaired veterans 
can readily access the benefits they have earned and the care 
they deserve.
    VA should strive to make benefits and services accessible 
to all veterans, regardless of their disabilities. I have 
personally heard from two groups of veterans who would benefit 
from this improvement to the VA websites. I appreciate the 
Blinded Veterans Association of America for being here today to 
emphasize this need.
    I am very proud to introduce this legislation and look 
forward to hearing the testimony of the VA and veteran service 
organizations on how it might improve access to VA benefits for 
the visually impaired.
    We will also hear testimony today on H.R. 1826, Mr. Lamb's 
Veterans VOW Act, which codifies the current rate, the special 
monthly pension Medal of Honor winners receive at $1,329.58 per 
month. It also allows for payment of this pension to surviving 
spouses, provided they were married for at least one year, or 
if they were married for less than a year, if they became 
parents of a child.
    Another bill on the docket today sponsored by 
Representative Lamb, H.R. 2385, which was previously announced 
as a draft bill, provides the authority for the Department of 
Veterans Affairs to establish a grant program to conduct 
cemetery research and produce educational materials for the 
national cemetery association--National Cemetery 
Administration's Veterans Legacy Program. Currently, VA awards 
federal contracts for this program, but the institutions of 
higher learning who most often receive, and the largest group 
of participants in this vital work, tell us that working with 
grants is much more efficient and easier for them to 
administer.
    Finally, we will hear more in a minute about H.R. 299, the 
Blue Water Navy veterans--Vietnam Veterans Act from its sponsor 
Chairman Takano and from Ranking Member Roe, who shepherded it 
through the House last Congress, unanimously. As a 
representative of Virginia's Second District, which is home to 
Naval Station Norfolk and several other Navy bases, I am 
honored to take part in advancing this legislation through this 
Subcommittee.
    It is my hope that this legislation will make it to the 
President's desk without delay. This legislation will make 
Congress' intent clear that Blue Water Navy veterans will 
receive much-needed and deserved compensation and care.
    Again, I want to thank everyone for being here today. We 
look forward to your testimony and the answers to our 
questions. I now recognize our Ranking Member Bost for his 
opening statements.
    Mr. Bost, you are recognized for 5 minutes.

         OPENING STATEMENT OF MIKE BOST, RANKING MEMBER

    Mr. Bost. Thank you, Chair Luria.
    It is an honor to be back as the Ranking Member of the 
Subcommittee on Disability Assistance and Memorial Affairs. I 
want to begin by welcoming Chair Luria and the new Members of 
the Subcommittee. I look forward to working with all of you.
    In the past, this Subcommittee has had one overreaching 
priority, which is to improve benefits and services for our 
nation's veterans and their families. I have met with Chair 
Luria, and I am confident that under her leadership, this 
Subcommittee will continue to work in a bipartisan manner on 
issues affecting the brave men and women who have served in the 
Armed Forces.
    To those who testify on our panel today, thank you for all 
of you for joining us here today to discuss the important 
pieces of legislation pending before this Subcommittee. These 
bills are intended to improve the lives of our veterans and 
their families.
    One of the most prominent bills on today's agenda is a 
draft update of H.R. 299, the Blue Water Navy Vietnam Veterans 
Act of 2019, which would extend the presumption of exposure to 
herbicides to veterans who served in offshore waters of 
Vietnam. Over 100,000 veterans served off the coast of Vietnam; 
unfortunately, many of these veterans have been waiting for 40 
years to receive recognition from the VA that their illness may 
have been caused by exposure to Agent Orange.
    Our Blue Water Navy veterans deserve to qualify for the 
same benefits as their fellow veterans who served on the ground 
and in the inland waterways. This bill is long overdue and 
ensures that Blue Water Navy veterans receive the benefits they 
have earned. Additionally, this will would address the concerns 
of other Vietnam-era veterans, Gulf War veterans and all of 
their families and make improvements to VA Home Loan Programs.
    I want to thank Ranking Member Roe for his relentless 
efforts over the past several years to get this legislation 
signed into law as quickly as possible. And I am confident that 
the Chairman Takano support--with his support, we will soon be 
successful at this. Moreover, I am proud to be the lead 
cosponsor with the chair with bill H.R. 1200, the Veterans' 
Compensation Cost-of-Living Adjustment Act of 2019.
    Veterans and their families should not be worried about how 
they are going to pay their bills when prices go up. H.R. 1200 
would help ensure that the value of the veteran's benefits keep 
pace with inflation by giving veterans a cost- of-living 
increase, if Social Security recipients receive one this year.
    I would like to commend one of our freshman Members, Mr. 
Steube of Florida, for introducing H.R. 1628, the Enewetak 
Atoll Cleanup Radiation Study Act. Last Congress, we held a 
Subcommittee roundtable on the cleanup, where we heard from 
DoD, the National Academy of Science, and multiple veterans, 
and other stakeholders. Many veterans who participated in the 
cleanup raised questions at the roundtable about the accuracy 
of DoD's reports on their radiation exposure. H.R. 1628 would 
help address their concerns by having the National Academy of 
Sciences review DoD's assessment. I believe that these veterans 
deserve an answer about their alleged exposure, and I hope this 
bill passes the House very soon.
    Another bill that has my full support is H.R. 1126, which 
would allow the VA to mark the name and dates of a deceased 
spouse on a VA headstone in a private cemetery, just as it does 
for family members buried in a national cemetery and state 
cemeteries. My staff has heard numerous concerns from veterans 
about how VA cannot properly memorialize spouses and its 
dependents who are buried in private cemeteries.
    I appreciate Mr. LaMalfa's lead on this issue by 
introducing this commonsense legislation that would fix this 
oversight. I know many of my colleagues here today have worked 
hard on their proposals. I look forward to discussing how these 
bills would impact veterans and their families.
    With that, I thank you, and I yield back.
    Ms. Luria. Thank you, Mr. Bost, for your comments.
    I now recognize Chairman Takano for his remarks.

       STATEMENT OF MARK TAKANO, CHAIRMAN, FULL COMMITTEE

    Mr. Takano. Thank you, Madam Chair.
    First, I want to thank you for including H.R. 299, the Blue 
Water Navy Vietnam Veterans Act of 2019, in this legislative 
hearing. Today, I, again, advocate for this critically 
important bill. Last Congress, we saw its unanimous passage 
under the leadership of Chairman Roe, but, unfortunate, it 
stalled in the Senate.
    As Chairman of the Committee in this Congress, the Blue 
Water Navy Vietnam Veterans Act of 2019 was the very first 
piece of legislation I introduced. This year, with a new path 
forward, I am confident we will finally see this bill passed 
into law.
    I am delighted that today marks the first meeting of the 
DAMA Subcommittee, whose consistently bipartisan approach sets 
it apart. Together, Dr. Roe and I present an updated version of 
H.R. 299, following the Federal Circuit Court's decision in 
Procopio. That case reversed VA's 1997 decision to deny the 
presumption of Agent Orange exposure to veterans who served in 
the offshore waters in Vietnam.
    Procopio was a huge step forward, but we need to do more. 
We need to ensure Blue Water veterans in the event Procopio is 
appealed to the Supreme Court and overturned. That is why 
Congress worked together with veteran's service organizations 
to establish, without a doubt, that Blue Water Navy veterans 
are entitled to this presumption.
    Our current proposal is very similar to the bill passed 
last Congress. It includes crucial geocoordinates that clarify 
the territory off the coast of Vietnam that VA must recognize 
when deciding claims for disability compensation for herbicide-
related diseases.
    This proposal is the quickest and clearest route to 
delivering benefits to these deserving veterans. Additionally, 
our bill extends the presumption of herbicide exposure to 
certain veterans of the Korean Demilitarized Zone, easing the 
pathway to disability benefits for these who developed--for 
those who developed herbicide-related diseases.
    Our bill also extends benefits to children with spina 
bifida of herbicide-exposed Thailand veterans. These 
comprehensive provisions ensure we deliver essential benefits 
to those suffering the ill effects of herbicide exposure. 
Because the majority of DAMA Members are new to Congress, it is 
important that we hold a hearing to reacquaint ourselves with 
the key issues and hear views on the draft bill.
    I want to welcome The American Legion, VFW, DAV, Vietnam 
Veterans of America, and the American Academy of Sciences for 
being here to help us discuss the important bills in front of 
us today.
    Regrettably, VA has chosen not to offer any testimony on 
H.R. 299 today. The VA has sent a witness to provide views on 
the six other bills on the agenda, but not on H.R. 299. We 
welcome him, but I would like to make it clear that the agency 
was asked to send a witness who could testify on its plans for 
implementing Blue Water. To achieve the best results for 
veterans, we must the cooperation--we must have their 
cooperation going forward. Now, it is regrettable that they are 
not providing this information to Congress, since it is our 
obligation to oversee their plans for the implementation of 
what is now the law of the land.
    Now, before yielding back, I want to welcome and introduce 
distinguished professor Allison Hedge Coke of the University of 
California at Riverside, who has produced some of the best work 
in the country as a part of VA's Veterans Legacy Program. Her 
research on the veterans buried in the Riverside National 
Veterans Cemetery and her creation of teaching curricula for 
local teachers is remarkable in the energy and the attention 
that it brings to the cemetery; her students use her 
educational programs to revitalize the stories of the men and 
women buried there.
    I look forward to Professor Hedge Coke's testimony on Mr. 
Lamb's bill, which changes the current Veterans Legacy Project 
from a federal contract program to a federal grant program. 
Institutions like UC Riverside tell us that management of 
grants is administratively easier than the management of 
contracts for colleges and universities.
    And we want to do whatever we can to encourage the work of 
academics like Professor Hedge Coke, who can help us understand 
and appreciate the heroism and sacrifices of local 
servicemembers. So, thank you, Professor, for traveling so far 
to join us today, and I know it is even a longer trip back 
home. So, we very much look forward to hearing from you today.
    And I yield back, Madam Chair.
    Ms. Luria. Thank you, Chairman Takano.
    I know recognize Ranking Member Roe for his statement.

   STATEMENT OF HONORABLE DAVID P. ROE, RANKING MEMBER, FULL 
                           COMMITTEE

    Mr. Roe. I would like to thank the chair and Ranking Member 
for their leadership on today's legislative hearing and I would 
like to associate my remarks with the Chairman.
    It is no surprise that one of my top priorities, as Ranking 
Member of this Committee, is continuing our work on the 115th 
Congress to ensure that our Blue Water Navy Vietnam veterans 
receive the benefits they have earned.
    Last Congress, by a vote of 382 to 0--let me say this 
again--by a vote of 382 to 0--and, literally, we probably 
couldn't agree that the sun came up in the East most days--382 
is an impressive number, that we passed for the Blue Water Navy 
Vietnam Veterans Act of 2018.
    Unfortunately, despite the efforts of Senate Veterans 
Affairs Committee Chairman Isakson and Ranking Member Tester, 
the Senate never passed the legislation. This is why one of my 
first actions at the start of the 116th Congress was to 
reintroduce--was to introduce H.R. 203, which mirrors, last 
year's Blue Water Navy bill.
    Although, H.R. 203 is not on today's agenda, I appreciate 
Chairman Takano's efforts to maintain the momentum this 
Committee made last Congress to enact legislation that would 
benefit the healthcare to our--the benefits and healthcare to 
our Blue Water Navy veterans.
    I am happy to partner with Chairman Takano on H.R. 299 and 
appreciate his bipartisanship to make sure this time we get the 
bill across the finish line onto President Trump's desk. I also 
want to thank all of our VSO partners for their support and 
help to craft a bill that finally fulfills our nation's promise 
to these veterans.
    Recently, Blue Water Navy veterans won big when the federal 
Circuit Court ruled in the case of Procopio v. Wilkie, that the 
VA should accept in the waters surrounding the Republic of 
Vietnam for the Agent Orange presumption, just as VA does for 
boots-on-the-ground service. I was further encouraged by 
Secretary Wilkie's recommendation that the solicitor general 
not appeal the Court's decision.
    However, at this time, it is unclear how the Department 
plans to interpret the Federal Court's holding. That is why I 
believe that the passing of H.R. 299 is necessary to ensure 
that those veterans who were potentially exposed to Agent 
Orange in the waters offshore of the Republic of Vietnam are 
guaranteed entitlement of the presumption.
    Moreover, the package of H.R. 299 not only addresses the 
plight of Blue Water Navy Vietnam veterans, but also includes 
provisions that would extend the presumptions to veterans who 
served in or near the Korean DMZ beginning September 1, 1967, 
provide benefits for the children of Thailand veterans who were 
exposed to Agent Orange, address the concerns of Thailand and 
Gulf War veterans about their potential in- service toxic 
exposures, and make improvements to VA's Home Loan Program.
    I support the draft update of H.R. 299. I hope it passes 
the House without delay, and with that, Madam Chair, I yield 
back the balance of my time.
    Ms. Luria. Thank you, Ranking Member Roe.
    I know recognize Representative Lamb to provide his 
testimony on his bills, H.R. 1826, the Veterans VOW bill, and 
H.R. 2385, concerning the Legacy Project.

               STATEMENT OF HONORABLE CONOR LAMB

    Mr. Lamb. Thank you, Madam Chairwoman.
    First, as to the Veterans Valuing Our Widows and Widowers 
Act, or Veterans VOW Act, 1826, we all know that the Medal of 
Honor represents the highest possible recognition for valor in 
combat, and in currently in recognition of that, Medal of Honor 
recipients are entitled to an additional monthly pension; 
however, when that Medal of Honor recipient passes away, the 
pension stops.
    And I think all of us in the veteran's community know the 
important role that our caregivers play for these veterans of 
all types, but especially for Medal of Honor recipients; they 
have strenuous public schedules. They are often asked to appear 
at a lot of events. They really become symbols in our community 
and many of their spouses carry a lot of the load for taking 
care of them, for helping to make that possible.
    So, what our bill would do is make sure that that pension 
continues for the spouse if the veteran does, in fact, pass 
away. I believe that all surviving spouses should be eligible 
to receive these pensions. They are part of the family that 
made the sacrifice for our nation and we should recognize them, 
as such. Thank you, and that is my testimony for 1826.
    Would you like me to move on to the other one, as well, 
Madam Chairwoman?
    Ms. Luria. Yes, please continue.
    Mr. Lamb. Thank you very much.
    The other bill is H.R. 2385, which we are introducing for 
the second Congress, the Veterans Legacy Program. And as 
Chairman Takano noted, we are going to hear some testimony 
about that today from the folks at Riverside, but this one is 
just a no-brainer. It is a great bill. This is already an 
existing program, by which we encourage schools, colleges, 
people in the community to learn about our veterans in our 
veterans' cemeteries and publish educational materials about 
them.
    It already exists. It is a contracting program and that is 
a little bit harder for these institutions, than if it was a 
grant program. Basically, universities and other places, they 
know the process for getting grants; they are not as familiar 
with the process for getting contracts. So, all we want to do 
is make that simple change.
    Near my district, we have a national cemetery for the 
Alleghenies and we already have local schools signed up and 
ready to go to research each one of these veterans that are 
buried there. Some of them even envision something like an app 
that you would have on the phone where you would go to a 
veterans cemetery and in front of each headstone, the app could 
show you who that person what, where they served, and what 
sacrifice they made.
    I can't think of anything better to inspire the next 
generation of kids on their field trips, in their classrooms to 
want to be part of the military, to honor the sacrifices that 
these folks have made. So, this is a great program, and we are 
looking to do everything we can to make it easier to 
participate.
    Mr. Roe. Would the gentleman yield?
    Mr. Lamb. And I would gladly yield to Dr. Roe for further 
explanation.
    Mr. Roe. I thank you the gentleman from Pennsylvania. We 
have a fellow in our--just for information today--a fellow in 
our office for the next two years who is gathering all 
veterans, living veterans' stories. And I explained to him, I 
said, Look, I don't want you to tell me that you won the Korean 
War single-handedly--I don't want that story--but we are 
collecting every veteran that will sit down.
    It will be digitized and put into the Library of Congress 
so that 100 years from now or 150 years from now in the future, 
you can look back digitally and see what your family member or 
write a history of that. So, I would encourage all 
congressional districts to try to do this with their veterans 
if they could.
    And it would create a history, that, look, if we had done 
it 100 years ago, think of what we would have now, the 
treasure-trove of information.
    I appreciate the gentleman yielding. I yield back.
    Mr. Lamb. Thank you, Dr. Roe.
    And Madam Chairwoman, I yield back.
    Ms. Luria. Thank you, Representative Lamb.
    I now recognize Representative Steube, who will offer his 
testimony on behalf of his bill, H.R. 1628, the Enewetak Atoll 
Cleanup Act.

               STATEMENT OF HONORABLE GREG STEUBE

    Mr. Steube. Thank you, Madam Chair, and thank you for 
hearing this bill. I appreciate it.
    From January 1977 through December of 1980, approximately 
6,000 American veterans participated in the cleanup of the 
Enewetak Atoll nuclear testing site at Enewetak Atoll in the 
Pacific Ocean. The site was home to 43 U.S. nuclear tests from 
1948 to 1958 and the cleanup was necessary to return the atoll 
to Trust Territory of the Pacific Islands of.
    The Enewetak Atoll cleanup was performed by a joint task 
force group with the Departments of Defense and Energy, which 
rehabilitated the area by conducting radiological surveys, 
removing contaminated soil and debris, demolishing contaminated 
buildings, transporting contaminated soil and debris to 
disposal sites, and preparing the area for the return of the 
inhabitants.
    In this process, veterans who served at Enewetak Atoll were 
potentially exposed to dangerous doses of radiation through 
skin contact, breathing contaminated area, and drinking and 
bathing in contaminated water; however, there is conflicting 
scholarship on the subject.
    In 2018, the Department of Defense conducted a radiation-
dose assessment and determined that veterans who served in the 
cleanup were not exposed to of harmful levels of radiation, but 
veterans disagree with the DoD's findings.
    Last year in a roundtable before this very Subcommittee, 
veterans and scientists cited specific issues with the 
methodology in the assessment of the DoD's review. The 
scientists from the National Academies of Sciences, 
Engineering, and Medicine stated that the DoD's methodology may 
have been outdated and, therefore, the DoD's assessment may be 
inaccurate.
    Though, the DoD has refuted some of these claims, I think 
we owe it to these veterans to get to the bottom of this and 
that is why I have introduced the Enewetak Atoll Cleanup 
Radiation Study Act which calls on the Department of Veterans 
Affairs to partner with the NAS to study the effects of 
radiation on veterans. The bill instructs them to conduct a 
small-scale study to review findings of the 2018 RDA and 
determine if there are discrepancies with the DoD's findings.
    Then, they will be required to report back to this 
Committee so we can review their findings and determine next 
steps. The secretary of the VA is also required to provide his 
plans to carry out any actions based on the study within 90 
days of receiving the study. This bill will clean up some of 
the confusion around the DoD's RDA and address the concern of 
the cleanup veterans.
    This is the least we can do to ensure that those who served 
our country are getting the care and attention that they 
deserve, especially if their health was negatively impacted by 
the terms of their service. I urge you to support this bill and 
give these veterans the consideration they deserve. I ask that 
we report the bill favorably out of the Committee to be 
considered by the full House.
    Thank you for your time.
    Ms. Luria. Thank you.
    I thank the Members who testified in support of these bills 
on the agenda today and I would now like to invite those 
participating in Panel Number 2 to the witness table. Thank 
you.
    Okay. Thank you. I would like to welcome Mr. Sullivan and 
his colleagues. It has been mentioned earlier, but I want to 
remind Members that Mr. Sullivan and the others accompanying 
him will unfortunately not be answering questions on H.R. 299, 
the Blue Water Navy Vietnam Veterans Act of 2019. This was a 
decision by the VA.
    The Subcommittee will hold a hearing on how the VA plans to 
implement the Act at a later date and we expect to have the VA 
to appear at that time.
    Welcome, Mr. Sullivan, and I would like to recognize you 
for your statement for 5 minutes.

                 STATEMENT OF MATTHEW SULLIVAN

    Mr. Sullivan. Thank you, Madam Chair and Members of the 
Subcommittee, I am pleased to be here today to provide the 
views of the Department of Veterans Affairs on pending 
legislation affecting VA's programs.
    Accompanying me today is Kevin Friel, deputy director for 
pension and fiduciary from the Veterans Benefits 
Administration; Dr. Patricia Hastings, deputy chief consultant, 
Post-Deployment Health Services, from the Veterans Health 
Administration; and Derrick Curtis, director of software 
testing and 508 from the Enterprise Portfolio Management 
Division, Office of Information Technology.
    First, regarding H.R. 299, the Blue Water Navy Vietnam 
Veterans Act of 2019, I would like to note that because the 
administration is still considering its legal options relative 
to the Procopio case, VA does not have any views to offer on 
this legislation and we must respectfully decline to answer any 
questions you may have today regarding the bill; however, I 
will provide a brief summary of VA's views on the remaining 
legislation that is on the agenda today.
    As a representative of the National Cemetery 
Administration, I am pleased to note that two bills on the 
agenda, H.R. 1126, the Honoring Veterans' Families Act, and the 
draft bill, now H.R. 2385, on establishing a grant program for 
the Veterans Legacy Program, are consistent with NCA-related 
proposals and the President's budget for fiscal year 2020 and 
as such, VA supports both measures.
    The provisions of H.R. 1126 would be effective for veterans 
that die on or after October 1st, 2018, and we would ask that 
the Subcommittee consider making this an earlier date by 
allowing VA to replace veterans' headstones and markers 
provided with the last 5 years to add information about 
recently deceased spouses and dependent children.
    As a leader in customer service, NCA is sensitive to the 
concerns of families when a benefit is added or changed and 
suddenly, what was not available for someone who died last year 
is available for someone who dies this year.
    H.R. 1199, the VA Website Accessibility Act of 2019 would 
direct VA to examine all departmental websites to determine 
whether their websites are accessible to individuals with 
disabilities, in accordance with section 508 of the 
Rehabilitation Act of 1973. The review would be conducted 
within 1080 days of enactment, with a report submitted to 
Congress within 90 days of completing this study.
    While VA agrees with the intent of this legislation, we 
believe the bill is not necessary, because it provides no new 
authority and because VA already has processes in place to 
review VA websites for noncompliance and remediate any 
identified issues. Moreover, we believe that attempting to 
conduct a universal review within 180 days would be 
logistically challenging. Lastly, we would advise that the 
inclusion of self-service kiosks within the Department as part 
of this compliance review would be problematic, and we are 
willing to discuss our concerns with the Subcommittee.
    H.R. 1200, The Veterans' Compensation Cost-of-Living 
Adjustment Act of 2019 would increase the rates of disability 
compensation for service-connected veterans and the rates of 
dependency and indemnity compensation for survivors of 
veterans, effective December 1st, 2019. The increase would 
mirror the Social Security benefit increase, also effective 
December 1st, 2019. VA strongly supports this bill because it 
would ensure that the value of these benefits keeps pace with 
increases and consumer prices.
    H.R. 1628, the Enewetak Atoll Cleanup Radiation Study Act 
would direct VA to enter into an agreement with the National 
Academies of Sciences, Engineering, and Medicine to conduct a 
study on radiation exposure related to the cleanup of Enewetak 
Atoll. Subject to a provision of funds to conduct the study, VA 
supports this legislation, which may answer the concerns of 
veterans who participated in the cleanup at Enewetak Atoll.
    H.R. 1826, the Veterans VOW Act, would increase the Medal 
of Honor, or MOH, special pension rate and provide payment of 
MOH special pension to surviving spouses of a--to a surviving 
spouse of a deceased MOH recipient. VA supports this bill, 
providing Congress can identify corresponding funding.
    Extending the MOH special pension to surviving spouses 
accords with other survivor benefits VA offers; however, VA 
would require clarification as to whether the remarriage 
limitations associated with DIC entitlement would apply to 
surviving spouses receiving the Medal of Honor special pension.
    For example, a surviving spouse who remarries prior to age 
57 loses entitled to DIC, but it is unclear whether a surviving 
spouse receiving the MOH special pension under this bill would 
also lose entitlement if they remarried.
    This concludes my statement, Madam Chair. We would be happy 
now to consider any questions you or other Members of the 
Subcommittee may have. Thank you.

    [The prepared statement of Matthew Sulllivan appears in the 
Appendix]

    Ms. Luria. Thank you, Mr. Sullivan.
    We will now begin with questions, and I will recognize 
myself for 5 minutes. I would like to start with the VA Website 
Accessibility Act of 2019. You testified that VA section 508 
office currently scans the VA websites to identify noncompliant 
websites, files, and web-based applications; is this true?
    Mr. Sullivan. Madam Chair, I believe that is true, but I am 
going to defer to my colleague, Mr. Curtis, who is the subject-
matter expert on that area.
    Mr. Curtis. Yes, ma'am. Thank you for the question. That is 
true.
    Ms. Luria. So, if it is true that you scan the websites, 
why is it difficult for you to provide a list to us to those 
that are compliant and those that are noncompliant?
    Mr. Curtis. The scans take place every month. We contact 
the content owners to provide them that information so they can 
take remediation actions. But I was unaware that there was a 
request for those results to be provided to this body.
    Ms. Luria. Okay. As a result of this hearing, we would like 
information on which cites that are currently maintained by the 
VA are compliant and those that are not so we can have an 
understanding of the scope of the problem of how many sites are 
not currently compliant.
    And I am also going to quote from your testimony, that 
there is no consolidated, enterprise-wide plan to bring each 
website, file, or web-based application into compliance with 
the section 508 of the Rehabilitation Act of 1973.
    Why is that?
    Mr. Curtis. Yes, ma'am. We work with the content owners and 
there are differing complexities and so our approach is to 
train them and equip them on how to build in the accessibility 
and let them go at the speed that they choose. Many of them are 
going faster than others, and so we didn't see a need for an 
enterprise-wide solution.
    And, in fact, in the last 6 months, we have seen a marked 
increase in the number of websites that are becoming 
accessible.
    Ms. Luria. Okay. So, you can't tell me how many are and are 
not accessible. You have no timeline for when you are requiring 
people to implement the changes, and then, furthermore, you say 
that 180 days is not long enough for the VA to conduct a 
review--that was from Mr. Sullivan's testimony--to determine 
whether veterans--information sites are accessible. And then 
the report to Congress is not due for another 90 days after 
that.
    Can you explain the difficulty with the timeline, why 6 
months is not enough for you to determine the scope of the 
problem?
    Mr. Curtis. Part of the challenge is that kiosks were 
included into that definition of a website, and the standards 
are quite different for a kiosk than they are for websites. 
Websites, we scan remotely, and kiosks, you would have to 
physically go to each site and apply those different standards 
to check for accessibility and that, logistically, would mean 
going to each and every facility and checking each and every 
kiosk within that facility.
    Ms. Luria. But is there not a uniform host of software that 
is loaded on each kiosk, that you would expect to find around 
different VAs?
    Mr. Curtis. Similar, but not exactly the same. There is 
also a question of physical limitations associated with kiosks. 
Under the 508 standards, there is some physical parameters that 
have to be checked with your presence being there.
    Ms. Luria. Okay. This is a very important issue, and I know 
that we will hear from someone later on who personally, you 
know, has experience with trying to access her benefits through 
these websites that are not accessible. So, it is very 
important to me, so I would like to continue this dialogue. If 
there are nuances within the way this is written that can help 
you do your job to get these benefits to veterans where they 
can access these websites, I would like to, you know, have more 
clarity on the specifics if we need to be, you know, more 
specific in the legislation to accomplish the goal that we want 
to accomplish.
    Mr. Curtis. Yes, ma'am.
    Ms. Luria. The second thing is, you know, I am very glad to 
hear, Mr. Sullivan, that the VA has no objections to the COLA 
bill introduced by myself and Ranking Member Bost.
    Do you foresee that there will be any problems implementing 
the cost-of-living increase on time?
    Mr. Sullivan. Madam Chair, thank you for the question. I am 
going to defer that question to Mr. Friel, who is the subject-
matter expert on that.
    Mr. Friel. Yes, ma'am. Thank you for the question.
    As far as implementing on time, we wouldn't predict or 
foresee any problems with doing that, as we do it annually 
anyway, but we have to wait for Congress to determine what that 
rate will be. This will allow us to actually be more proactive 
and it will also provide a better opportunity for our 
beneficiaries both, veterans and survivors, to determine what 
they could see in their following year's benefit.
    Ms. Luria. Thank you. And my last question is relative to 
the Veterans Legacy Program, H.R. 2385, introduced by Mr. Lamb. 
Can you anticipate any problems transitioning from the 
contract-based system to a grant-based system, as proposed by 
this legislation?
    Mr. Sullivan. Madam Chair, we do not expect any problems 
converting to that mode of disbursing funds. We think it will 
be a great improvement, another tool that we can access to more 
efficiently disburse those funds and partner with our 
universities and colleges to develop those educational 
materials.
    Ms. Luria. Thank you. And do you anticipate any need for an 
increase in appropriated funds vault to the changeover to the 
new system in this bill?
    Mr. Sullivan. Madam Chair, we do not expect any additional 
appropriations will be necessary to start using the grant 
authority. We expect to be able to use our current 
appropriations and just use the new method and the authority 
available to more efficiently use those funds.
    Ms. Luria. Thank you.
    And I will now recognize Ranking Member Bost for 5 minutes 
for his questions.
    Mr. Bost. Thank you, Madam Chair.
    Mr. Sullivan, can you--and I know the answer, but I want it 
on the record--can you please explain why it is important that 
Congress, for it to reenact a cost-of-living adjustment 
compensation benefit every year.
    Mr. Sullivan. Thank you for the question, Ranking Member. I 
am going to refer that question to Mr. Friel, who is the 
subject-matter expert.
    Mr. Friel. Yes, sir. Thank you for the question.
    The idea with the Congress giving us a cost-of-living 
adjustment is there is nothing in the standing statute that 
says we can mandate us doing it automatically. So, we have to 
wait for Congress to tell us what that rate will be. And then 
it is also a means of keeping veterans and their survivors, you 
know, their benefits as a standard of living and to help them 
maintain that standard of living.
    Mr. Bost. Mr. Sullivan, I am going to go ahead and ask--and 
you are probably not going to ask, but I am going to ask it 
anyway, okay--the Committee inferred that the secretary--we are 
going to infer that the secretary supports H.R. 299, given 
recommendations not to appeal the Federal Court's decision.
    Mr. Sullivan. Yes, Congressman. It is true that the 
secretary has recommended not to appeal the decision to the 
Department of Justice, but the administration, the Solicitor 
General of the United States, and the Department of Justice 
have that final decision on whether to appeal or not, and we 
have to wait for that decision until we can provide official 
views or any of our official positions on that bill.
    Mr. Bost. Okay. I appreciate that answer.
    Mr. Sullivan, I also want to ask, how often just for one of 
the bills here, is the NCA contacted about a family's desire to 
add a memorial inscription for a spouse or dependent on a VA 
headstone that is not or that is at a private cemetery?
    Mr. Sullivan. Yes, Congressman. In the past fiscal year, we 
received approximately 900 requests for a replacement headstone 
or marker that is currently placed at a private cemetery to add 
the spousal or eligible dependent inscription. That is actually 
a drop from our previous historical annual averages, which have 
been around 1,500 requests per year, and we believe that is due 
to the National Cemetery Administration being very proactive in 
the last fiscal year in terms of discussing with our funeral 
directors about the policy that we have to comply with and 
they, in turn, discussing that with the family members.
    Mr. Bost. Okay. I am going to go in the same direction here 
on a question regarding that particular bill. In your--if you 
could elaborate a little bit on your testimony on H.R. 1126 
regarding replacing a headstone or marker, is it the most 
effective way to provide the spouse's dependent's inscription, 
rather than just having it placed on. Can you explain how that 
is more cost-effective?
    Mr. Sullivan. Yes, sir. Thanks for the question.
    We issue headstones and markers for veterans that are 
placed in private cemeteries around the world, so it would be 
infeasible for us to go and amend those headstones and markers 
with spousal maintenance inscriptions. It would be much more 
cost-effective for us to issue replacement markers that have 
the spouses or the eligible dependent's inscription 
information.
    Moreover, because a significant majority of the replacement 
headstones or markers that we issue for replacement in a 
private cemetery are the bronze flat markers, those are 
impossible to actually amend after issuance, so we have to 
provide a replacement headstone or marker for those.
    Mr. Bost. Okay. The next question I have--I am limited on 
my time here--but can you please give the details and the 
procedures that VA uses in relation to a compensation claim to 
verify a veteran's potential in-service exposure to harmful 
levels of radiation.
    Mr. Sullivan. Because Mr. Friel is the subject-matter 
expert on that, I am going to defer this question to him.
    Mr. Friel. Congressman, I am going to have to take that for 
the record. My area of expertise is pension and fiduciary 
service. We typically do not deal with radiation exposure as it 
relates to our benefits, so we would have to take that for the 
record.
    Mr. Bost. Then, for the record, also, take the other part 
of it, too, because the question was, performing a radiation 
doses assessment--does the VA perform individual radiation dose 
assessments for veterans whose service record indicate that 
they may have been exposed to high levels of radiation? And if 
you could get that back, that would be fine.
    Mr. Sullivan. We will take both of those back for the 
record, sir, but Dr. Patricia Hastings from VHA is here and she 
can provide some insight to the second part of that question.
    Mr. Bost. All right.
    Dr. Hastings. Sir, if a person believes that their illness 
has been caused by radiation incurred during military service, 
they were able to put in a claim. At the time the claim goes 
in, if it is not a presumptive disease, it would go to VBA. 
They would request a comp and pen exam, which would then go 
back to the VBA.
    At that time, they would send it to my office for an 
advisory medical opinion, and that is a health physicist that 
does a dose reconstruction based on actual dosages, or if we do 
not have dosages, the highest dosage, which would be possible. 
We always give the benefit to the veterans.
    That then goes back to the regional office that does 
these--that is in Jackson, Mississippi, where they have the 
experts that work on the radiation claims--at that point in 
time, it is adjudicated, a decision is made. If the veteran 
disagrees with the opinion, they are able to appeal. If they 
disagree with that, they can go to the veteran's benefits--or 
the benefit--the VBA, the Board of Veteran Appeals, and if they 
disagree with that, they can go to the Court of Appeals for 
veterans' claims.
    Mr. Bost. So, the normal procedure?
    Dr. Hastings. It is a normal procedure, with the caveat 
that we do an advisory medical opinion, a health physicist, and 
I see all of those.
    Mr. Bost. Okay. Thank you. And I yield back.
    Ms. Luria. Thank you, Ranking Member Bost.
    With unanimous consent, I would like to recognize 
Representative Brownley, who is here to speak on behalf of Mr. 
Lamb's bill.

             STATEMENT OF HONORABLE JULIA BROWNLEY

    Ms. Brownley. Thank you, Madam Chair, and thank you for the 
opportunity to attend your meeting and speak at this hearing. I 
am here today to discuss the Veterans VOW Act, H.R. 1826, 
introduced by Representative Lamb, and similar legislation that 
I have similarly introduced.
    We all know the great sacrifices that families of 
servicemembers make, especially those who lose loved ones. When 
living servicemembers are awarded the Medal of Honor, they 
receive a special pension in recognition of their heroism, but 
when those Medal of Honor recipients are deceased, their loved 
ones receive no such compensation.
    Representative Lamb's bill honors the spouses of these 
heroes by ensuring that they receive the same pension that the 
deceased servicemember would have otherwise received. I have 
also introduced legislation, H.R. 1779, that would authorize 
Medal of Honor recipients to dedicate an individual to receive 
the special pension upon their death and establish a process 
for awarding the pension to a loved one if a Medal of Honor is 
awarded posthumously.
    I was inspired to introduce this legislation after having 
had the privilege of meeting a Gold Star mother, Dahlia 
Gonzalez, whose only son, Freddy, died in Vietnam, and was 
awarded the Medal of Honor for his heroism. Freddy was in the 
same company as one of my constituents, Sergeant Major John 
Canley, who was also a Medal of Honor recipient. It was in 
coming together to acknowledge and pay attribute to Sergeant 
Major Canley's heroism, that I met Ms. Gonzalez.
    Now, in her late eighties, Ms. Gonzalez dropped off school 
in the seventh grade to help her mother after her father's 
passing. She gave birth to Freddy when she was 16 and raised 
him as a single mother, working as a waitress and then at a 
grocery store to provide for her only child. Her devotion to 
her son ensured that he graduated from high school, after which 
he fulfilled a childhood dream of servicing his nation by 
joining the Marine Corps.
    In 1968, Sergeant Gonzalez lost his life during his second 
tour in Vietnam, a tour that he insisted on taking, fighting 
for his men and his nation. Ms. Gonzalez was at her job at the 
restaurant when she received the tragic news of his passing.
    As we now know, Sergeant Gonzalez was awarded the Medal of 
Honor for his heroism in Vietnam. Since then, Ms. Gonzalez has 
grown close to the Marines that served with her son and they 
have helped her with travel to reunions and other financial 
needs, but still, I believe more can be done.
    Although her only child had given his life for our nation 
in battle, she had struggled to make ends meet in her later 
years, now that she is no longer able to work. Our country 
should do more to support surviving family members of 
servicemembers who have received the highest award for valor, 
our nation can bestow.
    I wholeheartedly support Vice Chairman Lamb's legislation 
that does just that. We absolutely owe this benefit to the 
spouses of our heroes.
    As I have gotten to know Ms. Gonzalez and the sacrifices 
she made for her son, I am compelled to ensure that parents and 
other family members also receive recognition and compensation. 
Providing the special pension is just one token to recognize 
the sacrifice that veterans have made on behalf of our nation 
and the sacrifice that their dependents have also had to bear.
    I am pleased that the Subcommittee is considering this 
important issue and I hope to work closely with my colleagues 
on legislation to allow parents and other loved ones, like Ms. 
Gonzalez, to receive this benefit.
    I thank you, again, Chairwoman, for the opportunity to 
speak. And I would just like to say I love seeing you in the 
chair position and I thank you for your service to our nation, 
and I know without a doubt, you are going to do an 
extraordinary job on the VA Committee and chairing this 
particular and very important Committee. So, thank you for your 
service, as well.
    And I yield back.
    Ms. Luria. Well, thank you. And thank you for taking the 
time to come before our Committee today to speak on behalf of 
that important legislation.
    I would next like to call on Chairman Takano for his 
comments and questions.
    Mr. Takano. Thank you, Madam Chair. And I, too, do like you 
seeing you in that position, as well.
    Let me ask the VA, Mr. Sullivan, regarding the outreach 
program, the Veterans Legacy Program, in Bill H.R. 2385 by Mr. 
Lamb, do you see any advantage in the idea of piloting this 
change before it is enacted?
    Mr. Sullivan. I think piloting changes does provide some 
insight before implementation, but I do also feel pretty 
confident that we can exercise any new grant authority pretty 
effectively. Within the National Cemetery Administration, we do 
already have a grants account that we execute for the State and 
Tribal Veterans Cemetery Grants Program. So, we do have 
expertise and experience in that arena.
    So, while a pilot would always provide you some early 
insight and ability to make some corrections, I think we have 
the expertise to immediately implement this authority once 
received.
    Mr. Takano. Given that Professor Hedge Coke had has some 
time and some experience with the Legacy Program, would you 
accept input from someone like her, regarding the best 
practices for the Legacy Program?
    Mr. Sullivan. Yes, Congressman. Thank you for the question. 
I would definitely accept input from someone with that 
expertise.
    And I believe the professor has already been in some 
discussion with our program manager for the Veterans Legacy 
Program. So, we welcome that input from the educational 
community.
    Mr. Takano. So, she's already been giving you some feedback 
on maybe how to improve the program going forward?
    Mr. Sullivan. Yes, sir. We would definitely welcome that 
input and feedback.
    Mr. Takano. Well, thank you. Wonderful.
    I would like to ask Ms. Brunson, with the Blinded Veterans 
Association, I wanted to know about the--I appreciate the work 
you have done.
    Counsel. She's on the next panel.
    Mr. Takano. Oh, the next panel?
    Counsel. Yeah.
    Mr. Takano. Okay. I'm sorry, I got confused there. Let's 
see.
    Mr. Sullivan, let me continue questioning with you. So, I 
am glad to hear that the VA has no objections to the COLA bill 
introduced by Chairwoman Luria and cosponsored by Ranking 
Member Bost. Do you see that there will be any problems 
implementing the cost-of-living increase on time?
    Mr. Sullivan. I am going to defer that question to Mr. 
Friel, who is the subject-matter expert. Thank you.
    Mr. Friel. Thank you, sir. No, as I said earlier, we do 
this, the COLA adjustments, normally, annually, anyway. We have 
a process in place to actually implement that and make it 
happen.
    This bill would allow us to actually be more proactive, 
instead of having to wait for the decision on what the amount 
of what the COLA rate would be. This would give us--we could 
tie it directly to what Social Security does and be able to 
move forward.
    Mr. Takano. Okay. Well, thank you. I appreciate your 
answer.
    I yield back, Madam Chair.
    Ms. Luria. Thank you. I now recognize Ranking Member Dr. 
Roe for 5 minutes.
    Mr. Roe. Thank you, Madam Chair.
    First of all, Mr. Sullivan, I want to give a shout-out to 
the National Cemetery Administration. You all do an outstanding 
job. I think anyone who visits our cemeteries would be very 
proud of them, so thank you for doing that job.
    And since January, my staff has asked at least three times 
for information on how VA plans to move forward processing the 
Blue Water Navy claims, given the Procopio decision and 
subsequent mandate. The Department's response has been that 
while the solicitor general decides whether to appeal the 
decision, it would be premature for the VA to conduct a 
briefing on this topic.
    However, the holding in Procopio is the current law of the 
land. It is the law of the land now. The Supreme Court would 
have to grant a cert on appeal and overturn the Federal 
Circuit's decision for VA to have the authority not to 
implement the decision. It could take years, or it may not ever 
happen.
    So, these veterans have waited long enough for a decision, 
and if VA has not already started enforcing Procopio, it is a 
violation of law. Mr. Sullivan, what steps is VA taking to 
implement this decision?
    Mr. Sullivan. Thanks for the question, Dr. Roe.
    I understand that Secretary Wilkie has been proactive in 
making sure that the Department has started to think about what 
steps would be necessary; however, because this decision on 
whether to appeal the Procopio decision is still pending and I 
believe that the extension was granted to May 29th, we are 
unable to provide any details on how we may implement that Blue 
Water Navy decision at this time.
    I believe that once that decision on whether to appeal the 
Procopio decision is made, there will necessarily need to be 
detailed discussions within the Department and with Congress to 
implement whatever next steps need to be implemented.
    Mr. Roe. Let me share--and I know VA understands this--is 
that 523 of us are dying every day, Vietnam veterans. And I 
know I walked all over the DMZ in Korea and not too distant 
from the time that Agent Orange was sprayed there, myself. So, 
I have some vested interest in this, and I see people and talk 
to them all the time.
    This appeal may never happen--and I know you don't--you 
aren't a mind reader; you can't decide what the solicitor is 
going to do--but if I were you all, and I were the secretary, I 
would encourage, you know, in the next couple of weeks, let 
this Committee know, are you proceeding with this, because if I 
were in his position, I would move forward and have somebody 
tell me to stop. That is what I would do.
    And the reason is, is we have men and women, mainly men, 
across this country, who have been waiting for almost 50 years 
for this decision. So, can I have your commitment in the next 
two weeks, from the VA, that you will give us some direction? I 
know you said you have to wait until this next decision. That 
can--I mean, I have seen lawyers in three- piece suits and 
Allen Edmonds shoes run something out for decades in the 
courts, while we have got people dying. Can we do that?
    Mr. Sullivan. Sir, again, we sympathize with the views of 
Blue Water Navy veterans. Most of us on this panel are 
veterans, and I know that from listening to the secretary 
speak, he has veterans at his heart every day. And, you know, 
we are working to be forward-leaning in case the Department of 
Justice decides not to appeal the Procopio decision; however, 
at this time, we just cannot provide a commitment.
    I do not want to presume to speak for the secretary on 
whether we can provide these further details until that 
decision on whether to appeal or not has been made by the 
administration.
    Mr. Roe. Madam Chair, I ask unanimous consent that these 
three documents be entered into the record. I know I'm pushing 
you pretty hard on this--
    Ms. Luria. Without objection.
    Mr. Roe. Thank you, Madam Chair.
    Mr. Roe. I know we are pushing you pretty hard, but it is 
time we got this resolved. I mean, I have been on this 
Committee for 10 and a half years and I know the Chairman 
worked very closely with me last year. We got this passed 
through the House unanimously and there are veterans out there 
that I run into every single day when I go home that ask me 
about this, and I just--I can't--I don't think that this 
Committee or this country can tolerate any more delays since we 
have got a clear direction from the Court now.
    And, you know, whether they appeal or not, they could delay 
that decision 6 months if they wanted to. So, I would encourage 
the VA to press forward, I mean put the pedal to the metal.
    And with that, I yield back.
    Ms. Luria. Thank you, Dr. Roe.
    I now call on Representative Cisneros for 5 minutes.
    Mr. Cisneros. Thank you, Madam Chair.
    Excuse me, Mr. Sullivan. Just a quick question about H.R. 
1126. Is it possible when the veteran, they know--it is a 
married couple and they know they want to be buried together, 
is it possible for them to get a marker or headstone that 
already allows them to have both of their names on that 
headstone?
    Mr. Sullivan. Thank you for the question, Congressman. That 
depends on the placement of where that burial headstone or 
marker is placed.
    So, in our national cemeteries, in our grant-funded state 
and tribal cemeteries, veterans and their eligible spouses and 
dependents are already eligible for a burial headstone or 
marker. So, in many cases where the veteran is buried in the 
same gravesite as their spouse or eligible dependent, we 
already know that we are able to provide a burial headstone or 
marker or a replacement burial headstone or marker that 
includes both, the information of the veteran and the 
information of the dependent or spouse.
    However, we do not have the authority to provide a separate 
burial headstone or marker for spouses or eligible dependents 
in a private cemetery.
    Mr. Cisneros. Well, I am not talking about a separate 
tombstone. Like, my uncle and my aunt, when my uncle passed 
away, they got a tombstone that already had a spot for my 
uncle, you know, his name and his life information and also for 
my aunt and her information. Is the VA able to do that?
    Mr. Sullivan. With this new authority, if we receive this 
new authority, we would be able to provide either a burial 
headstone or marker with both, the veteran's information and 
the spouse's information. If the veteran or if the spouse 
predeceases the veteran, so if the spouse predeceases the 
veteran, at the time of the veteran's death, with this new 
authority, we would be able to provide a headstone or marker 
with both, the veteran's information and the spouse's 
information.
    However, if the veteran predeceases the spouse, the veteran 
would be issued a headstone or marker with the veteran 
information and that would be placed in a private cemetery, and 
then only upon the death of the spouse or eligible dependent, 
would we be able to issue a replacement headstone or marker 
that includes both, the veteran's information and the spouse's 
or dependent's information.
    And the reason we have to do that is because we only have 
authority to mark that grave with the spouse's information, 
with this new authority, upon the death of that spouse. So, we 
would not be able to mark that grave with the spouse's 
information prior to those remains being in that gravesite.
    Mr. Cisneros. And then on H.R. 2385, I just want to make a 
comment about that. I think it is a great idea that the VA, the 
national cemeteries are allowed to collect this information. 
The Navy Memorial, which is a nonprofit organization here, has 
a website that they call the Navy log. And you can actually go 
to the Navy Memorial, as well, which is located here in DC, but 
every acting or former servicemember, veteran of the sea 
service, whether it be Navy, Coast Guard, Marine, or even the 
Merchant Marines is allowed to kind of put that information 
into that log and keep track of it.
    So, I am very supportive of 2385. I think it is a great way 
to collect this information, and so I just wanted to get that 
on the record that I think it is a great idea. And we need to 
collect the information for our veterans so that we have a 
history of those individuals and the service that they did for 
this country, and with that, I yield back my time.
    Ms. Luria. Thank you, Mr. Cisneros.
    I now call on Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much.
    And, first of all, I want to associate my comments with Dr. 
Roe. Our Blue Water Navy veterans have waited too long.
    And my question for the entire panel--we will start with 
Dr. Sullivan, given the recent history, how do you believe the 
VA and DoD should work together with Congress and stakeholders 
to address future toxic exposure issues to ensure that we have 
evidence-based, scientific data necessary to determine whether 
a disability is linked to military service?
    Again, we--obviously, Agent Orange, our Vietnam veterans 
have waited too long over the years and now we have the toxic 
waste. What is going on in Iraq and Afghanistan--the burn- pit 
issue? We have got to get this right, and our heroes have been 
waiting too long, and we have to work together, because it is 
just not fair.
    So, Dr. Sullivan, please, if you can answer that question, 
I would appreciate it. And if the panel has any input, please 
give it to us.
    Mr. Sullivan. Thank you for the question, sir.
    Undoubtedly, VA needs to work with DoD and Congress to 
address these veterans' needs. I think the person on this panel 
that could best speak to that would be Dr. Hastings, so I am 
going to refer this question to her.
    Mr. Bilirakis. Okay. That is fine. Please.
    Dr. Hastings. Thank you, Mr. Sullivan.
    Sir, we work with the DoD very closely in Post-Deployment 
Health Services at the VA. We have a deployment health working 
group that meets monthly. We have other groups that work on 
issues.
    Congress has been very helpful to us with the Airborne 
Hazards and Open Burn Pit Registry, which is very active, and 
we are starting to data mine that. We also have worked very 
closely with your help with the National Academies of Sciences, 
Engineering, and Medicine, to answer some of the questions that 
are important to veterans.
    One thing that we are doing that is very exciting is the 
Individual Longitudinal Exposure Record. In my office right 
now, we have 6 registries. We have the Agent Orange Registry, 
the Gulf War Registry, the Toxic Embedded Fragment Registry, 
the DU Registry--depleted uranium--airborne hazards.
    So, these are separate registries, but if we have--we are 
working with DoD on the Individual Longitudinal Exposure 
Record, which would be a record that starts the day that the 
person signs into basic. It would include all of their 
deployments, where they have been, any monitoring that is done 
in the area, and we would be proactively looking at exposures. 
We would be able to build cohorts.
    For example, if we found out there was a problem later on, 
as we did at Qarmat Ali, the water treatment plant in Iraq, 
that there was chromium there. And we are following those 
veterans right now--there are about 700 of them--we would be 
able to say, there has been a problem here, we need to look at 
these people specifically. We would be able to get ahold of 
people better. We would be able to build cohorts for research.
    But the Individual Longitudinal Exposure Record is 
extremely powerful. It goes into its initial operating phase 
this fall, and it has been with your help that we have been 
able to do that.
    Mr. Bilirakis. Thank you. But I want to make a statement. 
How about giving them the benefit of the doubt and giving them 
immediately, the VA--all right. I will go on to the next 
question for Mr. Sullivan.
    Mr. Sullivan, what criteria does the Department use to 
award contracts for the Veterans Legacy Program?
    Mr. Sullivan. Yes, Congressman. We have several criteria 
for the Legacy contracts. First, only universities or nonprofit 
education organizations may apply. The teams that are working 
on developing the Veterans Legacy Program material must be led 
by tenure-track faculty with terminal degrees. Undergraduates 
and graduates that are engaged in veterans research, must be 
researching in an instructional context, or in other words, it 
must be part of coursework. Faculty teams must partner with 
local K through 12 teachers who will engage their students.
    Students will research veterans interred in national 
cemeteries of focus near the public--or I'm sorry, the near the 
universities or colleges that are working on developing these 
products. Students must visit the national cemetery of focus. 
Students that are conducting research must produce research 
that will be accessible to the public.
    Faculty teams must work with their K through 12 partners to 
produce instructional materials that are standards-aligned, and 
they must develop at least five lesson plans for use in K 
through 12 education and defined plans to extend the 
memorialization of Veterans Legacy. The project plans must 
include designs for instruments to assess the effectiveness of 
student participation in the program and the students must 
participate in either Memorial Day or Veterans Day ceremonies 
at the national cemeteries of focus.
    Mr. Bilirakis. All right. Thank you very much. I appreciate 
it. Thank you for your testimony.
    I yield back, Madam Chair. Thank you.
    Ms. Luria. Thank you. And I think that concludes questions 
from the Members of the Subcommittee.
    So, thank you, Mr. Sullivan, Mr. Friel, Mr. Curtis, and, 
Dr. Hastings for appearing before us today.
    I would like to invite the third panel of witnesses to the 
table. As they come forward, I will introduce the witnesses on 
the third panel. We have Ms. Melanie Brunson, government 
relations officer for the Blinded Veterans Association, Mr. 
Karl R. Horst, retired U.S. Army Major General, and president 
and CEO of the Congressional Medal of Honor Foundation, also 
joined by Ms. Allison Hedge Coke, distinguished professor of 
creative writing at the University of California, Riverside.
    So, Ms. Brunson, I would like to recognize you first for 5 
minutes for your statement.

                  STATEMENT OF MELANIE BRUNSON

    Ms. Brunson. My apologies. Thank you, Chairwoman Luria, 
Ranking Member Bost, and distinguished Members of this 
Subcommittee for the opportunity to speak to you today.
    As the only veterans' service organization exclusively 
dedicated to meeting the needs of blinded veterans and their 
families, BVA is pleased to support the legislation that is 
under consideration by this Subcommittee today. We believe that 
these bills will positively impact the quality of life for 
veterans and their families.
    I will focus the remainder of my remarks on one of these 
bills, in particular, H.R. 1199, the VA Website Accessibility 
Act. BVA supported this legislation when it was first 
introduced in the last Congress and we were very pleased when 
it passed the House with bipartisan support. We hope the 
current House will repeat this result and that at this time, 
the Senate will also pass this legislation. BVA supported this 
legislation and continues to do so.
    Although the situation has improved in recent years, the 
fact remains that VA regularly releases web pages and other 
forms of communication that pose major accessibility barriers 
for some of our nation's most vulnerable veterans; those with 
catastrophic disabilities, such as blindness and traumatic 
brain injuries that impair their ability to read.
    There is an expectation today that virtually every 
communication between Government and the people it serves can 
be conducted online and by the use of smart devices. This 
expectation is shared by many veterans, including some with 
disabilities. Veterans have come to expect the ability to do 
things like schedule appointments at VA medical centers, fill 
prescriptions, and file claims for VA benefits online, at any 
time, day or night.
    Increasingly both, the VA and the veterans it serves, finds 
devices helpful. Kiosks help with check-in for appointments at 
medical centers and video-conferencing technology enables 
consultation between doctors and patients that might not 
otherwise occur.
    Under these circumstances, anytime that issues related to 
the accessibility of such tools for veterans with disabilities 
are minimized or overlooked, some of our nation's most 
vulnerable veterans are left behind. Then, when these veterans 
can't access veterans' programs or services, this could, in 
turn, lead to more serious consequences such as exacerbation of 
their disabilities, depression, and possibly suicide. The 
longer VA waits to address such accessibility barriers, the 
greater the risk to these veterans.
    BVA believes this waiting game should end now, and the 
person who can most effectively put an end to it is VA 
Secretary Robert Wilkie. Unless and until VA's leaders make it 
known that they are committed to ensuring that VA's electronic 
communications are accessible to all veterans, including those 
with disabilities, the wait will continue, and some veterans 
will be left out to their detriment.
    H.R. 1199 provides an impetus for such a commitment by VA's 
leadership, but this legislation will only do so much. Its 
requirement that the VA secretary file a report to Congress 
containing a plan for addressing current accessibility 
barriers, though beneficial, does not ensure the subsequent 
removal of those barriers, nor does it ensure that those 
barriers or others won't reappear in the future.
    We, therefore, urge the Members of this Committee to 
support this legislation as the means of beginning a long-term 
effort by Congress to use its oversight authority to ensure 
that VA communicates using media that are accessible to all 
veterans, regardless of disability. If Congress gets serious 
about accessibility, VA's leadership will have yet another 
reason to do so.
    With that, I will conclude by saying, thank you, again, for 
this opportunity, and I am happy to answer any questions you 
may have.

    [The prepared statement of Melanie Brunson appears in the 
Appendix]

    Ms. Luria. Ms. Brunson, thank you again for being here 
today and for your remarks.
    I will now recognize General Horst for 5 minutes.

                   STATEMENT OF KARL R. HORST

    Mr. Horst. Madam Chair, thank you for your service and 
thank you for your leadership of this Subcommittee, as well as 
the distinguished support of your Committee for our veterans. 
It is an honor and a privilege for me to be here this 
afternoon.
    At the Congressional Medal of Honor Foundation, we have the 
privilege of working with our Nation's truest heroes, the 
recipients of the Medal of Honor. The mission of the Medal of 
Honor Foundation is to support the Medal of Honor Society, the 
recipients and their outreach programs, and to preserve the 
legacy of the Medal of Honor through education, outreach, and 
recognition.
    The Foundation also preserves the legacy of the Medal of 
Honor by promoting American values, specifically the qualities 
of courage, sacrifice, selflessness, patriotism, citizenship, 
and integrity.
    I am here today to reinforce and advocate for the 
Congressional Medal of Honor Society's position supporting H.R. 
1826, the Veterans' Valuing Our Widows and Widowers Act. The 
Society concurs with the language in the legislation outlining 
the payment of a special pension to the surviving spouses of 
Medal of Honor recipients. In the absence of a surviving 
spouse, the Society believes the special pension should follow 
a succession to the designated next-of-kin caregivers to 
receive the special pension from the Federal Government.
    The Committee's initiative to amend H.R. 1826 is both 
timely and necessary. Today, there are only 71 living 
recipients of the Medal of Honor, and they are a rapidly 
diminishing national treasure.
    Since January 15th this year, three more recipients have 
passed. The average age of the living recipient is 73 years 
old; the average age of the 58 World War II, Korea, and Vietnam 
veterans is 79 years of age. In fact, 18 of our living 
recipients are more than 80 years old.
    We at the Foundation have an opportunity to work with the 
Medal of Honor recipients at events throughout the year. I have 
seen firsthand how important spouses and caregivers are to our 
Medal of Honor recipients. In most cases, the caregivers are 
next-of-kin, family members, there are some instances where 
caregivers are not next-of-kin. However, to be clear, the Medal 
of Honor Society only supports the designated next-of-kin 
caregivers to be eligible to receive the special pension.
    The spouses and caregivers work tirelessly to ensure the 
recipients are able to participate in outreach events where 
they interact with the American public. In fact, spouses and 
caregivers allow recipients to travel and participate in 
outreach programs far beyond the normal age where most 
Americans will retire or limit their travel.
    The recipient stories of courage and valor in combat, and 
their compassion for fellow Americans, are inspiring to all who 
have the opportunity to come in contact with them. Their 
spouses and next-of-kin caregivers help make that possible, and 
this legislation is appropriate to support them and the 
recipients.
    The Society feels that the special pension is so important 
that the Society provides a 1-year continuation of this 
compensation to ease the burden on surviving spouses and 
designated next-of-kin caregivers.
    Madam Chair, thank you for the opportunity to be here 
today, and I am happy to take questions at your direction.

    [The prepared statement of Karl R. Horst appears in the 
Appendix]

    Ms. Luria. Thank you, General Horst.
    I now call on Professor Hedge Coke. You are recognized for 
5 minutes for your statement.

             STATEMENT OF ALLISON ADELLE HEDGE COKE

    Ms. Hedge Coke. Subcommittee Chair Luria, Ranking Member 
Bost, and Members of the Subcommittee, I want to thank you for 
the opportunity to testify before you today.
    My name is Allison Hedge Coke, I am here on behalf of the 
University of California at Riverside, in support of the draft 
bill to permit the Secretary of Veterans Affairs to conduct a 
grant program to conduct cemetery research and to produce 
educational materials for the Veterans Legacy Program. I am a 
poet, writer, and distinguished Professor of Creative Writing 
within our College of Humanities, Arts, and Social Sciences, 
and the Principal Investigator of the Along the Chaparral, 
memorializing the enshrined Cemetery Research Story Project.
    Story and culture are inextricable, and are the common 
thread of human knowledge. You might imagine a story as a 
continually evolving, multi-dimensional entity, spherical, that 
we intersect with on an as-need-to-know basis to learn in human 
society. The site we work with, Riverside National Cemetery, 
represents story of life in our region; it represents honor and 
service, an ulterior hope for peace; it represents the greater 
remarkable lives that continually add to the story, whereas the 
surrounding populations have at stake value from kinships that 
are interred here.
    Bringing UCR students and recent alumni into classrooms to 
foster storying research programming encourages K-12 students 
to look to education. Classroom youth have significant ties to 
the cemetery. They may not realize until the project is on 
their desk and they have given themselves to the discovery of 
family and neighborhood ties. Story creates culture, it teaches 
us who we are and how to be in the world, and it leads our 
futures.
    The Legacy Program delivers this terrific meeting of story 
and culture, and bridges the university to K-12 schools in 
surrounding cultures and communities that make up our region.
    In tribute to those interred, we created an interactive GiS 
Web Story app and mapped the cemetery with cutting-edge digital 
mapping. Its populated points affiliate hundreds of resulting 
K-12 tribute stories to subject gravestones. We published a 
print anthology. We have produced two documentary film 
archives, including nine films, a making-of documentary and 
eight portrait vignettes of those interred. We have produced 
five K-12 student performances and internationally-broadcast 
radio play of stories. We have also produced dozens of lesson 
plans toward a curriculum base in 14 months.
    To date, we have worked successfully and collaboratively 
with over 2700 K-12 students in approximately a hundred 
classrooms in these 14 months, in public schools and at Sherman 
Indian School, whereas an ongoing project has started for a 
Veterans mural at Sherman Indian High School.
    Too, the project has fostered an understanding for our 
research library, the Tomas Rivera Library, to serve as a 
receptacle for memorabilia denoted to the Riverside National 
Cemetery by next of kin.
    Challenges within the contract versus grant include the 
university system, formulated to address a more typical faculty 
grant system, whereas calls for proposals give a generous 
length of response and proposal calls and submissions coincide 
with our academic programming. The initial Legacy Program call 
came during winter holiday, whereas to step up as a PI, I was 
left to create the contract without regular support of primary 
contacts within the university and without the ability to 
continue planning with K-12 schools, who were also on holiday. 
The second call came in the holiday week in November. So, to 
write the proposals, my major holidays in 2017 and '18 were 
both sacrificed.
    If the university has a grant opposed to contract, the 
system is set up as a draw-down, so at the end of each month 
the university can draw down electronic funds to pay the 
services rendered. The grant would allow for more regular and 
fluid payments in this case, and service paid is served and 
greater ease of ability of institutional service to the 
program. A grant program would solve these dilemmas and ease 
our collaborative work.
    I want to thank you for allowing me to be here. I know that 
many of you are strong supporters and advocates for veterans. I 
also want to leave on the record our thanks to our 
representative, Chairman Takano, for recent visits and for 
allowing us to speak with Randy Reeves, the Undersecretary, 
about our project recently, and for serving our Native vets as 
well on campus.
    I will be delighted to answer any questions you may have.

    [The prepared statement of Allison Adelle Hedge Coke 
appears in the Appendix]

    Ms. Luria. Thank you, Professor Hedge Coke.
    I now recognize myself for 5 minutes for questions and I 
would like to start with Ms. Brunson. I greatly appreciate the 
work that you have done to advocate for and improve access for 
visually-impaired veterans. I was concerned to hear that access 
to the Veterans' Crisis Line, the chat feature was temporarily 
lost for visually-impaired veterans last year. Do you feel that 
implementation of H.R. 1199 would help reduce loss to access to 
these critical services in the future?
    Ms. Brunson. To the extent that this legislation does put 
in place the mechanism for developing a plan to access those 
features--to resolve those access barriers that exist at the 
time that the evaluation and report are done, yes, indeed. This 
is a welcome process. The plan for action would be a good 
thing, because, as the VA witness noted earlier, there isn't 
currently an enterprise-wide plan in place, and we believe that 
there needs to be a greater focus within the VA on resolving 
such barriers and the way to do that is to focus more attention 
across all of the business lines.
    Ms. Luria. Thank you. And can you explain to us some of the 
technologies that are most useful and most impactful for the 
blind as far as accessing websites?
    Ms. Brunson. Many blinded veterans currently use 
smartphones, because both Android phones and the iPhones in 
particular have screen readers that are built into them. And by 
turning on magnification features or features that make the 
phones talk, one can go online freely using the web browsers 
that are built in. Of course, blind veterans in particular and 
those with other reading disabilities as well have been using 
computers to access websites for a long time. Even devices like 
kiosks are equipped commonly with accessibility features.
    Ms. Luria. So you would assess that these are readily-
available technologies--
    Ms. Brunson. That is correct.
    Ms. Luria [continued]. --that many people who are blind or 
visually impaired are already familiar with, and they are not 
particularly costly or difficult to implement, because they are 
widely used elsewhere?
    Ms. Brunson. That is correct.
    Ms. Luria. Thank you.
    I will now turn to General Horst. Thank you for being here 
as well. And one of the responsibilities of the DAMA 
Subcommittee is to appropriately memorialize veterans, and
    your foundation does an amazing job of preserving this 
legacy of service and so often the great sacrifice of our 
heroes.
    You suggest an amendment that would allow honorees to 
designate next-of-kin caregivers as eligible to receive the 
special pension. Would you envision this designation to be for 
the lifetime of that designee?
    Mr. Horst. Thank you for that question, ma'am. No, we would 
envision it to be for the same 1-year period that it is for the 
spouse, for the surviving spouse, we would make the same 
recommendation for a next-of-kin caregiver that it would be a 
1-year period.
    Ms. Luria. Just for clarification, I guess I misunderstood, 
I thought that the way the bill was written was that it would 
be a continuing benefit.
    Mr. Horst. If you see it as a continuing benefit, then we 
would support that continuing benefit for a next-of-kin 
caregiver, as designated by the Medal of Honor recipient.
    Ms. Luria. And how does the Foundation view the suggestion 
by some that the designation for the surviving spouse should 
end in the event of remarriage, for example at the age of 55, 
such as in other programs?
    Mr. Horst. We believe that the criteria for the surviving 
spouse or next-of-kin caregiver would be consistent with the 
DIC criteria. It should mirror the VA's criteria as well. So 
before age 57, if a next-of-kin or a surviving spouse 
remarries, then they would lose that benefit. The special 
pension should mirror DIC.
    Ms. Luria. Thank you.
    And I yield back the remainder of my time and I now call on 
Ranking Member Bost for his questions.
    Mr. Bost. Thank you, Chair.
    And, Ms. Brunson, I know you have already expanded and my 
question was almost similar to the chair's, but I would like to 
know an explanation for whenever the--you know, such as an aid 
benefit right now, if you go online, if you are--with your 
organization who are blind, you can't access it now; is that 
correct?
    Ms. Brunson. There is a lot of variation between what is 
accessible and what isn't. Some of the websites and some of the 
online tools work wonderfully, others do not. It is sometimes 
simple as things like you can on occasion fill out a form, get 
all the information loaded, but you can't find the submit 
button. You know, there are sometimes features that prevent one 
from completing a task that you can partially do, but there are 
other times when there are--there are varying degrees, I guess, 
of accessibility-based depending on which resource you are 
talking about.
    Mr. Bost. Has your organization worked already with the VA 
to notify them on which areas we would want to--which ones are 
working and which ones aren't?
    Ms. Brunson. Yes. We meet regularly with the staff of the 
Section 508 office and we point out to them any time we 
encounter, or our members notify us about issues, and they try 
to be very responsive in resolving them, but sometimes it does 
take us to let them know.
    Mr. Bost. All right. Well, hopefully, we will pass this 
legislation and we will be able to make sure how important that 
is, I think all of us can agree.
    The next question is for Ms. Hedge Coke. If you could, 
could you expand again, because I heard it in your testimony, 
how difficult it is or what the different problems that exist 
with the difference between a grant and what the contract is at 
this time?
    Ms. Hedge Coke. Okay. So, financially for the university, 
grants are on what is called a draw-down system and contracts 
are paid at the end of. So on a draw-down system, monthly, 
funds become available to pay out for services rendered, and 
with a contract the funds are released at the end, for the most 
part. So the university is without supporting funds and is 
taking it out of their own care to cover the program. So it is 
not something universities are used to doing; the system is 
really set up for a grant system.
    Two, within this I was mentioning faculty issues. The VA 
had come to our campus several times to talk about opportunity 
with Legacy Program when they were initiating interest at 
universities nationwide. I was in Montenegro doing some things 
for the embassy the first time they came; I was out of state 
another time. And I got back, they couldn't get anybody to step 
up as PI, and I said I would love to do it. My father is a 
World War II vet, he had recently passed away. He got through 
World War II reading Rumi. And I came into poetry as a poet 
reading Randall Jarrell's Ball Turret Gunner. These things are 
effective in my work as a writer; I work in film. All the 
assets of the program that are used in our project I have done 
and knew I could lead.
    So I stepped up as PI. I had no university primary 
consultations available to me, because people were on their 
winter break. The K-12 schools I intended to work with were 
also on winter break. So it is one thing when I sacrifice my 
winter holiday, it is another thing when the resources that are 
normally available to a faculty member are not. So I don't know 
that anyone else would have stepped up. And the same thing 
happened in the next contract period for the next 2 years, it 
came on a Thanksgiving. So another holiday sacrificed with 
minimal support. Yeah.
    Mr. Bost. Thank you.
    I yield back.
    Ms. Luria. Thank you.
    I now call on Chairman Takano.
    Mr. Takano. Thank you.
    Welcome, Professor Hedge Coke.
    Ms. Hedge Coke. Thank you.
    Mr. Takano. It is good to see you here. Can you tell the 
Committee how much support our community has, the Inland Empire 
and Riverside, for this Legacy Program?
    Ms. Hedge Coke. I would be happy to, it is a great 
pleasure.
    The region that we are in, Riverside National Cemetery, 
serves a 70-mile perimeter. Within this region, depending on 
who you are talking to or what year they are looking at, 
rationales to decide the numbers, it is anywhere between fourth 
and eighth in the Nation for service in different aspects, 
which is a huge contingency of service over the years. There 
are also 19 reservations in the local area, four which have 
proximity to the cemetery site. As you know, Native vets have 
always had a high military service as well.
    The Latino community there has been a cull group during 
times of action for front line members in service.
    So we have a very large network of veteran families. As I 
said a minute ago, the kids are connected inextricably from 
this site. When our project lands in their classroom, 
oftentimes a third of the room has somebody there that they 
came from, they descended from buried there. So we may assign 
them a name and they will raise their hand and say, well, my 
grandma says I have to do Uncle Bob, and that happens quite 
often.
    So we are helping to reinvigorate the community's 
involvement with those that have passed as well and keeping 
their stories memorialized and live.
    King High School has a program in Riverside which does 
oratory from living vets every year. It is a 10-year program. 
When I started this project and went to King High, the first 
roster we used was their final roll count that they had done 
over the years of people that they had interviewed, and I 
located who was buried at this cemetery and that was our start 
group that we isolated for story.
    We have about 200 student veterans on our campus, the 
veteran population on campus is somewhere around 450, including 
dependents of active and veteran military servicemembers. We 
have a veterans' center on campus.
    I also teach in the medical school in narrative medicine 
and my students serve--who are humanities students serve the 
vets' center during finals--and coping techniques and such 
through story, the medical students have hospitals to do this 
in. But we have a huge contingency of service active people and 
former servicemembers, many disabled citizens. We are very 
near; March Air Force Field brought a lot of people to that 
area of California as well.
    I think that is the nutshell.
    Mr. Takano. Well, Professor Hedge Coke, you also mentioned 
the Native American tribes.
    Ms. Hedge Coke. Yes.
    Mr. Takano. Has there been much interest among the tribal 
members?
    Ms. Hedge Coke. Oh, yes. And I have to say of our team on 
campus, a large contingency of the co-PIs and myself are 
affiliated with the California Center for Native Nations on 
Campus and we were the first to step up on campus. Many of the 
students involved are also Native and/or work in Native 
studies. And in the school districts, serving in classrooms, a 
lot of students who are going out to serve the kids are also 
from that background.
    In addition to Sherman Indian School, we are adding Anza 
and Noli this summer. And not only did Sherman work at doing 
storying, but they put together the radio play that we 
broadcast internationally last November, and they created the 
mural that is now up at the cafeteria area, veterans' mural.
    They also have a lot of veterans' pow-wows, not only on the 
reservations, but in the urban communities and at Native school 
as well.
    Mr. Takano. Wow. And of course the prominent Latino veteran 
Ismael Villegas--
    Ms. Hedge Coke. Yes.
    Mr. Takano [continued]. --is a Congressional Medal of Honor 
recipient.
    Ms. Hedge Coke. Absolutely.
    Mr. Takano. And so we have a wide--cast a wide net in terms 
of the story that we tell. The stories that we tell really are 
quite diverse and inspiring of the history that they bring.
    Ms. Hedge Coke. Yes. Also, Tuskegee Airmen are out there, 
there are a lot of women soldiers buried out there, Asian 
American soldiers. It is not a microcosm of society; it is the 
same size as Riverside. So it is twin cities, the living and 
the dead, and so it is a separate macrocosm of society there.
    Mr. Takano. Well, thank you.
    I yield back, Madam Chair.
    Ms. Luria. Thank you, Chairman Takano. I now call on 
Ranking Member Roe. No questions?
    Well, thank you very much to our panel for appearing today 
and taking time to provide your statements and answer 
questions.
    I would now like to call the fourth panel to the witness 
table.
    [Pause.]
    Ms. Luria. So, as they come to the table, I will introduce 
the members of the fourth panel. This includes Mr. Carlos 
Fuentes, Director of the National Legislative Service for the 
Veterans of Foreign Wars; Mr. Rick Weidman, Executive Director, 
Policy and Government Affairs, at the Vietnam Veterans of 
America; Mr. Chanin Nuntavong, Veterans Affairs and 
Rehabilitation Division Director at The American Legion; Mr. 
Shane Liermann, Assistant National Legislative Director, at the 
Disabled American Veterans; and Mr. David Butler, Director of 
the Office of Military and Veterans Health at the National 
Academies of Sciences, Engineering, and Medicine. I would like 
to thank you all for being here today.
    [Pause.]
    Ms. Luria. We will start with Mr. Fuentes.
    Mr. Fuentes, you are recognized for 5 minutes.

                  STATEMENT OF CARLOS FUENTES

    Mr. Fuentes. Chairman Luria, Ranking Member Bost, and 
Members of the Subcommittee, on behalf of VFW and our 
Auxiliary, thank you for the opportunity to present our views 
on legislation pending before the Committee.
    I would like to first begin by thanking the Committee, the 
Chairman and the Ranking Member, and especially the staff, for 
your tireless dedication and hard work on H.R. 299, and for 
working to ensure the Blue Water Navy Veterans receive the 
benefits they have been wrongfully denied for more than a 
decade.
    The VFW was rejoiced with the overwhelming decision of VFW-
supported Procopio v. Wilkie court case, which reversed a 
years-long ruling and paved the way for the restoration of 
benefits for Blue Water Navy Veterans. We would also like to 
thank Secretary Wilkie for his recommendation to not appeal the 
decision; however, the decision can be challenged and 
overturned in the future. Congress must pass H.R. 299, the Blue 
Water Navy Vietnam Veterans Act of 2019, to make certain that 
Blue Water Navy Veterans never have their benefits taken away 
ever again.
    This bill also includes expansion of much-needed benefits 
for Korea DMZ veterans and Thailand veterans. The VFW supports 
expansion of benefits for Korea DMZ veterans who suffer from 
diseases and illnesses directly linked to Agent Orange 
exposure. While many of these veterans receive presumptive 
disability compensation for their service-connected conditions, 
hundreds are left out, despite clear congressional intention 
for them to be included. This legislation would provide them 
the benefits they have also been wrongfully denied.
    H.R. 299, unfortunately, did not pass last Congress, 
because one Senator doesn't believe that Agent Orange made Blue 
Water Navy Veterans sick and another one was concerned with the 
cost. This Congress cannot let veterans down again.
    The VFW supports the Honoring Veterans' Families Act, which 
would authorize VA to properly recognize the surviving spouse 
and dependents of our Nation's veterans. The VFW is also glad 
this bill would establish a retroactive effective date to 
properly recognize a spouse and dependent who is already buried 
with an eligible veteran, but lacks the proper recognition on 
the veteran's headstone. The VFW would, however, recommend that 
the Subcommittee align the effective date with a recently 
passed public law which would authorize VA to provide 
headstones for certain spouses and dependents who died on or 
about November 11, 1998.
    The VFW supports the Veterans' Compensation Cost-of-Living 
Adjustment Act of 2019, which would increase VA compensation 
for veterans and survivors, and other benefits. The VFW is 
pleased to support any bill increasing COLA for veterans; 
however, we would prefer the COLA be made permanent and an 
automatic increase.
    The VFW also supports the Enewetak Atoll Clean-Up Radiation 
Study Act. Those who wear the cloth of our Nation go into 
harm's way without hesitation, it is our duty to take care of 
the repercussions of such selfless service. This is one more 
example of military toxic exposures causing adverse health 
conditions which have been ignored too long.
    The VFW also thanks the Committee for its attention in 
numerous roundtables on Enewetak Atoll and for fighting to 
secure those veterans the benefits they deserve.
    The VFW supports the Veterans Valuing Our Widows and 
Widowers Act, which would transfer the Medal of Honor pension 
to surviving spouses. Medal of Honor recipients have made 
extraordinary sacrifices for our country and are rightfully 
awarded a special pension for their heroic acts. Their loved 
ones often forgo careers to become full-time caregivers. This 
means they become dependent on Medal of Honor pension to make 
ends meet; however, the Medal of Honor pension ends with the 
death of the recipient and their surviving spouses often do not 
qualify for VA benefits upon their death.
    The VFW also supports the draft legislation to establish a 
grant program to conduct cemetery research and produce 
educational material for the Veterans Legacy Program. 
Perpetuating the life and memory of our fallen is one of the 
VFW's founding principles. The Veterans Legacy Program ensures 
that the memory and stories of the brave men and women buried 
at national cemeteries are preserved in perpetuity. The VFW is 
a strong supporter of this program and has worked with the 
National Cemetery Administration to improve and expand it.
    Madam Chairwoman, this concludes my statement. I am happy 
to answer any questions you or the Members of the Committee may 
have.

    [The prepared statement of Carlos Fuentes appears in the 
Appendix]

    Ms. Luria. Thank you, Mr. Fuentes.
    I would now like to call on Mr. Weidman from the Vietnam 
Veterans of America for 5 minutes.

                   STATEMENT OF RICK WEIDMAN

    Mr. Weidman. Thank you, Madam Chair and Ranking Member 
Bost.
    The VVA strongly favors passing of 299 and--I often forget, 
because most of the time I don't need a mike, but I understand 
it is for the record--is this legislation is so long overdue 
that we can hardly stand it.
    As you know, our membership exists and comprises 
exclusively of Vietnam Veterans. So this is an issue that is 
very hot with us. We need to clear up the wrong that was done 
in '97, without a shred of scientific evidence, I might add. We 
always have to come up with evidence that is compelling, but VA 
removed us from--the Blue Water Navy Veterans from the Agent 
Orange Act of 1991.
    Now, the intent of the '91 act--and we know what we are 
talking about, because we worked with, on this side it was Lane 
Evans and it on the Senate side it was Senator Daschle, to get 
that bill written, and it was written and envisioned as to 
include everybody who served in the waters off Vietnam; not a 
particular coordinate, not a territorial seas necessarily, but 
anybody who served in the waters off Vietnam.
    The scientific evidence is in fact there. The 2011 National 
Academy of Medicine report is crystal clear that it was there. 
The only reason why they didn't kick it up a notch, if you 
will, was they said they didn't know how much each person was 
exposed.
    So we asked, we meaning AUSN, Association of United States 
Navy and Fleet Reserve, asked the chair of that panel, well, 
Doctor, can you explain to us what is a safe dose of dioxin? 
And her comment back was what we already knew, is there isn't a 
safe dose of dioxin. A harmful dose was at that time defined as 
7 parts per billion, it is now 5 parts per billion. And when 
they reviewed the science having to do with Blue Water Navy 
they found that we were absolutely correct, that the 
desalinization units picked it up and concentrated the dioxin 
in the water many times, up through a hundred or even more 
times over, making that anybody who drank water on that ship or 
anybody who ate the food that was prepared on that ship was in 
fact ingesting a significant dose of dioxin. And remember that 
it was happening every day for months. So the scientific 
evidence is there.
    In terms of moving forward, we continue to have the 
position at VVA that if you were awarded the Vietnam Service 
Medal for service in a surface ship off Vietnam, then you 
should be in.
    We would also urge the Committee to press the Secretary for 
implementation of the reports that have been pending and the 
recommendations on additional presumptives. It has been 3 years 
now and it needs to get done.
    All of the stuff with Agent Orange, I would remind the 
chair and all present, that the mean average age of Vietnam 
veterans will be 73 come June of this year. The median age is a 
little bit younger; it is about 71 point something, but because 
of our exposures people are dying early. And in all of the 
presumptives and this group of people who have been harmed with 
toxic wounds needs to get taken care.
    The last thing I want to say, even though there isn't a 
bill on it, is the Committee needs to be keenly aware that the 
so-called registries VA has are not registries; they are simply 
email lists or mailing lists for snail mail. What we need is a 
real registry where you can follow the health of people by 
coding their electronic health care record. While we wait for 
the new EHR to be implemented, that could take 10 or 15 years. 
What we need--they have three blank fields on the current EHR 
in use at VA. With three blank fields, 26 letters and zero 
through 9, you can come up with many hundreds of codings. So 
where somebody served, what branch they served in and their 
MOS, all can be coded, so that you can find out and do 
epidemiological work. That is exactly what the National Academy 
of Medicine was saying over and over and over again for the 
last 20 years is the VA and DOD do not mine the mountains of 
data they have on every doggone one of us. And I encourage the 
full Committee and this Committee to require VA to do that 
coding and start it now using the existing system.
    I thank you very much for your patience and for your 
attention to these important matters today. Thank you.

    [The prepared statement Rick Weidman appears in the 
Appendix]

    Ms. Luria. Thank you, Mr. Weidman, for your statement.
    I would now like to turn to Mr. Nuntavong from The American 
Legion. You are recognized for 5 minutes.

                 STATEMENT OF CHANIN NUNTAVONG

    Mr. Nuntavong. Thank you.
    This year, Nina would have been married to U.S. Army 
Sergeant First Class Augusto Tito Pineiro for 10 years, they 
have three children, but on October 9th, 2017, Tito was riding 
a bicycle around 7:00 a.m. when he was struck by a vehicle 
heading in the same direction. He died at the age of 38.
    Chairwoman Luria, Ranking Member Bost, and distinguished 
Members of this Committee, on behalf of National Commander 
Brett Reistad, representing 2 million dues-paying members 
living in every state in American territory, it is my duty and 
honor to present The American Legion's position on pending 
legislation being discussed here today.
    Shortly after Tito's death, he was cremated. His family 
plans on burying him in a private cemetery in Florida. This 
non-VA cemetery is the site where Nina intends to join her 
husband. However, current law does not allow the VA to add 
information about spouses and/or children to Government-
furnished gravestones or markers in a non-VA cemetery.
    Including family information on headstones and markers is a 
standard custom in our society; families of veterans should not 
be any different. H.R. 1126 is a commonsense bill that ensures 
veterans and their family members receive the support and 
recognition they deserve.
    For over 100 years, The American Legion has advocated on 
behalf of our Nation's veterans, including the awarding of 
disability benefits associated with chronic medical conditions. 
Annually, veterans and their families are subjects in a debate 
regarding the cost-of-living adjustments. For these families, 
COLA is not simply an acronym, it is a tangible benefit that 
meets the needs of increasing costs of living in the Nation 
that they defended. The proposal in H.R. 1200 is simple, Madam 
Chair, this bill will increase compensation and pension 
benefits to those who need it most.
    In this year's landmark Procopio decision, the Federal 
Circuit ruled in favor of Blue Water Veterans. Yes, they were 
exposed to toxic herbicides. Yes, service in the Vietnam War 
extended from the coast out to the sea. And, yes, VA must begin 
granting claims of veterans who suffer from the conditions set 
forth as presumptive under U.S. Code.
    We are pleased that VA Secretary Robert Wilkie told the 
Senate that he would not ask the Department of Justice to 
appeal the decision, and we believe that Congress is doing the 
right thing for our Blue Water Veterans and their families by 
enacting into law what the Federal Circuit decided and what VA 
said it would not oppose. There should be no changes to other 
veteran benefits because Congress is implementing a court's 
decision. Congress should enact into law the broadest 
definition possible, and provide clarity and guidance for the 
expected VA regulations implementing Procopio, and thereby 
potentially avoiding further legislation over the definition 
that might needlessly delay the approval of VA claims.
    Our veterans deserve no less, as they have waited patiently 
for more than 44 years, and we believe VA should begin to act 
even before H.R. 299 becomes law.
    Like their Blue Water colleagues, servicemembers cleaning 
various nuclear testing sites during the 1970s and '80s were 
exposed to significant toxic exposures because of their duties. 
These individuals who participated in cleaning up these nuclear 
testing sites suffer from high rates of cancer due to their 
exposure to radiation and nuclear waste. They are currently 
unable to receive the same treatments and service-related 
disability presumptions that other radiation-exposed veterans 
receive from the VA. The American Legion believes that these 
veterans deserve the same benefits that U.S. law guarantees to 
other servicemembers impacted by their toxic exposures, and we 
believe that VA should be responsible for the care of these 
atomic clean-up veterans. We support H.R. 1628.
    Ladies and gentlemen, let's give America's sons and 
daughters the benefits they have earned.
    We thank Chairwoman Luria and Ranking Member Bost for their 
incredible leadership and always keeping veterans at the core 
of their mission. It is my privilege to represent The American 
Legion before this Committee. I look forward to answering any 
questions you may have.

    [The prepared statement of Chanin Nuntavong appears in the 
Appendix]

    Ms. Luria. Thank you for your statement.
    I would like to now turn to Mr. Liermann from the Disabled 
American Veterans for 5 minutes.

                 STATEMENT OF SHANE L. LIERMANN

    Mr. Liermann. Thank you.
    Chairman Luria, Ranking Member Bost, and Members of the 
Subcommittee, on behalf of DAV's more than one million members, 
we thank you for the opportunity to present our views at 
today's legislation hearing on the Subcommittee of Disability 
Assistance and Memorial Affairs.
    In our written testimony, we address all seven bills of 
concern for today's hearing and I refer you to our statement of 
record. This afternoon, I will be primarily focusing on the 
amendment in the nature of a substitute to H.R. 299, the Blue 
Water Navy Vietnam Veterans Act of 2019.
    DAV strongly supports the amendment, which will help 
correct the injustice done to Blue Water Navy Veterans.
    When VA implemented the Agent Orange Act of 1991, they 
determined that veterans who received the Vietnam Service 
Medal, to include those who served in the waters offshore, were 
exposed to Agent Orange. In 1993, a VA General Counsel opinion 
held that veterans with service in the waters offshore were 
exposed to Agent Orange.
    In 1996, Congress passed the Veterans Benefits Improvement 
Act, which extended the official wartime period of service in 
Vietnam. However, a subsequent VA General Counsel opinion in 
1997 misinterpreted that statute and determined only veterans 
who physically served in Vietnam would be granted a concession 
of exposure to Agent Orange. This is the precise moment when 
the VA started to explicitly exclude Blue Water Navy Veterans 
and negatively impact their access to VA health care and 
service-connected benefits.
    And then again in 2002, the VA updated its manual, 
reiterating that exposure to Agent Orange was conceded only to 
those physically in Vietnam.
    So, to clarify, from 1991 to 1997, veterans with service in 
the waters offshore of Vietnam, were considered to have been 
exposed to Agent Orange, as Congress intended. The decision to 
exclude Blue Water Navy Veterans was not based on any medical 
or scientific evidence, law, or congressional intent; it was 
based solely on their misinterpretation.
    In 2006, the Court of Appeals for Veterans Claims held that 
VA's interpretation was incorrect. However, VA subsequently 
appealed that decision to the Federal Circuit. In 2008, the 
Federal Circuit gave deference to the VA's interpretation, 
which continued to exclude Blue Water Navy Veterans.
    As you know, during the 115th Congress Blue Water Navy 
legislation passed the House with a vote of 382-to-zero; 
however, the bill was not successful in the Senate. We are 
pleased that Chairman Takano and Ranking Member Roe have 
collaborated to bring H.R. 299 back before the Committee.
    On January 29th, the U.S. Court of Appeals for the Federal 
Circuit in Procopio v. Wilkie overruled VA's previous 
misinterpretations and determined that service in the Republic 
of Vietnam includes the territorial waters within 12 nautical 
miles of the base line. H.R. 299 would protect Procopio's 
holdings that service in the Republic of Vietnam includes the 
territorial waters. This bill would use the same grid 
coordinates in the legislation approved by the House last year, 
which would extend beyond 12 nautical miles in some locations, 
particularly in the Mekong Delta.
    We strongly support H.R. 299, as it is in alignment with 
DAV Resolution 33, which advocates that service in the Republic 
of Vietnam includes service in the territorial waters.
    Tens of thousands of veterans, their families, and their 
survivors have been denied their earned benefits for decades. 
While it is way past due, it is time that we correct the 
injustice done to Blue Water Navy Veterans and provide 
protection of the Procopio decision by passing H.R. 299.
    In closing, Madam Chair, I would like to note that H.R. 
1200 would authorize a cost-of-living adjustment for veterans 
in receipt of compensation and pension, and for survivors of 
veterans in receipt of DIC, and provide an increase by the same 
percentage as Social Security effective December 1st, 2019. DAV 
supports H.R. 1200 and we are pleased that it does not include 
any language about rounding down the proposed COLA increase.
    This concludes my testimony. I would be pleased to answer 
any questions you or Members of the Subcommittee may have.

    [The prepared Statement Of Shane L. Liermann appears in the 
Appendix]

    Ms. Luria. Thank you.
    I would now like to call Mr. Butler from the National 
Academies of Sciences, Engineering, and Medicine for 5 minutes.

                  STATEMENT OF DAVID A. BUTLER

    Mr. Butler. Chairman Luria, Ranking Member Bost, Chairman 
Takano, Ranking Member Roe, thank you for the opportunity to 
testify today. I am here in my capacity as a scholar in the 
Health and Medicine Division of the National Academies of 
Sciences, Engineering, and Medicine, and as Director of its 
Office of Military and Veterans Health. Accompanying me is Dr. 
Ourania Kosti, Senior Program Officer in the National 
Academies' Nuclear and Radiation Studies Board, and Principal 
Investigator for the Radiation Effects Research Foundation 
Program, which provides support to a cooperative Japan-U.S. 
research organization that studies radiation effects in 
survivors of the atomic bombings of Hiroshima and Nagasaki.
    The National Academies has a long history of advising the 
Federal Government on the health effects of radiation exposures 
in general and in radiation exposures resulting from military 
activities in particular, work that began in 1946 with a 
directive from President Truman. Since then, among other 
efforts, we have conducted reviews of the methods used to 
assign radiation doses to service personnel at nuclear weapons 
tests, an examination of the use of film badge dosimetry in 
atmospheric nuclear tests, studies of the mortality of military 
participants in U.S. weapons tests, and in 2003, a 
comprehensive review of the dose reconstruction program of the 
Defense Threat Reduction Agency.
    The National Academies has also previously done dose 
assessments generated by the Federal Government for personnel 
exposed to radioactive materials as a result of their work in 
the Department of Energy's Hanford, Fernald, and Savannah River 
nuclear weapons productions facilities.
    The Office of Military and Veterans Health that I direct 
has analyzed data on the causes of death of participants in the 
Operation CROSSROADS atmospheric nuclear test series that took 
place in the Bikini Atoll in the Marshall Islands.
    I have included a list of National Academies reports 
related to ionizing radiation exposure and radiation dose 
reconstruction in the materials submitted for the 
Subcommittee's reference.
    Turning to the legislation in consideration in this 
hearing. H.R. 1628 outlines the parameters of the study that 
would allow for a more complete understanding of the radiation 
doses received by those involved in the clean-up operations 
undertaken at Enewetak Atoll from 1977 to 1980 in response to 
nuclear testing in the areas in the 1940s and '50s. It takes as 
its starting point the 2018 Defense Threat Reduction Agency 
dose assessment for military personnel involved in clean-up 
operations.
    A radiation dose assessment, which is also called a dose 
reconstruction, is, in brief, a means of characterizing a 
person's received ionizing radiation dose through an accounting 
of exposure scenarios, exposure pathways, and uncertainties. 
Depending on the available information, a dose assessment may 
include some combination of direct or indirect measurements 
obtained, for example, by film badge or field survey 
instruments; and estimates of unmeasured parameters that are 
based on historical data, along with proxies for exposure, such 
as a subject's job and a subject's recollection of the tasks 
that they performed, the physics of radioactive materials, and 
human biology and physiology.
    A radiation dose assessment often entails the calculation 
of the estimated upper-bound dose, that is the dose that would 
occur if all the uncertain elements of the analysis were set to 
the plausible value that would in combination yield the highest 
estimate.
    The proposed study would address two primary questions 
related to the Enewetak veterans, whether information exists to 
conduct a revised or alternative radiation dose assessment that 
would consider exposures and exposure pathways that were not 
part of the 2018 radiation dose assessment, and whether 
conducting such a revised or alternative dose assessment is 
feasible and be likely to yield a substantively improved 
estimate of the radiation dose received by those who 
participated in the cleanup. If the answers to those questions 
were yes, the study would go on to identify the sources of data 
for the new assessment, including a delineation of the 
assessment protocol; estimate the time and funding needed to 
conduct the assessment; identify the assessment's major sources 
of uncertainty and how such sources may affect the estimates 
generated; and identify the best means to carry out the new 
assessment.
    The National Academies believes this is a scientifically 
sound approach to addressing lingering questions regarding the 
exposure of Enewetak veterans and that the results would allow 
veterans, their loved ones, and the Federal Government to make 
more fully informed decisions.
    Thank you for your attention. Dr. Kosti and I would be 
happy to answer your questions.

    [The prepared statement of David A. Butler appears in the 
Appendix]

    Ms. Luria. Thank you very much to all of you for your 
statements. And I now recognize myself for 5 minutes for 
questions.
    I would like to start with discussing the Blue Water Navy 
Act, H.R. 299, with the different VSOs that are present. And 
you can jump in or if someone particularly wants to speak more 
than once on the same question, feel free to let me know.
    What are the current issues facing an aging Blue Water Navy 
population who seek disability benefits from herbicide-related 
diseases? Can you list, you know, some of the main health 
factors that they are experiencing and what is most prevalent 
among this population.
    Mr. Fuentes. Really what it comes down to is they are sick 
and dying from the 15 conditions that are scientifically linked 
to Agent Orange. They really don't have the benefit of time, as 
Rick explained, and have been denied benefits for far too long. 
So we can't delay any further.
    Mr. Weidman. VA hasn't tracked what kind of illnesses Blue 
Water Navy has. Australians, they first discovered the anomaly 
that the Navy vets, the Australian Navy vets had higher cancer 
rates than the ground pounders. And so they commissioned the 
University of Queensland to look into it, and they went back 
and studied what was going on. And they discovered that it was 
through the desalinization units that their sailors were being 
poisoned and, because the desalinization units concentrated the 
dioxin many times over, they were getting cancers of the 
digestive tract mostly on much higher incidence than even the 
ground pounders.
    So VA for a long time claimed that American ships do not do 
the desalinization using the same theory. Well, it turned out 
that not only did we do the same theory, it was the same units 
manufactured by W.D. Burrows and Son, and installed on the 
American ships and installed on the Australian ships.
    So the history of mendacity, misleading, and confusion, 
shall we say, deliberate confusion, goes back a long way when 
it comes to Blue Water Navy and it is just time to do it.
    Ms. Luria. Yes.
    Mr. Weidman. Their families are suffering, et cetera, and 
it is time. And I thank you very much for moving forward on 
this issue.
    Ms. Luria. I agree with you wholeheartedly that it is time 
that we take action on this and we provide the benefits and the 
health care that these veterans deserve based off their 
service.
    I would like to shift now to hear from the various VSOs. Do 
you think the VA is adequately prepared to begin providing 
disability compensation and health care benefits to Blue Water 
Veterans? And, you know, once this change happens by hopefully 
enacting H.R. 299, what do you think are the biggest barriers 
to making sure that people who have not previously received 
that care or that recognition of a service-connected disability 
or illness are going to have seeking that care?
    Mr. Fuentes. They are not--at this moment, they are not. 
But, to their credit, Undersecretary for Benefits, Dr. 
Lawrence, has reached out to us to plan a way forward. And, 
frankly, the biggest challenge is to make sure that those folks 
who have been denied benefits and were denied in the past, and 
even their survivors, really are made whole and in a timely 
basis. So we don't want backlogs. And it is a way to get it 
done and we will work with VA to do so.
    Mr. Liermann. I think one of the biggest problems they are 
going to be facing is from a development point of view. When a 
veteran establishes a claim, it goes through the development 
process before it goes to a rating RVSR to make a decision on 
the case, and for them to try to get the information on the 
location of the ship, was the veteran on the ship at the time 
it was exposed, that is probably going to be the biggest piece 
of this that has potential to slow it down.
    DAV has also made recommendations to VBA that they should 
have started this process several months ago to help alleviate 
it when we get to this point, because that really is going to 
be, I think, one of the biggest hurdles; not making the 
decision, once they have determined if they were exposed and 
they have a disease, that is actually the easy part, the hard 
part is going to be the development in the determining where 
were they and were they considered exposed.
    Ms. Luria. Thank you. I can imagine it would be quite a 
complex thing tracing back through, you know, deck logs and 
service records and determining dates of where ships were 
located at specific times. So I see it as a complex task to 
identify this information for each individual veteran, so I 
agree that the groundwork should be started as soon as possible 
to make this more smooth.
    And, you know, you have referred as well to some of the 
veterans who have been denied in the past. So I assume that 
many of these are known cases, yet there are some that are not 
known, because people haven't potentially presented themselves 
in the past in seeking a claim.
    So how will you as VSOs seek to communicate and find these 
other individuals who may not have yet come forward thinking 
that potentially they could have been eligible for this 
benefit?
    Mr. Weidman. They need to pull the ship's roster and deck 
log and computerize them. It is not hard and, frankly, we are 
just not talking about that many ships. We made that 
recommendation and I think a number of our colleagues 
represented here made the same recommendation to the VA 2 
months ago just in case. And, if I was a betting man, I would 
bet that one of the reasons why they wanted to reserve the 
right to appeal and an extra 90 days is to get set up. And we 
also suggested they choose five regional offices, not some of 
the biggest ones, and immediately start staffing up there for 
regular claims and train those staff as to how to do these 
claims. And whether they have done it or not, I do not know, 
but we have recommended it repeatedly.
    Ms. Luria. Thank you.
    I think I have gone over the time, so I will now call on 
Ranking Member Bost.
    Mr. Bost. Thank you, Chair.
    Dr. Butler, some veterans have voiced concerns that the 
method DOD used to estimate the potential dosage of radiation 
exposure at Enewetak clean-up veterans was unreliable or 
outdated. How would the NAS study under H.R. 1628, the Enewetak 
Atoll Clean-Up Radiation Study Act, differ from DOD's 
investigation in 2018 on radiation assessment--assessing the 
amount of dosage that they received?
    Mr. Butler. Well, if the National Academies were asked to 
perform the study, we would form an expert Committee that would 
evaluate the DOD radiation assessment report. That Committee 
would examine the data and assumptions that went into the 
assessment, determine whether there were any gaps or 
alternative ways to characterize the exposure, and manage the 
uncertainties involved.
    To draw its conclusions, the Committee might review a 
sample of individual dose assessments that were performed and 
evaluate those. That was the approach that we took in our 2013 
review of DOD radiation dose assessments. Very importantly, we 
would look at how uncertainty was being factored into the 
analyses.
    If the Committee identified alternative or additional data, 
or ways to more completely assess the doses, then it would 
offer recommendations on how to improve the assessments. For 
example, it might recommend that sampling be done from the 
veterans themselves to determine whether there are measurements 
that could inform a better-characterized exposure assessment.
    Mr. Bost. So it has been 40 years since the cleanup. So how 
would you estimate--after 40 years, how in the world do you get 
back there and figure out, okay, this person was exposed to 
this much, or how do you do that?
    Mr. Butler. For that question, I would like to defer to my 
colleague Dr. Kosti.
    Ms. Kosti. Thank you. So, indeed, any dosage construction 
relies on data and information that was collected in the past. 
So we would rely on badge measurements that were done in the 
past, field measurements, recollection of the veterans of where 
they were, what kind of tasks they were doing at the time. So 
all this information is past-looking, and it has its 
uncertainties, inherent uncertainties.
    There are ways to do better analysis today to inform and 
add information to what already exists, and Dr. Butler measured 
one of those by taking current measurements today with the 
consent of the veterans.
    Mr. Bost. Okay, thank you.
    Mr. Weidman, can you please briefly describe VVA's belief 
that the Agent Orange presumption period for veterans who 
served on or near Korean DMZ should begin in September 1st, 
1967 instead of April 1st, 1968?
    Mr. Weidman. Because we believe that Agent Orange, frankly, 
was used wherever American troops were. It is just as simple as 
that.
    And, incidentally, that is not limited to the DMZ in Korea. 
We believe they were used every place we had a military base, 
certainly in the Pacific, but also many places in the United 
States, like Edwards Air Force Base in Florida and et cetera. 
And most of those are not recognized and, frankly, the track 
record of being forthcoming on the part of DOD is not 
thrilling, shall we say. So more needs to be done with your 
colleagues in the Armed Services Committee in digging into it.
    Thank you.
    Mr. Bost. Madam Chair, I yield back.
    Ms. Luria. Thank you.
    I now call on Chairman Takano for 5 minutes.
    Mr. Takano. Thank you, Madam Chair.
    Mr. Weidman, I am going to ask each of the VSO 
representatives to just answer this simple question, take about 
a minute to do it: can you tell the Committee how important it 
is for your members and our veterans that we get H.R. 299 
passed into law?
    Mr. Weidman. Extremely important, top priority.
    Mr. Takano. Mr. Fuentes?
    Mr. Fuentes. It is the number one issue we hear about 
today.
    Mr. Takano. Mr. Nuntavong?
    Mr. Nuntavong. We are extremely--it needs to get done, 
Chairman.
    Mr. Takano. And Mr. Liermann?
    Mr. Liermann. Yes. Thank you, Chairman. Out of our over 1 
million members, over 480,000 of them are Vietnam-era veterans, 
so this is a big priority and very urgent for our membership.
    Mr. Takano. You can go a little further than a couple 
words, but just kind of give me some--the Committee the 
urgency.
    Mr. Liermann. I have been representing veterans for about 
21 years, we have been representing them at different VA 
regional offices in the Board of Veterans' Appeals for 5 years, 
and I can say this: it is a horrible feeling when you have to 
tell a veteran that no matter what we do they are not going to 
be eligible for that presumptive because they were on ship, 
they weren't in country. Unfortunately, we have had that 
experience over and over and over again over the last 20 years, 
because they are not being allowed. Those veterans are dying, 
their survivors are not entitled to those benefits that they 
should have been.
    So, explaining it from that point of view from the service 
end, we see it continually every day, not just with our 
members, but the veterans and their survivors that we 
represent, and there has got to come to a point where it has 
just got to stop.
    Mr. Takano. Thank you.
    Mr. Fuentes. Mr. Chairman, if I may--
    Mr. Takano. Go ahead, Mr. Fuentes.
    Mr. Fuentes. Mr. Chairman, if I may add. We also talk to 
veterans every single day dying from rare cancers, prostate 
cancer, and these illnesses that are directly connected to 
Agent Orange. And the issue with not having presumptive is you 
are actually asking a veteran to go back the past 50 years and 
present some type of evidence that shows that they were 
directly exposed to Agent Orange or the ship that they were in 
in this case was in contact with Agent Orange.
    Now, I will tell you, I was in Afghanistan in 2009 and I 
could never be able to present to you any evidence of where I 
was at and exactly what I was exposed to in 2009, and I can't 
even fathom how hard that is for our Vietnam vets.
    Mr. Weidman. Basically, if it is not on the presumptive 
list, you are not going to get a grant at the regional office 
level. Often you will get it on appeal to the Board if you have 
a good representative who builds a thorough case, but it 
shouldn't have to be this damn hard, because we know people 
were exposed.
    Mr. Nuntavong. Men and women are dying every day, Chairman, 
and every day we wait is another veteran who may pass away from 
a presumptive that is not being granted to them currently. We 
can't wait anymore.
    Mr. Takano. Madam Chair, I yield back.
    Ms. Luria. Thank you.
    I now recognize Dr. Roe for 5 minutes.
    Mr. Roe. Thank you, Madam Chair.
    Look, we obviously know what the will of the House in the 
115th Congress was, and I think you are going to know the will 
of the House in the 116th Congress. And by the way, Rick, you 
are correct, you do not need a microphone, I will say that.
    [Laughter.]
    Mr. Roe. You are loud and clear. So we know what that is, 
and I am with you, I am with you guys, it is time to quit 
talking about this and get this done. And I don't have anything 
more to say than that my frustration level is about here. We 
have talked this to death. We have found a way to pay for the 
Agent Orange exposure, we have done all the things anybody 
asked, the President will sign this into law in 2 seconds if he 
can get this in front of him. So let's get this done.
    And I appreciate the Chairman, I think he has been right 
there with us the whole way. Thank you for that. And I know he 
is committed to get this out of our Committee before Memorial 
Day, I think, if we can find--I will yield to the Chairman.
    Mr. Takano. Dr. Roe, with your support, and I know I have 
it, we are going to get this done by Memorial Day. And you and 
I and all of the folks at the table, we will go to the Senate 
in person, if we need to, and stand in the gallery every day 
until the Senate brings this to the floor and gets it voted 
out.
    Mr. Roe. Thank you, Mr. Chairman.
    I absolutely believe this. I think if you can get it on the 
Senate floor, a closer vote is not going to be a problem, and I 
think you will see 90 votes in the Senate.
    So it is procedural. Carlos, I agree with everything you 
said. It is time to move on and get these benefits to these 
veterans when 500-plus of us are dying every day. We can wait 
it out and we will all be gone in not too long. So, if you do 
that--I think it is shameful that we didn't get it done last 
time and it is shameful we are not doing it right now.
    Madam Chair, I yield back.
    Ms. Luria. Thank you. And I am grateful to all of you who 
participated today, the four panels, and also for Chairman 
Takano and Ranking Member Roe being here from the full 
Committee as well, to speak on this very important issue of the 
Blue Water Veterans.
    I also wanted to thank the representatives from the VA. I 
appreciate that you stayed throughout all of the testimony and 
also heard how important this issue is for the Blue Water 
Veterans, and hopefully you will take that back to the 
Secretary and your leadership of what we discussed in this 
hearing today.
    Lastly, I would also like to thank the Committee staff. I 
know that it took a lot of work and effort to bring this 
together and to bring all of our witnesses before us.
    And I think, Chairman Takano, you motioned, you would like 
to--
    Mr. Takano. Just real quick. Ranking Member Roe, I just 
think it is just serendipitous and so appropriate that this 
hearing is being presided over by a Navy veteran, the first 
woman veteran, Navy veteran to actually serve on our Committee, 
and that she commanded naval surface ships, and it just seems 
very appropriate to me.
    So, thank you so much for your service, Ms. Luria.
    Ms. Luria. Well, thank you. And I would also like to offer 
the opportunity for Dr. Roe, if you would like to make any 
closing remarks.
    Mr. Roe. Just very briefly. And, Carlos, once again, I 
couldn't agree with you more, there is no way on this earth I 
could prove where I walked around in Korea 40-something years 
later. I mean, I wasn't even sure where I was walking around at 
the time, much less 40-something years later.
    So I agree with you, we are just going to have to make some 
assumptions. We have the data, as was pointed out, about who 
was on which ship. Let's get on with it. And I am ready to do 
it, I know the House is ready to do it, I think the Senate. I 
really do appreciate, more than you know, the shoulder that the 
VSOs have put behind this effort. I know it has been 
frustrating for the last 20 years to get these benefits to 
these men and women who served, and I salute you for that.
    I yield back.
    Ms. Luria. Well, thank you. And thank you again to everyone 
for your time and for participating in the hearing today.
    All Members have 5 legislative days to revise and extend 
their remarks, and include any extraneous material.
    So, thank you very much and this hearing is adjourned.
    [Whereupon, at 4:59 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Matthew Sullivan
    Madam Chair and Members of the Subcommittee, I am pleased to be 
here today to provide the views of the Department of Veterans Affairs 
(VA) on pending legislation affecting VA's programs. Accompanying me 
today are Kevin Friel, Deputy Director for Pension and Fiduciary, 
Veterans Benefits Administration; Dr. Patricia Hastings, Deputy Chief 
Consultant, PDHS, Veterans Health Administration; and Derrick Curtis, 
Director, Software Testing & 508, Enterprise Portfolio Management 
Division, Office of Information Technology.
                               H.R. 1126
    H.R. 1126, the Honoring Veterans' Families Act, would permit VA to 
replace a Veteran's Government-furnished headstone or marker in a non-
VA cemetery in order to add an inscription for a deceased spouse or 
eligible dependent child following the death of the spouse or child. VA 
would also be authorized to inscribe information regarding a spouse or 
eligible dependent child who has predeceased the Veteran on the 
Veteran's Government-furnished headstone or marker. The bill would 
define ``non-VA cemetery'' as a Veterans' cemetery owned by a State, or 
a State, local, tribal, or private cemetery. The provisions of the bill 
would be effective for deaths on or after October 1, 2018.
    This legislation is consistent with a VA proposal in the 
President's Budget for FY 2020, and, as such, VA supports H.R. 1126, 
provided Congress can identify corresponding funding, and subject to 
some technical edits discussed below.
    In recent years, VA has received an ongoing and steady interest by 
families to have information about a Veteran's loved one, beyond just 
general terms of endearment referring to a spouse, inscribed on the 
Government-furnished headstone or marker.
    These headstones or markers would mark the gravesites of Veterans 
who are eligible for burial in a national cemetery but are not buried 
there, including gravesites in private and local government cemeteries 
as well as VA grant-funded Veterans' cemeteries.
    H.R. 1126 would not expand eligibility for the headstone and marker 
benefit to spouses and dependents buried outside of a VA national 
cemetery (who, under current statutory authority in 38 U.S.C. Sec.  
2306 are not eligible for a headstone or marker of their own in local 
or private cemeteries). Rather, the bill would allow VA to inscribe 
information about a deceased spouse or dependent child on a Veteran's 
headstone or marker. The information would be included either when the 
Veteran's headstone or marker is requested (if the spouse or dependent 
child has predeceased the Veteran) or on a replacement headstone or 
marker (if the spouse or dependent child dies after the Veteran). 
Replacement is the most cost-efficient way to provide this additional 
inscription, as VA does not have resources to add inscriptions to pre-
set headstones in cemeteries outside the national cemetery system.
    However, we note that the text of the bill does not reflect certain 
changes made to title 38 by Public Law 115-407, signed by the President 
on December 31, 2018. First, the new law added subsection (i) to 
section 2306; therefore, the language proposed by H.R. 1126 should be 
added as subsection (j), not subsection (i), as proposed in the bill. 
In addition, Public Law 115-407 expanded VA's authority to provide 
headstones and markers for spouses and dependents in tribal Veterans' 
cemeteries, where previously VA no had such authority. In doing so, the 
law added a new term to the statute, ``covered cemeteries,'' defined as 
national cemeteries, state Veterans' cemeteries, and Tribal Veterans' 
cemeteries. Because VA may now provide a marker for the unmarked grave 
of a spouse or dependent of a Veteran in one of these covered 
cemeteries, the need being addressed by H.R. 1126 is somewhat narrower 
than before. We would suggest utilizing the new term established by 
Public Law 115-407, by indicating that the focus of H.R. 1126 is to 
inscribe information about the Veteran's spouse or eligible dependent 
child following the death of the spouse or child on the headstone of a 
Veteran who is not buried in a ``covered cemetery.''
    We would also ask that the Committee consider making this provision 
effective for spouses and dependents of deceased Veterans whose deaths 
have occurred in the last 5 years. By creating this window, the bill 
would allow VA to process requests to provide a replacement headstone 
or marker to add information about recently-deceased spouses and 
dependent children (in cases where the spouse or child has recently 
died after the Veteran and the Government has already furnished the 
Veteran's headstone or marker).
    VA estimates that this bill will result in costs to the mandatory 
Compensation and Pension appropriation of approximately $780 thousand 
in 2020, $3.0 million over 5 years, and $6.8 million over 10 years.
                               H.R. 1199
    H.R. 1199, the VA Web site Accessibility Act of 2019, would direct 
the Secretary of Veterans Affairs, not later than 180 days after the 
date of the enactment of the bill, to examine all Web sites (including 
attached files and Web-based applications) of the Department to 
determine whether such Web sites are accessible to individuals with 
disabilities in accordance with section 508 of the Rehabilitation Act 
of 1973 (20 U.S.C. Sec.  794d). Within 90 days of completing this 
study, the Secretary would be required to submit a report to Congress 
regarding the study. The report would have to include a list of each 
Web site, file, or Web-based application that is not accessible to 
individuals with disabilities in accordance with section 508 of the 
Rehabilitation Act of 1973, as well as a plan to bring each Web site, 
file, or Web-based application that is not in compliance into 
compliance.
    While VA agrees with the intent of this legislation, we do not 
believe it is necessary because it provides no new authority and 
because system owners already scan and remediate their Web sites as 
needed. Moreover, we have some concerns with the mandated schedule 
regarding conducting a review and developing a remediation plan. VA's 
Section 508 Office currently scans VA Web sites to identify non- 
compliant Web sites, files, and Web-based applications. The results of 
these scans are shared with the administrations and staff offices 
responsible for maintaining these sites. Although VA's administrations 
are actively engaged in remediation activities, there is no 
consolidated enterprise-wide plan to bring each Web site, file, or Web-
based application into compliance with the requirements of section 508 
of the Rehabilitation Act of 1973. However, we wish to emphasize that 
scanning and remediation are occurring. Finally, we believe that 
attempting to conduct a universal review within 180 days would be 
logistically challenging.
                               H.R. 1200
    H.R. 1200, the Veterans' Compensation Cost-of-Living Adjustment Act 
of 2019, would require the Secretary of Veterans Affairs to increase 
the rates of disability compensation for service-connected Veterans and 
the rates of dependency and indemnity compensation (DIC) for survivors 
of Veterans, effective December 1, 2019. The bill would increase these 
rates by the same percentage as the percentage by which Social Security 
benefits are increased effective December 1, 2019. The bill would also 
require VA to publish the resulting increased rates in the Federal 
Register.
    VA strongly supports this bill because it would express, in a 
tangible way, this Nation's gratitude for the sacrifices made by our 
service-disabled Veterans and their surviving spouses and children and 
would ensure that the value of their benefits will keep pace with 
increases in consumer prices.
    VA estimates that this bill will result in costs of $1.6 billion in 
FY 2019, $10.0 billion over 5 years, and $21.8 billion over 10 years. 
However, the cost of these increases is included in VA's baseline 
budget because VA assumes Congress will enact a cost-of-living 
adjustment each year. Therefore, enactment of this bill would not 
result in additional costs beyond what is included in VA's baseline 
budget.
  Draft Bill Establishing a Grant Program for Veterans Legacy Program
    This draft bill would provide VA with the authority to establish a 
grant program to conduct cemetery research and produce educational 
materials under the auspices of the Veterans Legacy Program (VLP). VLP 
supports the ongoing mission of the National Cemetery Administration to 
honor Veterans and their eligible family members with final resting 
places and with lasting tributes by providing engagement and 
educational tools and opportunities for the public to learn about 
Veterans' service and sacrifice. By engaging educators, students, 
researchers, and the public, VLP proudly shares the stories of all 
those who served to help build an appreciation of what earlier 
generations have given to the Nation and to help individuals understand 
why national cemeteries are set aside as national shrines.
    VA supports this bill which is similar to a proposal in the 
President's Budget for FY 2020. VLP seeks to continually develop 
learning products to ensure that educational opportunities for 
commemorating Veterans' service and sacrifice to our Nation are 
available to educators, students, researchers, and the public. To date, 
VA, working through the VLP, has awarded 16 separate contracts to 
conduct cemetery research and produce VLP educational material for use 
in elementary and high schools and the public to promote community 
engagement with Veterans' history. These contracts were awarded to 
procure a framework of digital and non-digital tools based on research 
that focused on Veterans interred at national cemeteries. In addition 
to developing biographies of Veterans, which are available on-line 
(including video presentations on YouTube), lesson plans and walking 
tours have been developed that can be employed without digital media/
computers, so that teachers can print out a lesson plan and its 
accompanying resources to use with all students in the classroom or on-
site at the national cemetery. VLP has produced over 573 Veteran 
biographies, 17 documentary films about Veterans, and 6 Veterans 
cemetery walking tours, all based on research conducted on-site in VA 
national cemeteries by students. Under the contracts issued to date, 
VLP will have engaged almost 9,000 students from kindergarten through 
high school, over 300 teachers and 200 undergraduate students, nearly 
40 graduate students, and over 50 scholars.
    The use of grants instead of contracts would be a more appropriate 
vehicle for VA to obtain educational tools and services for VLP in the 
future. In particular, the use of grants would allow VLP to adopt an 
awards cycle that more closely aligns with the academic calendar of 
universities and other learning institutions, which are largely 
expected to be the entities to produce VLP learning products. VLP could 
also use this vehicle to increase its flexibility in the size and scope 
of an award, thus making better use of its resources to increase the 
reach of the program beyond large universities to smaller groups that 
wish to engage with VA in enhancing the memorialization of Veterans.
    This bill would incur no additional cost to VA, as funds are 
already allocated for VLP. Grants authorized by this bill would be an 
additional tool, beyond contracts, for the appropriate disbursement of 
existing allocated funds for VLP.
                               H.R. 1628
    H.R. 1628, the Enewetak Atoll Cleanup Radiation Study Act, would 
direct the Secretary of Veterans Affairs to enter into an agreement 
with the National Academies of Sciences, Engineering, and Medicine to 
conduct a study on radiation exposure relating to the cleanup of 
Enewetak Atoll.
    Subject to provision of funds to conduct this study, VA supports 
this legislation provided Congress can identify corresponding funding. 
Veterans who participated in the cleanup at Enewetak Atoll encountered 
low levels of radiological contamination and have a low risk of health 
problems. Today, residents of this atoll have very little or no intake 
of residual radionuclides, with annual radiation doses below U.S. 
averages.
    However, many Veterans are quite concerned that exposure on 
Enewetak may have negative consequences for their health. This study 
may answer those concerns.
    VA estimates the cost of conducting this study would be 
$1,500,000.00 in FY 2019.
                               H.R. 1826
    H.R. 1826, the Veterans VOW Act, would increase the Medal of Honor 
(MOH) special pension rate from $1,000 to $1,329.58 per month. It would 
also provide payment of MOH special pension to a surviving spouse of a 
deceased MOH recipient.
    VA supports the bill to the extent that it increases the MOH 
special pension rate and sets specific parameters for surviving 
spouses' receipt of MOH special pension, provided Congress can identify 
corresponding funding. Extending the MOH special pension to surviving 
spouses allows a surviving spouse to receive the same amount as the 
Veteran would have received but for the Veteran's death. Extending the 
MOH special pension to surviving spouses accords with other survivor 
benefits VA offers such as Survivors Pension and special monthly 
pension for survivors.
    VA would require clarification regarding one aspect of this bill: 
it is unclear if the remarriage limitations associated with DIC 
entitlement would apply to surviving spouses receiving the MOH special 
pension. For example, a surviving spouse who remarries prior to age 57 
loses entitlement to DIC, but it is unclear whether a surviving spouse 
receiving the MOH special pension under this bill would also lose 
entitlement if they remarried.
    VA estimates that this bill will result in mandatory costs of 
approximately $1.7 million in 2020, $8.8 million over 5 years, and 
$18.7 million over 10 years.
    This concludes my statement, Madam Chair. We would be happy now to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
                 Prepared Statement of Melanie Brunson
Introduction

    Chairman Luria, Ranking Member Bost, and members of the 
Subcommittee, thank you, on behalf of the Blinded Veterans Association 
(BVA), its national officers and members, for this opportunity to offer 
our views on H. R. 1199. BVA is the only congressionally chartered 
Veterans Service Organization that is exclusively dedicated to serving 
the needs of our nation's blinded veterans and their families. As such, 
we thank Congresswoman Luria for introducing and holding this hearing 
to consider legislation that addresses the needs of blind veterans for 
access to online information disseminated by the VA on par with their 
sighted peers.
    The VA currently faces myriad challenges on multiple fronts, and 
many issues compete for the attention of its leaders. Not the least of 
these concern the capacity of VA's IT infrastructure to meet the 
demands resulting from ever-changing expectations regarding 
communications between federal government agencies and those who 
utilize their programs and services. Federal agencies are now expected 
to make ever-increasing amounts of information accessible through a 
rapidly growing number of media and devices, and VA has struggled to 
keep up with these demands. One area where VA has struggled the most is 
the area of compliance with accessibility guidelines for the design and 
dissemination of electronic information. We believe that this struggle 
will continue unless and until the issue of accessible communications 
becomes a priority of VA's leadership. We believe that by directing the 
VA Secretary to evaluate and report to Congress on the accessibility of 
VA's electronic communications, H.R.1199 will provide an impetus for 
VA's leadership to make the commitment that is needed to insure these 
issues will be addressed in a meaningful manner.

Why Accessibility Matters

    Statistics indicate that our nation's veteran population contains a 
growing number of individuals who have visual impairments. Studies 
conducted by the Veterans Health Administration in 2018 estimated that 
there were 131,580 legally blind veterans in the U.S. Just over 42,000 
of these veterans had cases open with a visual impairment services team 
coordinator at that time. Further, these numbers are expected to grow 
as the U.S. population, including its veterans, ages during the next 20 
years. Veterans who experience vision loss will want and need to access 
VA's websites, apps, kiosks, tele-health tools, claims process, and 
other benefits, programs, and services administered by the VA, both now 
and for the foreseeable future.
    Already, since many veterans are comfortable with today's myriad 
technologies, they want access to all of the communications options the 
VA offers to other veterans. When concerns about the accessibility of 
websites, documents, and other equipment and media used to communicate 
with veterans are minimized or ignored, some of our nation's most 
vulnerable veterans, those with catastrophic disabilities, are left 
behind. When these veterans are denied access to information and 
services then, they are at risk for further aggravation of their 
disabilities, and in some cases, suicide. The longer we wait, the 
greater the risk.

What Is The Problem?

    In the paragraphs that follow, we will discuss some of the specific 
accessibility barriers that both blind veterans, and VA employees who 
have visual impairments, face on a regular basis. Before doing so, we 
do need to acknowledge that BVA has appreciated the efforts of VA's 
Section 508 compliance Office to correct problems promptly, 
particularly as they relate to VA websites. Both the staff, and 
contractors who work with them, are responsive when we alert them to 
the existence of accessibility barriers. Further, thanks to the 
involvement of that office and its contractors, most of the 
applications VA makes available to veterans at this time are accessible 
to and usable by veterans who use adaptive software on their computers 
and smart devices. The problems veterans face in accessing VA's new 
websites have decreased in number as well, though unfortunately, 
website access continues to be a major challenge. The following is a 
list of some of the most common and most serious areas where VA falls 
short in its compliance with generally accepted accessibility 
guidelines.
    VA's websites are generally the first point of contact veterans 
have with the Department. Therefore, the layout and content of those 
sites necessarily changes frequently. As a result, there are lots of 
occasions when things can go wrong. It is not uncommon for veterans to 
find that a web page that was easily accessed one day cannot be read, 
or even located during the next visit to the site. Some of the reasons 
this happens include:

    <bullet>  Tables that are not designed so they can be navigated 
cell by cell to allow users of screen-readers and magnification 
software to read them;
    <bullet>  Buttons that are too small, or hidden among other items, 
thus making them hard to locate;
    <bullet>  Elements (such as checkboxes and buttons) that are not 
properly labeled;
    <bullet>  Pop-Ups that interfere with the user's ability to 
navigate the web page by redirecting the focus of a screen-reader and 
cannot easily be dismiss;
    <bullet>  Forms that are not designed to allow a screen-reader or 
magnification program to be used while filling them out; and a problem 
specific to the va.gov website, Password requirements that exceed 
industry standards. This last item creates major challenges for those 
veterans (especially seniors and others with cognitive challenges) who 
need to create and remember unnecessarily complex passwords.

    With regard to documents circulated by the VA, there has been some 
recent improvement, as VA now generally posts accessible Pdf documents 
on their public-facing websites. However, individuals, such as Veteran 
Service officers who assist veterans with claims, and VA employees, who 
need access to VA's internal documents, are not nearly so fortunate. VA 
still continues to utilize inaccessible PDF formats for much of its 
internal communications. This practice makes it very difficult for 
individuals who have disabilities that require them to use screen-
readers to do their jobs and serve our veterans.
    In our testimony at the joint hearing held by the full House and 
Senate Committees on Veterans Affairs earlier this year, we highlighted 
another long-standing access issue related to a vital VA website used 
by Veteran Service Officers. The TRIP Training site is itself compliant 
with accessibility guidelines. However, it is off limits to anyone who 
uses adaptive software because it must be entered through a portal that 
does not follow those guidelines. There is, as of this writing, no 
indication that this situation will be corrected any time soon.
    In addition to website accessibility barriers, the kiosks VA has 
deployed at medical facilities nationwide present major access barriers 
for visually impaired veterans. These devices are supposed to be used 
by veterans to check in when they arrive for appointments, so they 
serve as the veteran's first introduction to the facility. A 
complicated or unsuccessful check-in process can impact the remainder 
of the veteran's experience. For a blind veteran, kiosks are, by their 
very nature, at best intimidating, and frequently unusable, due to 
their perfectly flat screens, and the absence of any tactile or audible 
features to give the potential user an idea of how to make them 
operate. Fortunately, such flat screens are becoming fairly common, and 
as they have been incorporated into other devices, such as ATM machines 
and voting machines at some polling places, industry has developed 
standards and best practices that make them accessible to people who 
have reading disabilities. To begin with, such kiosks generally have a 
3.5mm headphone jack located in a prominent place on the machine, and 
insertion of a headphone into this jack activates an audio feature, 
which speaks information into the user's ear about where to touch on 
the screen in order to make it function. Such instructions often begin 
with a brief orientation to the screen and a brief tutorial on what to 
expect while using the machine. Repeat users can skip such introductory 
material if desired, and all users can adjust things like speaking rate 
and volume. Further, instructions for performing various tasks are also 
read out loud to the person wearing the headset. The machines also 
provide audible feedback whenever the user attempts to perform those 
functions, to indicate whether or not the attempt was successful.
    Therefore, since kiosks can be quite usable, and they do serve a 
beneficial purpose for VA, we don't necessarily object to their 
deployment. What we object to is that the kiosks in use at VA medical 
centers do not comply with the industry standard accessibility 
guidelines described above. As recently as April, 2019, BVA received a 
complaint about the accessibility of the kiosk in the Washington D.C. 
VA Medical Center. First, plugging in a headset did not activate any 
audio features. Instead, the veteran who was attempting to use the 
machine stated that a sighted bystander told her that a notice had 
appeared on the screen which said, ``If you are blind, press this 
button.'' One wonders how a ``blind'' person is supposed to know this 
information was visible on the screen. Once the person who did see it 
had pressed the appropriate button, the instructions did begin and they 
were audible through the veteran's headset. However, the veteran 
continued to encounter problems, because unlike other similar devices, 
which require users to touch a particular area of the screen, such as 
the bottom right comer, the top left comer, or the center, in order to 
make selections or move through various functions, this kiosk required 
the user to locate and press particular buttons to perform each task. 
This required a degree of accuracy in locating and then pressing each 
button. Because this particular user had no vision, that degree of 
exactitude was not achievable. This is not an accessible kiosk. We 
should note that VA has recently rolled out new software for its kiosks 
which were supposed to improve their accessibility, and this veteran 
had hoped to have a much different experience as a result. 
Unfortunately, she was disappointed. BVA is also disappointed that VA's 
supposed accessibility improvements did not accomplish anything better 
than this. After four or five years of discussions with VA, about how 
to address these issues, and assurances that they would be addressed in 
the next software update, this veteran's report was extremely 
unsatisfactory. IfVA is going to truly modernize its IT infrastructure, 
and expand its use of electronic communications to provide access to 
services, VA must pay greater attention to accessibility concerns 
beginning with the rollout phase of devices and software. Each time 
retrofits or replacements are required, there is also unnecessary 
expenditure of funds; funds that could be used to improve services to 
veterans. Incorporating accessibility in the first place is much more 
cost effective.

Conclusion

    Section 508 of the Rehabilitation Act requires federal agencies to 
ensure that all electronic and information technologies developed, 
procured, maintained, or used in the federal environment provide equal 
access for people with disabilities, whether they are federal employees 
or members of the public. Section 508 implementing regulations, 
together with web accessibility guidelines (WCAG) compiled periodically 
over the years by the Worldwide Web Accessibility Consortium, have 
sought to make it clear to federal agency personnel how to comply with 
these guidelines and regulations. Unfortunately, our experience 
indicates that while the VA has made significant progress toward 
compliance, the department is a long way from consistent compliance. 
BVA's national officers and staff meet regularly with staff of the 
Section 508 Compliance Office and they are generally responsive to the 
concerns we raise. They address the accessibility barriers we bring to 
their attention promptly. However, all too often, those same barriers, 
are erected again a few months later when websites are updated, or a 
new website is rolled out. The scenario that is most disturbing is when 
accessibility features are put in place, only to be broken the next 
time the site is updated. In fact, any time website administrators add 
tools, redesign features, or update content such alterations can render 
aspects of that site inaccessible, unless the industry standards for 
website accessibility are followed. The same can be said for software 
that is developed for use by VA. Best practices that insure 
accessibility are mature and widely accepted throughout the IT 
industry. VA must be encouraged to incorporate them into all aspects of 
its IT infrastructure sooner rather than later. BVA believes this can 
only be done effectively if the initiative comes from the Department's 
leadership. We urge Congress, therefore, to send a message, through 
passage of H.R.1199, that this is a priority deserving of leadership's 
attention.
    Before concluding our discussion of this bill, there is one final 
question we want to raise. What will Congress do with the report called 
for in this legislation? It is our hope that the members of this 
Subcommittee, and the House and Senate Veterans' Affairs Committees, 
will exercise greater oversight of VA's compliance with accessibility 
guidelines in the future. While the report called for in this 
legislation can highlight what needs to be done, it doesn't make its 
accomplishment a foregone conclusion. We urge members of this Committee 
to hold VA accountable for addressing the barriers and implementing the 
plan set forth in any report Congress receives on the accessibility 
ofVA's websites and other electronic communications to people with 
disabilities. To that end, we urge members of this Subcommittee, and 
the full Committee on Veterans Affairs, to require additional reports 
from VA on their progress toward addressing the accessibility barriers 
that are identified in their initial report to Congress. We recommend 
that VA be required to provide this Committee with updates at least 
every 180 days until all of the issues have been addressed. Further, we 
recommend that the Committee on Veterans Affairs seek regular reports 
from VA on its efforts to incorporate accessibility features into new 
web content, and to insure that updates to existing content are made in 
a manner that allows the content to be accessed by all members of its 
intended audience, regardless of disability. We believe this is a 
necessary step, if Congress wishes to insure that VA plans for 
accessibility when new initiatives are launched, rather than adding 
accessibility features in only after receiving complaints from users. 
It would also give this legislation a greater impact on the 
effectiveness of future communications between VA and our nation's 
disabled veterans. We urge you to consider amending this legislation to 
include such measures, thereby putting VA on notice that Congress is 
serious about insuring compliance with accessibility guidelines, not 
only for the present, but for the long term.
    Thank you, once again, for the opportunity to speak with you about 
the above legislation. If you would like any further information, 
please feel free to contact Melanie Brunson, Director of Government 
Relations, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e38e8191968d908c8da3819582cd8c91">[email&#160;protected]</a> g. We look forward to answering any 
questions you may have.

                                 <F-dash>
                  Prepared Statement of Karl R. Horst
    Thank you, Chairwoman Luria for your service and leadership of this 
Subcommittee, as well as your Subcommittee's support of our nation's 
Veterans.
    It is an honor and privilege for me to be here this afternoon. At 
the Congressional Medal of Honor Foundation, we have the privilege of 
working for our Nation's truest heroes, the Recipients of the Medal of 
Honor.
    The mission of the Medal of Honor Foundation is to support the 
Medal of Honor Society, the Recipients, their outreach programs, and to 
preserve the legacy of the Medal of Honor through education, outreach 
and recognition. The Foundation also preserves the legacy of the Medal 
of Honor by promoting American values; specifically, the qualities of 
courage, sacrifice, selflessness, patriotism, citizenship, and 
integrity.
    I am here today to reinforce and advocate for the Congressional 
Medal of Honor Society's position supporting H.R. 1826, ``Veterans 
Valuing Our Widows and Widowers Act.'' The Society concurs with the 
language in the legislation outlining the payment of a special pension 
to the surviving spouses of Medal of Honor Recipients. In the absence 
of a surviving spouse, the Society believes the special pension should 
follow a succession to a designated next of kin caregiver to receive 
the special pension from the federal government.
    The committee's initiative to amend H.R. 1826 is both timely and 
necessary. Today, there are only 71 living Recipients of the Medal of 
Honor and they are a rapidly diminishing treasure for our country.
    Since January 15th this year, three more Recipients passed. The 
average age of living Recipients is 73. The average age of the 58 World 
War II, Korea and Vietnam Recipients is 79. In fact, 18 of the 
Recipients are more than 80 years old.
    We at the Foundation have the opportunity to work with the Medal of 
Honor Recipients at events throughout the year. I have seen first hand 
how important spouses and caregivers are to the Recipients. In most 
cases, the caregivers are next of kin family members. There are some 
instances where the caregivers are not next of kin. However, to be 
clear, the Medal of Honor Society only supports designated next of kin 
caregivers be eligible to receive the special pension.
    The spouses and caregivers work tirelessly to ensure the Recipients 
are able to participate in outreach events where they interact with the 
American public. In fact, spouses and caregivers allow Recipients to 
travel and participate in outreach programs far beyond the normal age 
where most Americans retire and limit their travel. The Recipient's 
stories of courage and valor in combat and their compassion for their 
fellow Americans are inspiring to all who have the opportunity to come 
into contact with them. Their spouses and next of kin caregivers help 
make that possible and this legislation is the appropriate support for 
them and for the Recipients. The Society feels this special pension is 
so important that the Society provides a one-year continuation of this 
compensation to ease the burden on surviving spouses and next of kin 
caregivers.
    Thank you again for this opportunity to be here today. I am happy 
to take your questions.

                                 <F-dash>
            Prepared Statement of Allison Adelle Hedge Coke
    Chairman Takano, Subcommittee Chair Luria, Ranking Member Roe, and 
Members of the Subcommittee:

    Thank you for this opportunity to testify before you today. My name 
is Allison Adelle Hedge Coke and I am here to testify on behalf of the 
University of California Riverside in support of the draft bill to 
permit the Secretary of Veterans Affairs to establish a grant program 
to conduct cemetery research and produce educational materials for the 
Veterans Legacy Program. I am a poet/writer and Distinguished Professor 
of Creative Writing within the College of Humanities, Arts, and Social 
Sciences at UCR and the Principal Investigator of the Along the 
Chaparral: memorializing the enshrined Legacy Program project.
    We, as human beings, live in narrativising culture/s. If you can 
imagine story as a spherical, continually evolving multidimensional 
entity, that we in respective cultures intersect with in seasonal, 
tribute, and on as need to know basis extrapolations, and throughout 
time co-create story fabric to continually educate and memorialize our 
knowledges, cosmogonies, and histories, it is easy to deduct that story 
and culture are inextricable and are the common thread of knowledges 
worldwide.
    The site we are working with, Riverside National Cemetery, 
represents a critical dimension of life in our region and its 
intersections nationally and globally. It represents honor and service, 
the ulterior hope for non-conflict, for peace, local, regional, 
national and global peace, and the hope for greater remarkable lives 
that continually add to the story and whereas the surrounding 
populations have at stake value from kinships interred there, from 
community relationships and temporal markers that give us reason to 
work together to do better in this world as human beings.
    Bringing UCR students undergraduates and MFA/PhD candidates and 
recent alumni into the classrooms to foster this programming encourages 
K-12 students to look to education as a solution to economic 
deprivation and greater success in their futures and has also 
encouraged K-12 teachers, TAs and substitutes to seek graduate degrees 
in the short time we have been implementing the program. In almost 
every classroom, a good third of the youth have significant ties to the 
cemetery they may not realize until the project is on their desk and 
then give themselves to discovery of family and neighborhood ties they 
belong to and are represented through in this site.
    Story creates culture, it teaches us who we are and how to be in 
the world and we co-create the entity with our own live experiences and 
knowledges from those who came before us and who lead us in our 
futures. The Legacy Program delivers this terrific meeting of story and 
culture to the university, to K-12 schools, to the surrounding 
cultures, communities, that make up our region and homes us in 
knowledge we glean from the site and our storying of these lives.
    Our region includes nineteen Indigenous nations. The site of the 
cemetery includes historical and contemporary relevance to Luiseno, 
Tongva, Cahuilla, Serrano, and numerous other peoples, including Native 
Veterans and dependents interred from nationals throughout the 
hemisphere and island nations. Native nations have a very high rate of 
military service to the United States and, of course, a continual 
infinite commitment to protecting the homelands of original peoples 
these nations belong to.
    The region is also long-term homelands to Latino/a/x, Chicano, 
Califas, Hispanic and Luso communities, also bearing a very high rate 
of military service nationally whether from generations that have lived 
here more traditionally to new citizen immigrants from Latin American 
countries who often dutifully serve to demonstrate their belief in the 
citizenship, as can be recognized by service from people originally 
from island nations who have also become citizens and have served at 
higher rates than other communities within our region.
    It is fair to say that in addition to commitment to original 
homelands and citizenship, due to economic hardships endured within 
these communities, the rate of service is also higher within these and 
other communities represented in this site. It is fair to add that in 
times of conflict, some of these communities have been culled fully for 
frontline service, which includes Casa Blanca community of Riverside, 
whereas the first Medal of Honor recipient, and first interred person, 
reinterred from an earlier, segregated burial to be honored at rest in 
the Riverside National Cemetery, Riverside's own Ysmael ``Smiley'' 
Villegas, was born into and lived until he was killed in action in 
World War II.
    In collaboration with the Veterans Legacy Program of the U.S. 
Department of Veterans Affairs, National Cemetery Administration, and 
in tribute to those interred at Riverside National Cemetery, to address 
and begin to interpret the story of Riverside National Cemetery, Along 
the Chaparral: memorializing the enshrined project services have 
included creation of an interactive GiS Web App and cutting edge (.7 of 
an inch aerial filming) digital mapping for the Riverside National 
Cemetery (RNC) site with populated points affiliating hundreds of 
resulting K-12 tribute stories to gravestones in the site, with 
informational overlays decoding the site's rich construction, 
monuments, history and contemporary notes of interest, including Native 
American presence and intentional encoding with flora related to 
military life, and a search and sorting system that highlights 
significant variables, including honors and citations received.
    We have already published a selected works anthology of over 70 K-
12 student works. We produced two documentary film archives, including 
a making of the project documentary of participating K-12 students and 
teachers, UCR students, faculty, and Veterans, and eight portrait 
vignettes with survivors of K-12 student story subjects interred at 
RNC.
    We have produced five K-12 student performances and a nationally/
internationally broadcast radio play memorializing the enshrined at RNC 
and are working with RNC to launch the first Legacy Day at Riverside 
National Cemetery in the first week of October 2019.
    We also produced dozens of lesson plans during this period and have 
a very good handle on a curriculum base. To date, we have worked 
successfully and collaboratively with over 2700 K-12 students in 
approximately 100 classrooms (six to eight sessions each class) in 
several public-school districts in our city and county and with Sherman 
Indian High School, whereas the project also produced an ongoing 
related Veterans mural project.
    Too, the project fostered an understanding for UCR Tom s Rivera 
Library research collections to serve survivors, and next of kin. This 
adds to public access of those items, allows safe housing of articles, 
allows RNC to have a place to hold, and allows UCR to meet storytelling 
of Riverside County Inland Empire Research Librarian Goals.
    The project is web-housed on <https://alongthechaparral.ucr.edu>.
    The pilot project was a result of bridging partnership from UCR to 
Riverside Unified School District, Beaumont Unified School District, 
Temecula Valley Unified School District, Sherman Indian High School and 
regional efforts and from February 2018-November 2018 included K-12 
tutelage and interface and programming with roughly 2000 K-12 students 
and 12 interred survivors and the following persons and entities were 
engaged within the project:

UCR Graduate Student Fellows:

    <bullet>  Isabela Agosa, MFA Candidate Creative Writing
    <bullet>  Clark Barclay, MFA Candidate Writing for the Performing 
Arts
    <bullet>  JT LaChausse, MFA Candidate Creative Writing
    <bullet>  Christiaan Clark, PhD Candidate Digital Composition
    <bullet>  Ian Galbraith, PhD Candidate English
    <bullet>  Joanna Greenberg, MFA Candidate Creative Writing
    <bullet>  Katy Gurin, MFA Candidate Creative Writing
    <bullet>  Jessica Gutierrez Masini, PhD Candidate Ethnomusicology
    <bullet>  Robyn Johnson, PhD Candidate English
    <bullet>  Cristina Leyva, MFA Candidate Experimental Choreography
    <bullet>  Josh Little, PhD Candidate History
    <bullet>  Will Madrigal, PhD Candidate Ethnic Studies
    <bullet>  Lauren Mauldin, MFA Candidate Creative Writing
    <bullet>  Alicia Mosley-Marks, MFA Candidate Creative Writing
    <bullet>  Daisy Ocampo, PhD Candidate History
    <bullet>  Michael Robinson, MFA Candidate Writing for the 
Performing Arts
    <bullet>  Jasmine Smith, MFA Candidate Creative Writing
    <bullet>  Chelsea Sutton, MFA Candidate Creative Writing
    <bullet>  Kathleen Taylor, MFA Candidate Creative Writing
    <bullet>  Fernanda Vidaurrazaga, MFA Candidate Creative Writing
    <bullet>  Amanda Wixon, PhD Candidate History

UCR Undergraduate Fellows:

    <bullet>  Riann Kaibetoney, Global Studies
    <bullet>  Harley Grow, Theater, Film, and Digital Production

UCR Alumni Fellows/K12 Teachers/School Staff:

    <bullet>  Ashanti Anderson, Alumna, UCR MFA Creative Writing
    <bullet>  Jalyn Barnard, Martin Luther King Jr High School, RUSD
    <bullet>  Amie Charney, Alumna, UCR MFA Creative Writing,
    <bullet>  Chaparral High School, TVUSD
    <bullet>  Karlene Clifford, School Counselor, SIHS
    <bullet>  Carol Damgen, Alumna, UCR MFA Creative Writing
    <bullet>  Don Forhane, Chaparral High School, TVUSD
    <bullet>  Julie Frias, Gage Middle School, RUSD
    <bullet>  Sonja Grover, Chaparral High School, TVUSD
    <bullet>  Travis Hedge Coke, Alumnus, UCR MFA Creative Writing
    <bullet>  Kevin LeDuc, Martin Luther King Jr High School, RUSD
    <bullet>  Kolkakada ``Julie'' Pheng, Alumna, UCR Theater and Film
    <bullet>  Paige Polcene, Highland Academy, BUSD
    <bullet>  Christine Pollitt, Gage Middle School, RUSD
    <bullet>  Leslie Robertson, Central Middle School, RUSD
    <bullet>  Lorene Sisquoc, Cultural Traditions and Museum, SIHS
    <bullet>  Jasmine Smith, Lead Teacher Highland Academy, BUSD
    <bullet>  Riley Takano, Martin Luther King Jr High School, RUSD
    <bullet>  Abel Valencia, Alumnus, UCR Theater and Film
    <bullet>  Carol Yarborough, Central Middle School, RUSD

UCR Staff:

    <bullet>  Kat Koziar, UCR Data Librarian, Point Person for Grant 
Projects, Along the Chaparral Program Coordinating Partner
    <bullet>  UCR Research Librarians Brian Geiger & David Rios
    <bullet>  UCR Alumni James Cabrera & Kyle Gebelin, and Charles 
Farrar, Silvana Payne & Teresa Salvato
    <bullet>  Joshua Gonzales, Native American Student Programs, 
Director
    <bullet>  Kathleen DeAtley, Performing Arts College, CHASS support 
staff members
    <bullet>  ArtsBlock staff, Linda Christopher & Carolyn Power, RUSD

Vendors:

    <bullet>  Shane Brown, Mike Cohen, Royce Sharp & Cati Porter, 
Inlandia, Aerial Graphics, Esri

UCR Co-Investigators and Mentor Professors:

    <bullet>  Assistant Professor Emily Rapp Black, Co-PI, Memoirist, 
Creative Writing
    <bullet>  Assistant Professor Gerald Clarke, Co-PI, Cahuilla Tribal 
Council Member, Artist, Ethnic Studies
    <bullet>  Professor Katie Ford, Co-PI, Poet, Creative Writing
    <bullet>  Associate Professor Rebecca ``Monte'' Kugel, Co-PI, 
History
    <bullet>  Assistant Professor Wesley Leonard, Co-PI, Indigenous 
Languages Linguist, Ethnic Studies
    <bullet>  Associate Professor Jaqueline Shea Murphy, Co-PI, 
Indigenous Dance
    <bullet>  Associate Professor Robert Perez, Co-PI, Latino and 
Indigenous Studies, Ethnic Studies
    <bullet>  Associate Professor Michelle Raheja, Co-PI, Native 
Literature, Film, Visual Culture, English
    <bullet>  Associate Professor Jonathan Ritter, Co-PI, Latino 
Ethnomusicology, Music
    <bullet>  Distinguished Professor Susan Straight, Co-PI, Novelist, 
Memoirist, Creative Writing
    <bullet>  Distinguished Professor, Rupert Costo Chair of Indian 
Affairs, Clifford Trafzer, Co-PI, History
    <bullet>  Distinguished Professor, Principal Investigator & 
Director, Allison Adelle Hedge Coke, Poet, Writer, Performer, 
Filmmaker, Narrative Medicine Practitioner

    From December 15, 2018 to this date, in the first year of a new 
contract, dating December 15, 2018 - December 14, 2019 (with a second 
year from December 15, 2019 - December 14, 2020 optional), the new 
contract currently includes the participation of the following persons 
and entities:
    UC RIVERSIDE in Collaboration with the Veterans Legacy Program of 
the U.S. Department of Veterans Affairs, National Cemetery 
Administration, and in tribute to those interred at Riverside National 
Cemetery Along the Chaparral: memorializing the enshrined recently 
entered into a new two- year project in collaboration with Riverside 
Unified School District, Beaumont Unified School District, Sherman 
Indian High School and extended regional community efforts and includes 
K-12 tutelage and interface and supporting programming beginning with 
(to date) 700 K-12 students:

UCR Graduate Student Fellows:

    <bullet>  Christiaan Clark, PhD Candidate Digital Composition
    <bullet>  Brenda Delfino MFA Candidate Creative Writing
    <bullet>  Nicole Furtado, PhD Candidate English
    <bullet>  Joanna Greenberg, MFA Candidate Creative Writing
    <bullet>  Celeste Jackson, PhD Candidate English
    <bullet>  Cristina Leyva, MFA Candidate Experimental Choreography
    <bullet>  Josh Little, PhD Candidate History
    <bullet>  Alicia Mosley-Marks, MFA Candidate Creative Writing
    <bullet>  Jessica Gutierrez Masini, PhD Candidate Ethnomusicology
    <bullet>  Beyaja Notah, PhD Candidate Ethnic Studies
    <bullet>  Daisy Ocampo, PhD Candidate History
    <bullet>  Crystal Salas, MFA Candidate Creative Writing
    <bullet>  Jasmine Smith, MFA Candidate Creative Writing
    <bullet>  Chelsea Sutton, MFA Candidate Creative Writing
    <bullet>  Fernanda Vidaurrazaga, MFA Candidate Creative Writing
    <bullet>  Amanda Wixon, PhD Candidate History

UCR Alumni Fellows/K12 Teachers/School Staff:

    <bullet>  Jalyn Barnard, Martin Luther King Jr High School, RUSD
    <bullet>  Karlene Clifford, School Counselor, SIHS
    <bullet>  Carol Damgen, Alumna, UCR MFA Creative Writing
    <bullet>  Julie Frias, Gage Middle School, RUSD
    <bullet>  Jessica Jimenez, Martin Luther King Jr High School, RUSD
    <bullet>  Travis Hedge Coke, Alumnus, UCR MFA Creative Writing
    <bullet>  Kevin LeDuc, Martin Luther King Jr High School, RUSD
    <bullet>  Paige Polcene, Highland Academy, BUSD
    <bullet>  Christine Pollitt, Gage Middle School, RUSD
    <bullet>  Lorene Sisquoc, Cultural Traditions and Museum, SIHS
    <bullet>  Jasmine Smith, Lead Teacher Highland Academy, BUSD
    <bullet>  Riley Takano, Martin Luther King Jr High School, RUSD
    <bullet>  Courtney Temple, Martin Luther King Jr High School, RUSD

UCR Undergraduate Fellows

    <bullet>  Production Assistants: Johnny Moon, Jiasi Lai (Emily), 
and Harley Grow Hernandez.
    <bullet>  Emily Clarke, a Cahuilla poet and undergraduate in 
Creative Writing joining us to provide K-12 Fall classroom outreach, 
near her home, in Anza schools.

UCR Staff:

    <bullet>  Kat Koziar, UCR Data Librarian, Point Person for Grant 
Projects, Along the Chaparral Program Coordinating Partner
    <bullet>  UCR Research Librarians Brian Geiger & David Rios
    <bullet>  Joshua Gonzales, Native American Student Programs, 
Director
    <bullet>  Kathleen DeAtley, Performing Arts College, CHASS support 
staff members
    <bullet>  ArtsBlock staff, Nicolay Masov and Amy Metcalf
    <bullet>  Pr. Sergio Rey, Public Policy, Director of Geospatial 
Sciences, Center for Geospatial Sciences

Training session by:

    <bullet>  Rebecca ``Monte'' Kugel, Associate Professor History

Radio hosting by:

    <bullet>  Robert Perez, Associate Professor Ethnic Studies

Vendors:

    <bullet>  Shane Brown, Mike Cohen, Aerial Graphics, Esri & Cati 
Porter, Inlandia

UCR Co-Investigators and Mentor Professors:

    <bullet>  Associate Professor Emily Rapp Black, Co-PI, Memoirist, 
Creative Writing
    <bullet>  Professor Katie Ford, Co-PI, Poet, Creative Writing
    <bullet>  Assistant Professor Wesley Leonard, Co-PI, Indigenous 
Languages Linguist, Ethnic Studies
    <bullet>  Assistant Professor Keun-Pyo ``Root'' Park, Co-PI, 
Filmmaker, Theater, Film, Digital Media
    <bullet>  Associate Professor Michelle Raheja, Co-PI, Native 
Literature, Film, Visual Culture, English
    <bullet>  Associate Professor Jonathan Ritter, Co-PI, Latino 
Ethnomusicology, Music
    <bullet>  Distinguished Professor Susan Straight, Co-PI, Novelist, 
Memoirist, Creative Writing
    <bullet>  Distinguished Professor, Rupert Costo Chair of Indian 
Affairs, Clifford Trafzer, Co-PI, History
    <bullet>  Distinguished Professor Principal Investigator & 
Director, Allison Adelle Hedge Coke, Poet, Writer, Performer, 
Filmmaker, Narrative Medicine Practitioner

    Along the Chaparral: memorializing the enshrined offers special 
thanks to:
    Bryce Carpenter, Program Manager, Legacy Program, National Cemetery 
Administration, U. S. Department of Veterans Affairs; Peter Young, 
Director Riverside National Cemetery; Craig Arsell, Assistant Director 
Riverside National Cemetery; Adriene Benton, Assistant Director 
Riverside National Cemetery; Beverly Newsome, Riverside National 
Cemetery; Paul Adkins, Riverside National Cemetery Support Committee; 
and Daisy Tate, Veterans Supplemental Support.
    Riverside Unified School District support team Linda Christopher & 
Carolyn Power UCR project support teams, including Randall Black, 
Lauren Savord, Ursula Prins, Sharon Shanahan, Regina Hazlinger, Nelda S 
Thomas, Linda Phi-Nguyen, Ryan Lipinski, Cindy Williams, Kiril Tomoff, 
Stephanie May and Robert Chan.
    UCR Department and Centers, including chairs, advisors, and 
directors of the MFA in Creative Writing and Writing for the Performing 
Arts, Creative Writing, Dance, English, Ethnic Studies, History, 
Indigenous Studies, Latino Studies, Music, Theater, Film, and Digital 
Production, California Center for Native Nations, Native American 
Student Programs, UCR Veterans Resource Center, Riverside Unified 
School District, Beaumont Unified School District, Temecula Valley 
Unified School District, Sherman Indian High School and all other 
participating K-12 schools and communities and to King High Remembers 
oral history programming.
    To the fantastic youth community that we have the privilege of 
serving and to each and all of our collaborators.
    These projects have experienced immense success. They have served 
and are serving the greater community.
    The relative products, our project creates are specifically 
intended to memorialize, and honor Veterans and dependents interred. 
The narratives highlight the lives before, during, and (potentially) 
following service within the military. These lives are essential 
microcosms and macrocosms of all that is citizenry of the United States 
with an assembly of diverse ethnicities, walks of life and temporal 
era. The multitude of nearly 300,000 graves hold the remains from 
service in numerous conflicts and serve an area representing a 70-mile 
physical radius around Riverside National Cemetery. A short visit to 
the site (in person or online) is demonstrative of the wealth of 
potential life narrative from those first interred to burials from as 
recently as this week.
    Villegas' placement in the Riverside National Cemetery encourages 
public respect and keeps him in fresh memory. Leadership groups, such 
as the Mexican American Historical Society, on what would have been his 
90th birthday (2014), honored Villegas on site.
    His son came to the recent Medal of Honor Day tribute at Riverside 
National Cemetery and two of our K-12 students read from their tribute 
story to honor him during the same ceremony.
    <https://www.pe.com/2014/03/15/riverside-medal-of-honor-recipient-
honored/> He is memorialized in sculpture across from City Hall, on the 
promenade in Riverside.
    <http://www.riversideca.gov/mayor/pdf/inclusive-community-
statement.pdf> His position in the cemetery remains a constant sign of 
respect. With his final resting place highlighted in Riverside National 
Cemetery, he and his courageous sacrifice will never be forgotten.
    The story of Villegas' life is valued and brings to mind the local 
20-year-old soldier, nicknamed Smiley who gave his life while leading 
his squad during World War II, who was struck and killed on the Ville 
Verde Trail while singlehandedly emptying out five enemy foxholes with 
fortitude and honorable field competence and by his undaunted 
leadership, under heavy artillery, encouraging his troop to continue 
ahead.
    Cherryie C Hein, PVT US Army, her Veteran husband Henry Gayhart 
Hein and their Veteran son are all interred at this site. Cherryie was 
a Cherokee Nation Citizen from Tahlequah Oklahoma who attended Sherman 
Indian School in Riverside, California before enlisting. After her 
service and marriage, she and her husband spent their post-service 
careers working for the VA Hospital. She is one of many interred people 
at the site who has a relationship with Sherman and our participating 
students there.
    Hannah Fixico, a groundbreaking Rosebud Sioux woman who served 
honorably in the Navy during WWII and lived in Bell (an incorporated 
township in Los Angeles), is interred here.
    There are scores of fascinating individuals, of heroes of all types 
in this respected place. Most people of a certain age remember the 
song, ``The Lion Sleeps Tonight.'' The Tokens member, Mitch Margo, was 
only fourteen years old when he and his buddies recorded the song. He 
later served in the Army (1969- 1972) and was a lifelong artist, 
musician, composer, and producer. < http://www.latimes.com/local/
obituaries/la-me-mitch-margo-20171201-story.html>
    Margo was recently lain to rest, as well, in Riverside National 
Cemetery, after passing away at age 70. He should be remembered, not 
only for one act or one achievement, but for his life.
    Dorothy ``Dottie'' Ellen Ehlers, widow of Walter D. Ehlers, medal 
of Honor Recipient who served at Omaha Beach on D-Day (buried Riverside 
National Cemetery 2014) was laid to rest with her husband in
    Riverside National Cemetery on January 5, 2018. She was an 
accomplished seamstress, quilter, doll maker, pianist, and homemaker, 
as well as a devoted wife and mother. By invitation, Medal of Honor 
recipient Walter D. Ehlers (1921 - 2014), son Walter ``David'' Ehlers 
Jr., daughter Catherine Ehlers, and Mrs. Dorothy Ehlers met with Walt 
Disney after personal remarks at a special presentation of ``Great 
Moments with Mr. Lincoln'' on Disney's last day to officially visit the 
Magic Kingdom. Ehlers later served as a Disneyland Security officer in 
the early 1980's. His remarks, when invited to speak to school children 
on D-Day, always included, ``It was 60 times worse than Saving Private 
Ryan. https://www.disneyavenue.com/2016/10/the-story-of-walt-disneys-
final.html
    https://www.youtube.com/watch?v=QBJ6BOEb-aI
    Our Pacific Island, Asian and Asian-American community is vibrant 
and the cemetery represents many diverse features of this great 
population, as well. Including, Indigenous Pacific Islanders, Japanese- 
American, Chinese-American, Korean-American, Pinay/Pinoy and many more 
diverse communities who include long-term citizenry and service and 
more recent immigration and service.
    The challenges faced within these communities include internments 
of families and property seizures, during wartimes, due to prejudices, 
fears, and misunderstandings of these communities yet this national 
cemetery demonstrates the resiliency and commitment to honor and pride 
of the community.
    Including that demonstrated through the story of James Mayeda, PFC 
US Army (1920-2015), who was born in Brawley, California, lived in 
Riverside most of his life, and was interned at a Japanese-American 
internment camp in Poston Arizona during World War II, where he met his 
future wife, Helen Tomiko Mayeda (originally from San Bernadino), who 
he later married and then enlisted in military service.
    They spent 72 years together, she passed on February 15, 2015 and 
is interred in Riverside National Cemetery and he followed her soon 
after on March 1st, 2015 and joined her at the same cemetery.
    UCR houses an archive of Tuskegee Airmen and there are several of 
that famously honorable cadre interred in this site that make 
remarkable subjects of story and critical studies of race relations and 
pride. One of our participating graduate fellow's mother unexpectedly 
died during our pilot year project. An African American woman who was a 
World War II Veteran, who served in Europe sorting mail for active duty 
soldiers in the field, ran a soul food restaurant, and a dress shop, 
and was a great singer and was interred in the site during our pilot 
year. PFC Catherine ``Julia'' Harris.
    K-12 teachers, participating UCR alumni and K-12 students often 
unexpectedly lost parents, grandparents, aunts, uncles, and neighbors 
during our project and these stories also represent the continual 
connections national cemeteries have to their surrounding communities 
and the story of life represented in each.
    These are all remarkable people; easily relatable. The narratives 
of the lives revered here make excellent sources for stories for the K-
12 students to research and write and moreover to know and share. To 
learn the value of factual research, to craft engaging factual story, 
to work in innovative storytelling media, to revise and edit and make 
publishable works, to satisfy so many goals in education and to unite 
the youth with a nearby host university and the site that the story is 
reamed from and tribute toward to extend the memory of these Veterans 
and their dependents for all time.
    Challenges with contract versus grant include the university system 
in CHASS, formulated to address a more typical faculty grant system, 
whereas calls for proposals give a generous length of response and 
proposal submission and the calls are released to coincide well within 
an academic program year. The initial Legacy Program call came during 
Winter holiday, whereas to step up as PI, I was left to create the 
contract without regular support of primary contacts within the 
university. The second call also came within a holiday week in 
November, so to write both contract proposals, my major holidays in 
2017 and 2018 were sacrificed and I was without the ability to continue 
planning dialogue with participating K-12 schools, also on holiday. 
Too, the time given to allow our established system to function was so 
unusual to the university research financial officials, some were left 
in disbelief and dutifully pressed to meet the unexpected demand. 
unexpected demand.
    If the university has a grant, opposed to a contract, the system is 
set up as a draw down for a grant, so at the end of each month, the 
university has a draw down electronic system service. In a contract the 
payment to the university is not paid until the end of the project. 
Thus, the grant would allow for more fluid and regular payments and 
service paid as served and would allow greater ease of ability of 
institutional service.
    A grant program would solve most, if not all of these dilemmas and 
ease our collaborative work.
    Mr. Chairman, I know that you are a strong advocate for Veterans, 
for quality education, a great friend to UCR, to universities 
everywhere, and UCR and I truly thank you for all of your support. I 
know you are a champion of Veterans and have worked diligently to 
support UCR Veteran students and the Veterans Legacy Program. Our 
community sends their gratitude for meeting with our student Veterans 
and allowing us opportunity to share a bit about this program with 
Randy Reeves, the Under Secretary for Memorial Affairs. Again, UCR and 
I thank you for your efforts.
    I would be delighted to answer any questions you may have. Thank 
you.

    With respect,

                                 <F-dash>
                  Prepared Statement of Carlos Fuentes
    Chairwoman Luria, Ranking Member Bost, and members of the 
Subcommittee, on behalf of the women and men of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to provide our remarks on legislation pending before this 
Subcommittee.

H.R. 299, the Blue Water Navy Vietnam Veterans Act of 2019

    The VFW thanks this Subcommittee and its staff for your devotion 
and hard work to ensure Blue Water Navy veterans receive the benefits 
they have been wrongfully denied for more than a decade. The VFW is 
glad to see the United States Court of Appeals for the Federal Circuit 
recently reversed a years-old ruling that paves the way for the 
restoration of benefits for some 90,000 aptly named Blue Water Navy 
veterans from the Vietnam War. We also thank Secretary of Veterans 
Affairs Robert L. Wilkie Jr. for recommending that the Department of 
Justice not appeal the decision.
    The case, Procopio v. Wilkie, was supported by the VFW and a number 
of other veterans service organizations and advocates. It had Secretary 
Wilkie being sued by Navy veteran and VFW Life Member Alfred Procopio 
Jr., who was denied service connection for prostate cancer and diabetes 
mellitus because he never stepped foot on dry land or served within 
Vietnam's inland waterways. Mr. Procopio was assigned aboard the 
aircraft carrier USS Intrepid, which was stationed within 12 miles of 
Vietnam's coastline. Both of his illnesses are listed among the 
Department of Veterans Affairs' (VA) 14 presumptive diseases associated 
with exposure to Agent Orange. By a 9-2 decision, the appeals court 
ruled Mr. Pocopio was entitled to benefits and provided relief for Blue 
Water Navy veterans.
    While the VFW is pleased with the ruling, the decision can be 
challenged and overturned in the future. Congress must pass H.R. 299, 
the Blue Water Navy Vietnam Veterans Act of 2019, to make certain Blue 
Water Navy veterans never have their benefits taken away again.
    The Blue Water Navy Vietnam Veterans Act of 2019 also includes the 
extension of much needed benefits for Korean Demilitarized Zone (DMZ) 
and Thailand veterans. The VFW supports expansion of benefits for 
Korean DMZ veterans who suffer from diseases and illnesses directly 
linked to Agent Orange exposure. While many of these veterans receive 
presumptive disability compensation for their service-connected 
disabilities, hundreds of them are left out despite clear congressional 
intent for them to be included. This legislation would provide them the 
benefits they have been unjustly denied.
    This legislation would also provide benefits to children suffering 
from spina bifida because of their parents' exposure to Agent Orange 
while serving in Thailand during the Vietnam War. Spina bifida is a 
debilitating birth defect, which has been found to be more prevalent 
among children of veterans exposed to Agent Orange. Children of Vietnam 
War and Korean DMZ veterans are eligible for this benefit, but children 
of veterans exposed to Agent Orange in Thailand are not provided the 
same support. This bill would make equal the level of benefits that 
other children receive due to their parents' exposure to Agent Orange.
    The 115th Congress failed to restore care and benefits for Blue 
Water Navy veterans because one senator did not believe Agent Orange 
made Blue Water Navy veterans sick and another senator was concerned 
about the cost. Congress cannot fail these veterans again.

H.R. 1126, the Honoring Veterans' Families Act

    The VFW supports this legislation, which would authorize VA to 
properly recognize the surviving spouse and dependents of our nation's 
veterans.
    Current law does not permit VA to replace a veteran's government-
furnished headstone to inscribe the deceased veteran's surviving spouse 
or dependent who is interred with the veteran. This bill would 
authorize VA to replace a veteran's headstone to ensure it rightfully 
honors the spouse or dependent that is laid to rest with the veteran.
    It would also authorize VA to replace a headstone that has been 
used to mark the grave of a spouse or dependent that precedes the 
veteran. Currently, VA lacks the authority to furnish a headstone for 
an eligible spouse or dependent who precedes an eligible veteran in 
death and is interred in a private or tribal cemetery.
    The VFW is also glad this bill would establish a retroactive 
effective date to authorize VA to properly recognize a spouse or 
dependent who is already interred with an eligible veteran, but lacks 
the proper recognition on the veteran's headstone. The VFW would, 
however, recommend that this Subcommittee amend this bill to align the 
effective date with Public Law 115-136, which corrected the disparity 
of eligibility for headstones between spouses and dependents. It 
authorized VA to provide headstones for certain spouses and dependents 
who die on or after November 11, 1998. The VFW urges this Subcommittee 
to establish the same effective date for this authority.

H.R., 1199, the VA Website Accessibility Act of 2019

    The VFW supports this legislation which would require VA to ensure 
its websites and kiosks meet accessibility requirements. With VA's 
increased reliance on websites, such as eBenefits and My HealtheVet, to 
communicate with veterans and kioks at VA medical centers to check in 
for appointments, VA must ensure all veterans have the ability to 
utilize such modalities.

H.R. 1200, the Veterans' Compensation Cost-of-Living Adjustment Act of 
    2019

    The VFW supports this legislation which would increase VA 
compensation for veterans and survivors, and adjust other benefits by 
providing a cost-of-living adjustment (COLA). The VFW is pleased to 
support any bill increasing COLA for our veterans, however, we would 
prefer to make COLA increases permanent and automatic.
    Disabled veterans, along with their surviving spouses and children, 
depend on their disability compensation or dependency and indemnity 
compensation to bridge the gap of lost earnings caused by the veteran's 
disability or death. Each year veterans wait anxiously to find out if 
they will receive a COLA. There is no automatic trigger that increases 
these forms of compensation for veterans and their dependents. 
Annually, veterans wait for a separate act of Congress to provide the 
same adjustment that is automatically granted to Social Security 
beneficiaries. While the VFW thanks this Subcommittee for consistently 
passing COLA legislation, we urge Congress to make this authority 
permanent.

H.R. 1628, the Enewetak Atoll Cleanup Radiation Study Act

    When service members answer the call of duty without hesitation, it 
is our duty to take care of the repercussions of their military 
service. The VFW supports this legislation, which would commission a 
study to determine if veterans who participated in the atomic cleanup 
of Enewetak Atoll from 1977 to 1980 were exposed to high levels of 
radiation.
    This is one more example of military toxic exposure causing adverse 
health conditions which have been ignored for far too long. The VFW 
thanks the Committee for its attention to this important issue and for 
its efforts to ensure Enewetak Atoll Cleanup veterans are provided the 
care and benefits they deserve.

H.R. 1826, the Veterans Valuing Our Widows and Widowers Act

    The VFW supports this legislation, which would transfer the Medal 
of Honor pension to surviving spouses.
    Veterans who have been awarded the Medal of Honor have made 
extraordinary sacrifices for our country and are rightfully awarded a 
special pension for those heroic acts. The loved ones of our most 
honored heroes often forgo careers to become full time caregivers. This 
means they become dependent on the Medal of Honor pension to make ends 
meet. However, the Medal of Honor pension ends with the death of the 
recipient and their spouses often do not qualify for VA benefits upon 
that death.
    Our nation has continued pensions for surviving spouses in the 
past, such as pensions for members of the Grand Army of the Republic. 
It is fitting that our Medal of Honor veterans' spouses should continue 
to receive Medal of Honor pensions until remarriage of the spouse or 
their death. This legislation would continue the pension until the 
surviving spouses' death, but it does not include a remarriage clause. 
The VFW recommends this Subcommittee discontinue pensions for surviving 
spouses who remarry before age 55, to make this new benefit equitable 
with other survivor benefits.

Draft Legislation to Establish a Grant Program to Conduct Cemetery 
    Research and Produce Educational Materials for the Veterans Legacy 
    Program

    The VFW supports this bill, which would support and enhance the VA 
Veterans Legacy Program.
    Perpetuating the memory and history of our dead is one of the VFW's 
founding principles. That is why the VFW has collaborated with Ace 
Hardware to honor veterans by giving out 1 million American-made flags 
nationwide. This past Memorial Day, 2,300 VFW posts throughout the 
country used the donated flags to mark and honor veterans' graves.
    The Veterans Legacy Program ensures the memories and stories of the 
brave men and women who have worn our nation's uniform are preserved in 
perpetuity. While it is still being fully developed, the program 
provides an avenue for students, descendants, friends, and fellow 
veterans to learn about the contributions veterans who are interred at 
VA national cemeteries made to their communities and the country. The 
VFW is a strong supporter of this program and has worked with the 
National Cemetery Administration to improve and expand it.
    This bill would establish a grant to help VA conduct research and 
produce educational materials for the program, which are the most 
labor-intensive and often difficult parts of the program. The VFW 
believes that such a grant would expedite the research process and 
ensure this important program is expanded to all VA national cemeteries 
as soon as possible.
    Madam Chairwoman, this concludes my testimony. I am prepared to 
take any questions you or the Subcommittee members may have.

                                 <F-dash>
                   Prepared Statement of Rick Weidman
    Chairwoman Luria, Ranking Member Bost, and other distinguished 
members of this Subcommittee, Vietnam Veterans of America (VVA) thanks 
you for the opportunity to present our views on the seven pieces of 
legislation you are considering this afternoon. First, though, we want 
to thank you for your efforts on behalf of veterans, members of our 
families, and survivors.
    We would like to begin with our position on the ``Amendment in the 
Nature of a Substitute to H.R. 299.'' We commend Chairman Takano and 
his staff for the thoroughness of their research in crafting this 
amendment, and for including ``certain veterans who served in Korea.'' 
However, we must take issue with the strictures this amendment would 
put on the enactment and implementation of H.R. 299, which VVA and the 
vast majority of VSOs and MSOs supported, and which passed, 482-0, in 
the last Congress.
    As you are aware, VVA has long advocated for justice for those 
sailors and Marines. They never had ``boots on the ground'' in the 
former South Vietnam nor did their vessels ever ply the inland 
waterways of that former nation, for which more than 58,000 of their 
countrymen gave their life.
    However, we believe that there is enough peer reviewed, replicable 
science to support our position. Although we acknowledge that it is 
difficult to argue that seawater contaminated by herbicides could 
impact personnel aboard ships one hundred nautical miles or so 
``offshore,'' we do not believe it is fair or just to limit eligibility 
for disability compensation and other earned benefits to only those who 
served on vessels positioned within the ``territorial waters'' of 
Vietnam. We do not accept the theory that seawater contaminated with 
dioxin would not have drifted beyond the parameters defining what is 
``offshore.''
    It is important to remember that VA summarily removed all ``Blue 
Water Navy'' from the group eligible for benefits if they had a malady 
or condition that had been declared ``presumptive'' or if the veteran 
could document direct evidence that a condition they suffered was ``as 
likely as not'' was caused by exposure to Agent Orange while stationed 
in Vietnam.
    The VA never even tried to establish scientific proof that these 
veterans were not exposed to toxins. Nor did the VA try to discover any 
direct evidence from the ships used. Nor did the VA ever even try to 
see if there was epidemiological evidence one way or the other that the 
crews on the vessels stationed in the South China Sea had a higher 
incidence of the presumptive conditions. This was true of each of the 
more than 11 individuals who served as confirmed or Acting Secretary of 
Veterans Affairs in the time since enactment of the Agent Orange Act of 
1991, which presumed exposure for all land, sea, and air forces 
assigned to the Vietnam military theater of operations curing the war. 
In other words, the VA had no real or rational justification for 
excluding any of the Navy veterans at the time they did so. They wanted 
to do so to avoid paying for just compensation, and for justly earned 
medical care, so they just did it.
    Hence, our position is simple: If a sailor or Marine is the 
recipient of the Vietnam Service Medal, so should he, or she, be 
considered a Vietnam veteran who has earned the benefits accorded those 
who served in the Southeast Asia theatre of operations. This also 
embraces airmen and-women who served in bases in Thailand; and any of 
their offspring born with spina bifida. We would hope that Mr. Takano 
will see fit to add children of Thailand-based women veterans born with 
any of the afflictions embraced for those women who served boots-on-
the- ground in Vietnam.
    We believe also that those veterans whose claims the VA has 
previously rejected and whose claims will be validated with the 
enactment of H.R. 299, should be addressed as expeditiously as 
possible, as were veterans whose claims went to the top of the pile as 
per the Nehmer decision.
    While VVA's position (based on the language in the ``Agent Orange 
Act 1991'' may be possibly broader than the bill under consideration, 
VVA fully and enthusiastically endorses the bill under Consideration as 
H.R. 299, and Mr. Takano's amendment under consideration as the best 
possible course of action at this time.
    H.R. 1126, the Honoring Veterans' Families Act, which would 
authorize the VA ``to provide inscriptions for spouses and [eligible 
dependent] children on certain headstones and markers'' furnished by 
the VA for a veteran laid to rest in a non- VA cemetery.
    This seems eminently reasonable, and VVA, therefore, supports its 
enactment.
    H.R. 1199, the VA Website Accessibility Act of 2019. This bill 
would direct the VA ``to conduct a study regarding the accessibility of 
VA websites to individuals with disabilities.'' Frankly, VA should be 
doing these reviews regularly, without Congress having to direct them 
to do so.
    This bill is entirely reasonable, and VVA endorses its passage. We 
would suggest that such a study must assemble focus groups of veterans 
with various disabilities to view and discuss relevant VA websites.
    H.R. 1628, the Eniwetok Atoll Clean-up Radiation Study Act. This 
bill would direct the VA to ``seek to enter into an agreement'' with 
NASEM, the reputable National Academies of Sciences, Engineering, and 
Medicine, to ``conduct a study on radiation exposure of the up to 
557,000 military personnel relating to the clean- up of Eniwetok 
Atoll.''
    Such a study would seek to determine the feasibility of ``a revised 
or alternative radiation dose assessment'' that ``would likely yield 
substantively improved estimates of the radiation dose received by 
members of the Armed Forces who participated in the cleanup of Eniwetok 
Atoll'' between January 1, 1977 and December 31, 1980.
    If such an assessment is proved to be feasible, and if it will 
provide evidence that the fears of affected military veterans are in 
fact well-founded, VVA endorses this bill.
    H.R. 1826, the Veterans Valuing Our Widows or Widowers Act, would 
``provide payment of Medal of Honor special pension to the surviving 
spouse of a deceased Medal of Honor recipient.''
    The ``WOW Act'' would provide monthly pensions of $1,329.58 to a 
surviving spouse. Although we would like to see a less complicated 
amount, perhaps $1,500, we otherwise support enactment of the WOW Act.
    H.R. 1200, the Veterans' Compensation Cost-of-Living Adjustment Act 
of 2019. This legislation, like its annual predecessors, would, as its 
title states, increase the rates of dependence and indemnity 
compensation for veterans with service-connected disabilities, and for 
their survivors.
    VVA of course supports this bill. We understand the politics behind 
enacting such a bill every year. We view it as an unnecessary waste of 
time. Instead of repeating this exercise every year, we would hope that 
legislative leadership might see the wisdom of enacting a bill that 
would provide veterans with the assurance that, come every December 1, 
they would receive the same COLA as recipients of Social Security 
receive.
    Draft Bill. This would have the VA establish a grant program to 
conduct cemetery research and produce educational materials for the 
Veterans Legacy Program. Pending further details, VVA endorses the 
intent of this legislation.
    We appreciate the opportunity of expressing our views of these 
bills, and we would be pleased to respond to any questions any 
Subcommittee member might care to pose. Thank you.

                                 <F-dash>
                 Prepared Statement of Chanin Nuntavong
    Chairwoman Luria, Ranking Member Bost and distinguished members of 
the Subcommittee on Disability Assistance and Memorial Affairs (DAMA); 
on behalf of National Commander Brett P. Reistad and The American 
Legion, the country's largest patriotic wartime service organization 
for veterans, comprising nearly 2 million members and serving every man 
and woman who has worn the uniform for this country, we thank you for 
the opportunity to testify on behalf of The American Legions positions 
on the following pending and draft legislation.
              H.R. 1126 - Honoring Veterans' Families Act
 To amend title 38, United States Code, to authorize the Secretary of 
 Veterans Affairs to provide inscriptions for spouses and children on 
       certain headstones and markers furnished by the Secretary.
    Under current law, veterans honorably discharged from military 
service are authorized a government-issued headstone or marker in a 
National Cemetery Administration (NCA) cemetery or a privately-owned 
cemetery. Further, veterans' spouses and eligible children buried in an 
NCA cemetery can receive a headstone or marker. However, current law 
does not allow the Department of Veterans' Affairs (VA) to add 
information about spouses and/or children to the gravestone or marker 
of a veteran buried with a government-furnished headstone or marker in 
a non-VA cemetery.
    The American Legion strives to ensure veterans and their family 
members receive the support and recognition they deserve. Including 
family information on a headstone or marker is a standard custom in 
society, and the families of veterans should not be any different. H.R. 
1126, The Honoring Veteran Families Act, alters current law by 
allowing, if feasible and upon request, VA to make inscriptions on a 
veteran's headstone or marker regarding their spouse and/or children. 
It would also allow VA to replace a veteran's headstone or marker to 
add such an inscription if the veteran predeceased their spouse and/or 
dependent child and already has a government-issued headstone or 
marker.
    Through American Legion Resolution No. 377: Support for Veterans 
Quality of Life \1\, we support authorizing the Secretary of VA to add 
an inscription to a government-issued headstone or marker for a 
veteran's eligible spouse and/or children buried in all cemeteries with 
the veteran. This common-sense legislation would allow the VA Secretary 
to provide, if feasible and upon request, these inscriptions for 
individuals who died on or after October 1, 2018.
---------------------------------------------------------------------------
    \1\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life

---------------------------------------------------------------------------
The American Legion supports H.R. 1126.

  Draft Legislation - To permit the Secretary of Veterans Affairs to 
  establish a grant program to conduct cemetery research and produce 
         educational materials for the Veterans Legacy Program.
   To permit the Secretary of Veterans Affairs to establish a grant 
program to conduct cemetery research and produce educational materials 
                    for the Veterans Legacy Program.
    In 2017, the National Cemetery Administration (NCA) established the 
Veteran Legacy Program (VLP), a grant-based partnership between NCA and 
academic institutions to conduct research on the lives of veterans 
interred in NCA cemeteries. The research illuminates how those buried 
in NCA cemeteries contributed to their country as servicemembers and to 
their community as veterans. VLP makes information available to the 
public through informative materials such as interactive maps to 
educate visitors. \2\
---------------------------------------------------------------------------
    \2\ Veteran Legacy Program
---------------------------------------------------------------------------
    There is currently no law that authorizes a grant program to 
conduct cemetery research. This draft legislation permits cemetery 
research and educational material production, as well as identification 
of eligible recipients including institutions of higher learning, local 
agencies, non-profit organizations, and other eligible recipients as 
determined by the Department of Veteran Affairs (VA) secretary. The 
legislation also permits the establishment of appropriate utilization 
of funds for research and educational material to promote community 
engagement for Fiscal Year 2020 under grant authority. The American 
Legion supports memorializing those who served our great nation.
    Through American Legion Resolution No. 377: Support for Veterans 
Quality of Life \3\, we support the Secretary of the Department of 
Veterans Affairs in establishing a grant program to conduct cemetery 
research and produce educational materials for the Veteran Legacy 
Program. The American Legion urges Congress to enact legislation and 
programs within VA that will enhance, promote, restore or preserve 
benefits for veterans and their dependents, including final resting 
places in national shrines and with lasting tributes that commemorates 
their service.
---------------------------------------------------------------------------
    \3\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life

The American Legion supports this draft legislation as currently 
---------------------------------------------------------------------------
    written.

H.R. 1200: Veterans' Compensation Cost-of-Living Adjustment Act of 2019
      To increase, effective as of December 1, 2019, the rates of 
 compensation for veterans with service-connected disabilities and the 
  rates of dependency and indemnity compensation for the survivors of 
           certain disabled veterans, and for other purposes.
    This bill will provide a Cost of Living Allowance (COLA) effective 
December 1, 2019. Disability compensation and pension benefits awarded 
by the Department of Veteran Affairs (VA are designed to compensate 
veterans for medical conditions due to service or those who earn below 
a designated income threshold. H.R. 1200 appropriately recognizes 
annual increases to costs of living and increases benefits commensurate 
with those cost increases.
    For 100 years, The American Legion has advocated on behalf of our 
nation's veterans, to include the awarding of disability benefits 
associated with chronic medical conditions manifest related to selfless 
service to this nation. Annually, veterans and their family members are 
subjects in the debate regarding the annual cost of living adjustment 
for these disability benefits. For these veterans and their family 
members, COLA is not simply an acronym or a minor adjustment in 
benefits; instead, it is a tangible benefit that meets the needs of the 
increasing costs of living in a nation they defended.
    The American Legion is pleased to support this bill, in part 
because it does not include two mechanisms we are resolved to oppose, 
Consumer Price Indexing and ``round down'' provisions. The American 
Legion opposes using any Consumer Price Index that would reduce the 
annual cost- of-living adjustment for military retirees, veterans 
receiving Social Security benefits, or VA beneficiaries. \4\ Similarly, 
The American Legion also appreciates this bill does not include 
``round- down'' provisions, where veterans' benefits would be rounded-
down to the next whole dollar to save money. Rounding down is a 
slippery slope that dilutes the value of future benefits. Veterans 
should never have their benefits ``round down'' to provide legislative 
fiscal ease to help offset the cost of creating or expanding additional 
benefits elsewhere under Title 38.
---------------------------------------------------------------------------
    \4\ American Legion Resolution No. 164: Oppose Lowering of Cost-of-
Living Adjustments
---------------------------------------------------------------------------
    The American Legion supports legislation to provide a periodic 
cost-of-living adjustment increase and to increase the monthly rates of 
disability compensation. \5\
---------------------------------------------------------------------------
    \5\ American Legion Resolution No. 187: Department of Veterans 
Affairs Disability Compensation

---------------------------------------------------------------------------
The American Legion supports H.R. 1200.

            H.R. 1199: VA Website Accessibility Act of 2019
    To direct the Secretary of Veterans Affairs to conduct a study 
 regarding the accessibility of websites of the Department of Veterans 
               Affairs to individuals with disabilities.
    20 USC 794d Sec.  508 (Section 508), of the Rehabilitation Act, 
establishes requirements for electronic and information technology 
developed, maintained, procured, or used by the Federal government. 
Section 508 requires federal electronic and information technology to 
be accessible to people with disabilities, including employees, and 
members of the public. An accessible information technology system is 
one that operates in a variety of ways and does not rely on a single 
sense or ability of the user.
    The VA Website Accessibility Act of 2019, is not proposing any 
changes to Section 508. H.R. 1199 requires Department of Veterans 
Affairs (VA) to examine all websites (including attached files and web-
based applications) of VA to determine whether such websites are 
accessible to individuals with disabilities in accordance with section 
508. Further, H.R. 1199 requires VA to compile a complete list of non-
compliant websites and submit a plan to Congress to make these websites 
compliant with the requirements of Section 508.
    The provisions of this bill fall outside the scope of established 
resolutions of The American Legion. As a large, grassroots 
organization, The American Legion takes positions on legislation based 
on resolutions passed by the membership or in meetings of the National 
Executive Committee. However, The American Legion believes access to 
accurate and relevant information is essential to making informed 
decisions. This is especially true for disabled veterans who must make 
critical daily decisions about their health and the health and welfare 
of their dependents. We support efforts to identify the challenges. The 
American Legion believes that all veterans should have access to VA and 
VA's resources.
    With no resolutions addressing the provisions of the legislation, 
The American Legion is researching the material and working with our 
membership to determine the course of action, which best serves 
veterans.

The American Legion has no current position on H.R. 1199.

         H.R. 1628: Enewetak Atoll Clean-Up Radiation Study Act
 To direct the Secretary of Veterans Affairs to seek to enter into an 
  agreement with the National Academies of Sciences, Engineering, and 
   Medicine to conduct a study on radiation exposure relating to the 
           cleanup of Enewetak Atoll, and for other purposes.
    Servicemembers cleaning various nuclear testing sites, including 
the Marshall Islands, during the 1970s and 1980s were exposed to 
significant radiation because of their duties. Servicemembers who 
participated in cleaning up these nuclear testing sites suffer from 
high rates of cancers due to their exposure to radiation and nuclear 
waste. These servicemembers are currently unable to receive the same 
treatments and service-related disability presumptions that other 
``radiation- exposed veterans'' receive from the Department of Veterans 
Affairs. The American Legion believes these veterans deserve the same 
benefits that U.S. law guarantees to other servicemembers exposed to 
dangerous radiation and nuclear waste. The American Legion believes VA 
should be responsible for the care of these atomic cleanup veterans.
    The American Legion would like to see servicemembers impacted by 
toxic exposures receive the same treatments and service-related 
disability presumptions, this legislation would help establish further 
evidence to support these veterans' claims.

The American Legion supports H.R. 1628.

                      H.R. 1826: Veterans VOW Act
 To amend title 38, United States Code, to provide payment of Medal of 
  Honor special pension under such title to the surviving spouse of a 
       deceased Medal of Honor recipient, and for other purposes.
    The provisions of this bill fall outside the scope of established 
resolutions of The American Legion. The American is a resolution based, 
grassroots organization that takes positions on legislation based on 
resolutions passed by the membership or in meetings of the National 
Executive Committee. The American Legion has no current position on 
H.R. 1826. With no resolutions addressing the provisions of the 
legislation, The American Legion is researching the material and 
working with our membership to determine the course of action which 
best serves veterans.

The American Legion has no current position on H.R. 1826.

         H.R. 299: Blue Water Navy Vietnam Veterans Act of 2019
To amend title 38, United States Code, to clarify presumptions relating 
 to the exposure of certain veterans who served in the vicinity of the 
              Republic of Vietnam, and for other purposes.
    Veterans who served on open sea ships off the shore of Vietnam 
during the Vietnam War are called ``Blue Water Veterans.'' Currently, 
Blue Water Veterans must have physically set foot on the land of 
Vietnam or served on its inland waterways between January 9, 1962 and 
May 7, 1975 to be presumed to have been exposed to herbicides when 
claiming service-connection for diseases related to Agent Orange 
exposure.
    Blue Water Veterans who did not set foot in Vietnam or serve aboard 
ships that operated on the inland waterways of Vietnam must show, on a 
factual basis, that they were exposed to herbicides during military 
service in order to receive disability compensation for diseases 
related to Agent Orange exposure. These claims are decided on a case-
by-case basis.
    We are aware the Department of Veteran Affairs (VA) previously 
asked the National Academy of Sciences' Institute of Medicine (IOM) to 
review the medical and scientific evidence regarding Blue Water 
Veterans' possible exposure to Agent Orange and other herbicides. IOM's 
report, ``Blue Water Navy Vietnam Veterans and Agent Orange Exposure'' 
was released in May 2011. The report concluded that ``there was not 
enough information for the IOM to determine whether Blue Water Navy 
personnel were or were not exposed to Agent Orange.''
    However, Vietnam veterans who served on the open sea now have 
health problems commonly associated with herbicide exposure. Just as 
those who served on land were afforded the presumption because it would 
have placed an impossible burden on them to prove exposure, Congress 
should understand the injustice of placing the same burden on those who 
served offshore. Clearly, all the toxic wind-blown, waterborne, and 
contamination transfer stemming from aircraft, vehicle, and troop 
transfer makes it impossible to conclude that Agent Orange-dioxin 
stopped at the coastline.
    On February 27, 2019, our National Commander testified before a 
joint hearing of the Senate and House Veterans' Affairs Committee 
urging VA to provide care and benefits to our Veterans exposed to 
herbicides such as agent orange during the Vietnam War. He called upon 
Congress to pass H.R. 299, the Blue Water Navy Veterans Act, and 
thereby amend Title 38, U.S. Code, to presume exposure to agent orange 
for military personnel who served during the Vietnam War on any vessel 
that came within 12 nautical miles of the Vietnam coastline.
    In this year's landmark Procopio decision, the U.S. Court of 
Appeals for the Federal Circuit determined service in the Vietnam War 
includes anyone within the 12 nautical mile territorial waters of the 
Republic of Vietnam. \6\ The science is also settled, as a 2002 
Australian study concluded that ``personnel on board ships were exposed 
to biologically significant quantities of dioxins,'' and Australia 
began granting disability benefits to its former sailors in 13 years 
ago. \7\
---------------------------------------------------------------------------
    \6\ Procopio v. Wilkie, 913 F.3d 1371
    \7\ Report to the Department of Veteran Affairs, Australia titled 
``Examination of the potential exposure of Royal Australian Navy (RAN) 
personnel to polychlorinated dibenzodioxins and polychlorinated 
dibenzofurans via drinking water''
---------------------------------------------------------------------------
    With the expansion of care available resulting from Procopio and 
potential changes from this pending legislation, The American Legion 
supports this proposed legislation with amendments. The American Legion 
will support this legislation contingent upon the inclusion of 
additional language requiring VA to engage in a robust and 
comprehensive educational campaign. This education campaign must work 
in concert with DoD to make all Guard, Reserve members, and Purple 
Heart recipients aware of increased benefits as a result of this 
statute and interpretation. Additionally, all active duty and reserve 
members must be made aware of the removal of the cap on Jumbo Loans.
    Through Resolution No. 246: Blue Water Navy Vietnam Veterans, The 
American Legion supports legislation to expand the presumption of Agent 
Orange exposure to any military personnel who served on any vessel 
during the Vietnam War that came within 12 nautical miles of the 
coastlines of Vietnam. \8\
---------------------------------------------------------------------------
    \8\ American Legion Resolution No. 246 (Sept. 2016): Blue Water 
Navy Vietnam Veterans

---------------------------------------------------------------------------
The American Legion supports H.R. 299 with Amendments.


                                 <F-dash>
                Prepared Statement of Shane L. Liermann
    Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs. As you know, DAV is a non-profit 
veterans service organization comprised of over one million wartime 
service-disabled veterans that is dedicated to a single purpose: 
empowering veterans to lead high-quality lives with respect and 
dignity. DAV is pleased to offer our views on the bills under 
consideration by the Subcommittee.
  Amendment in the Nature of a Substitute to H.R. 299, the Blue Water 
                   Navy Vietnam Veterans Act of 2019
    DAV strongly supports the Amendment in the Nature of a Substitute 
to H.R. 299, the Blue Water Navy Vietnam Veterans Act of 2019, which 
will correct the injustice done to Blue Water Navy Vietnam veterans. As 
you know, during the 115th Congress, H.R. 299, similar Blue Water Navy 
legislation, passed the House of Representatives with a vote of 382 to 
0; however, the bill was not successful in the Senate.
    We are pleased that Chairman Takano and Ranking Member Roe have 
collaborated to bring H.R. 299 back before the Committee. While the 
U.S. Court of Appeals for the Federal Circuit (Federal Circuit) in 
Procopio v. Wilkie, overruled VA's previous misinterpretations and 
determined that service in the Republic of Vietnam includes the 
territorial waters within 12 nautical miles of the baseline, H.R. 299 
will codify and protect that decision to ensure those men and women 
exposed to the toxic herbicides will be eligible for the benefits 
earned by their service.

Section 2. Clarification of Presumptions of Exposure for Veterans Who 
    served in Vicinity of Republic of Vietnam.

    Congress passed the Agent Orange Act of 1991 to provide benefits 
and establish presumptive diseases for veterans exposed to Agent 
Orange. When VA implemented the Agent Orange Act, it determined that 
veterans who received the Vietnam Service Medal, to include those who 
served in the waters offshore, were exposed to Agent Orange. In 1993, a 
VA General Counsel opinion held that veterans with service in the 
waters offshore were exposed to Agent Orange.
    The Veterans Benefits Improvements Act of 1996 extended the 
official wartime period for service in Vietnam. Subsequently, a VA 
General Counsel opinion in 1997 misinterpreted that statute and 
determined only veterans who physically served in Vietnam would be 
granted a concession of exposure to Agent Orange. In 2002, the VA 
updated its manual reiterating that exposure to Agent Orange was 
conceded only to those physically in Vietnam. The decision to exclude 
Blue Water Navy veterans from the concession of exposure to Agent 
Orange was not based on medical or scientific evidence, law, or actual 
Congressional intent; it was based on a misinterpretation.
    In 2006, the Court of Appeals for Veterans Claims held that VA's 
interpretation was incorrect; however, VA subsequently appealed that 
decision to the Federal Circuit. In 2008 the Federal Circuit upheld 
VA's decision to exclude Blue Water Navy Vietnam Veterans.
    As noted previously, during the 115th Congress, H.R. 299, Blue 
Water Navy legislation, passed the House of Representatives with a vote 
of 382 to 0 in June 2018. Senate leadership tried to pass the bill by 
unanimous consent, but due to the objections of two Senators, the bill 
failed as the 115th Congress closed in December 2018.
    On January 29, 2019, in Procopio v. Wilkie, the Federal Circuit 
overruled VA's previous misinterpretations and held that it was 
Congress' intent to include the territorial seas as serving in Vietnam. 
The Court defined the territorial seas as 12 nautical miles from the 
baseline (the mean low-water mark).
    The VA had until April 29, 2019, to appeal the decision to the U.S. 
Supreme Court. Although Secretary Wilkie, at the Senate hearing on 
March 26, 2019, indicated that the VA would not recommend appealing the 
Procopio decision, recently the Supreme Court granted the Department of 
Justice a 30-day extension to potentially file an appeal of the 
Procopio decision.
    H.R. 299 and its proposed amendment would codify Procopio' s 
holdings that service in the Republic of Vietnam incudes the 
territorial waters within 12 nautical miles from the baseline. The 
legislation would use the same grid coordinates in the legislation 
approved by the House last year which would extend beyond 12 nautical 
miles in some locations, particularly the southern portion of Vietnam. 
We strongly support Section 2, in alignment with DAV Resolution No. 
033, which advocates that service in the Republic of Vietnam includes 
service in the territorial waters offshore.
    VA will need to issue guidance to process and interpret Procopio v 
Wilkie either via regulation or by their manual. Since that guidance 
could be contrary to the intent of the Federal Circuit decision, we 
believe it necessary to pass H.R. 299 to protect and codify the 
decision and to ensure its correct interpretation and application for 
all affected veterans.

Section 3. Presumption of Herbicide Exposure for Certain Veterans Who 
    Served in Korea.

    In accordance with DAV Resolution No. 090, we also support Section 
3 that will recognize September 1, 1967 as the earliest date for 
exposure to herbicides on the Korean DMZ. This change will provide 
veterans greater equity with respect to the dates of herbicide exposure 
and the presumptive diseases associated therein.
    In 2003, P.L. 108-183 established statute, title 38, United States 
Code, Sec. 1821, that provides spina bifida as a presumptive disease 
for children of veterans exposed to Agent Orange in or near the DMZ. It 
defines those veterans as those who served in the active military, on 
or near the DMZ, as determined by the Secretary in consultation with 
the Secretary of Defense, during the period beginning on September 1, 
1967, and ending on August 31, 1971.
    Currently, there are no statues to concede Agent Orange exposure 
for veterans who served on or near the Korean DMZ. However, there are 
regulations as published in 38 C.F.R. Sec.  3.307(a)(6)(iv), which 
note, if a veteran served on or near the Korean DMZ between April 1, 
1968 and August 31, 1971, exposure is conceded and thus the veteran can 
establish service connection for the established presumptive diseases.
    The U.S. Military Advisory Group's Vegetation Control Plan (CY-68) 
reveals that Agent Orange was used in 1967 and 1968 in trial 
application in U.S. Army 2nd Infantry Division and Republic of Korea 
Army 21st Infantry Division regions. Based on the U.S. Military 
Advisory Group's Vegetation Control Plan, the Republic of Korea 
recognizes 1967 as the earliest date of exposure to Agent Orange on the 
DMZ for their veterans.
    In July 2016, the South Korean Daejeon District Court determined 
that this includes the 3rd Infantry Division GOP region in 1967 with 
evidence in the form of a Class 3 confidential military document 
reporting ``suspected application'' of Agent Orange.
    As noted, children of veterans with spina bifida are eligible for 
benefits based on the veteran's exposure as early as September 1, 1967, 
however, the VA only recognizes April 1, 1968, for a veteran's exposure 
to establish their own presumptive service connection. Section 3 will 
align these two issues with respect to herbicide exposure and the 
presumptive diseases associated therein.

Section 4. Benefits for Children of Certain Thailand Service Veterans 
    Born with Spina Bifida.

    DAV supports Section 4 as it will provide benefits for those 
children of veterans exposed to herbicides while serving in Thailand 
during the Vietnam Era, which is in agreement with DAV Resolution No. 
090.
    It is proper to note that current statutes do not recognize 
veterans who served in Thailand during the Vietnam Era as exposed to 
herbicides. VA's manual (M21-1) does recognize herbicide exposure for 
specific military occupational specialties on the perimeter of eight 
Thai Royal Air Force Bases. VA's manual requires Air Force veterans to 
have service on the perimeters of the air bases; Army veterans to have 
provided perimeter security on air bases and to have been a member of 
the military police who served on the perimeter of small Army bases. 
However this creates additional burden of proof and development upon 
the VA and veterans.
    There is currently legislation pending in the Committee, H.R. 2201, 
which would automatically concede Agent Orange exposure for all 
veterans who served at military installations in Thailand during the 
Vietnam Era, regardless of the base, duty on the perimeter or military 
occupational specialty. We ask the Subcommittee to consider addressing 
H.R. 2201 in the near future and eliminate any inequity created.

Section 5. Updated Report on Certain Gulf War Illness Study.

    DAV supports Section 5 as it agrees with DAV Resolution No. 069, 
which urges continued collaboration on research and studies on the 
health outcomes of the men and women exposed to toxins in the course of 
their active military service.

Section 6. Loans Guaranteed under Home Loan Programs of Department of 
    Veterans affairs.

    DAV does not have a resolution specific to Section 6 to provide 
home loan guaranties for jumbo loans and takes no position on this 
section of the proposed amendment. However, we would note that this 
section includes the continuation of VA's policy of waiving home loan 
guaranty fees on service-connected veterans, which DAV adamantly 
supports.
             H.R. 1126, the Honoring Veterans' Families Act
    H.R. 1126, the Honoring Veterans Families Act, would allow the 
Department of Veterans Affairs to make an inscription on a veteran's 
grave regarding their spouse or dependent child if that veteran is 
buried in a non-VA cemetery. It would also allow the VA to replace a 
veteran's grave marker to add such an inscription if the veteran 
predeceased their spouse or dependent child and already has a marker. 
Current law does not provide for any inscription honoring spouses or 
dependents.
    DAV does not have a resolution that pertains to this issue but we 
would not oppose its passage.
                               H.R. 1199
    This bill would require the Secretary of Veterans Affairs to 
examine and report on all websites (including attached files and web-
based applications) of VA to determine whether such websites are 
accessible to individuals with disabilities in accordance with section 
508 of the Rehabilitation Act of 1973.
    H.R. 1199 would help to ensure that all VA websites and associated 
files are accessible by all veterans, especially those with 
disabilities and impairments as noted in section 508. DAV does not have 
a resolution on this issue; however, we would not oppose the enactment 
of this bill.
                               H.R. 1200
    This bill, if enacted, would authorize a cost-of-living adjustment 
(COLA) for veterans in receipt of compensation and pension, and for 
survivors of veterans who died from service-incurred disabilities and 
are in receipt of Dependency and Indemnity Compensation (DIC). It would 
provide a COLA increase by the same percentage as Social Security and 
would effective December 1, 2019.
    Receipt of annual COLA increments aids injured and ill veterans, 
their families, and their survivors to help maintain the value of their 
VA benefits against inflation. Without COLAs, these individuals, who 
sacrificed their own health and their family life for the good of our 
nation, may not be able to maintain a quality of life in their elder 
years. DAV strongly supports H.R. 1200 as it is in alignment with DAV 
Resolution No. 031.
    We further note that the Administration's proposed budget for FY 
2020 is seeking to round-down COLA computations, for five years from 
2020 to 2024. The cumulative effect of this proposal levies a tax on 
disabled veterans and their survivors, costing them money each year.
    DAV is pleased to note that H.R. 1200 does not include any language 
about rounding-down the proposed COLA increase. Millions of veterans 
and their survivors rely on their compensation for essential purchases 
such as food, transportation, rent, and utilities. Any COLA round-down 
will negatively impact the quality of life for our nation's disabled 
veterans and their families.

H.R. 1628

    H.R. 1628 will require the Secretary to enter into an agreement 
with the National Academy of Sciences, Engineering, and Medicine to 
conduct a study on the level of radiation experienced by those members 
of the DOD who participated in the Enewetak Atoll Cleanup in contrast 
to the report from the National Defense Threat Reduction Agency.
    The United States conducted 43 nuclear tests on Enewetak Atoll from 
1948 to 1958. The tests ranged in yield from a few kilotons to 
megatons. Prior to the start of testing, the Enewetak people were 
relocated to Ujelang Atoll, about 124 miles southwest of Enewetak. The 
tests were conducted primarily on the northern islands to minimize 
contamination of the base camp islands located in the atoll's 
southeast. The tests resulted in small, but observable, residual 
radiation environments, primarily on the northern islands of the atoll.
    Radioactive contamination from nuclear detonations remained after 
testing ended. During the early 1970s, residents of the atoll, who had 
been relocated prior to the start of testing, expressed interest in 
returning to their homeland as they were promised. During the 1971 
review required by the agreement between the United States and the 
Trust Territory of the Pacific Islands, it was determined that Enewetak 
Atoll was no longer needed for nuclear testing.
    In March 1977, the United States began decontamination of Enewetak 
and built a concrete dome to deposit radioactive soil and debris. 
Approximately 6,000 military service members of the United States 
Department of Defense (DOD) participated in the cleanup project. The 
DOD established a Joint Task Group within the Defense Nuclear Agency to 
conduct the cleanup, as authorized by Congress in Public Law 95-134, in 
an operation named the Enewetak Atoll Cleanup Project (ECUP). The 
decontamination efforts concluded in May 1980.
    In April 2018, the Defense Threat Reduction Agency released its 
report ``Radiation Dose Assessment for Military Personnel of the 
Enewetak Atoll Cleanup Project.'' The report concluded that the highest 
of the estimated upper-bound total effective radiation doses for any of 
the included sample assessments is 0.21 rem. This dose is similar to 
the average effective dose of 0.31 rem to the U.S. population from 
ubiquitous background radiation.
    We have concerns over the accuracy of the report. For example, the 
report acknowledges that high heat and humidity conditions at Enewetak 
damaged 90 to 100 percent of the film badges during the initial months 
of the clean-up. Typically, this damage was such that, if the wearers 
had received low doses, they would have been obscured by damage, which 
compromised the film badge image used to quantify exposure.
    There is also evidence of two technicians who were given permission 
to bivouac on a controlled island overnight. Their film badges recorded 
doses of 0.400 rem and 0.430 rem. These doses were about two orders of 
magnitude greater than expected based on average exposure rates on that 
island. An investigation was conducted to assess the validity of the 
film badge doses based on worker activities and known radiation 
exposure rates on the island. Although there appeared to be no known 
circumstances that could account for the recorded doses, it was 
possible to inadvertently expose the film badges if they were not 
stored in a low background area when not in use.
    In addition, film badge and dosimeters were placed on a pile of 
steel debris. The film badges and dosimeters exposed for 14 hours 
placed on the debris pile known to contain the activation product Co-60 
reported 0.413 and 0.466 rem and 0.519 and 0.465 rem, respectively. 
Reasonable agreement was observed between the technicians' film badge 
readings and those that resulted from the placement of the film badges 
and TLDs on the debris pile. The investigation concluded that it was 
likely that the technicians were not exposed to the radiation doses 
measured by their film badges.
    In accord with DAV Resolution No. 090, we fully support this bill. 
In reference to the noted discrepancies, we agree that it is necessary 
to reconcile the Defense Threat Reduction Agency's report.
                               H.R. 1826
    This bill would amend 38 U.S.C. Sec.  1562 by increasing the Medal 
of Honor Special Pension from $1000.00 a month to $1,329.58 a month. It 
would further amend the statute to direct the Secretary to pay the 
monthly special pension to the surviving spouse of a person who was 
awarded a Medal of Honor.
    At this time, DAV does not have a resolution on this issue; 
however, we would not oppose the enactment of H.R. 1826.
 Draft Bill to permit the Secretary of Veterans Affairs to establish a 
  grant program to conduct cemetery research and produce educational 
               materials for the Veterans Legacy Program.
    This legislation would permit the Secretary to establish a grant 
program with institutions of higher learning to conduct cemetery 
research and produce educational materials for the Veterans Legacy 
Program (VLP). The VLP is NCA's educational outreach initiative whose 
mission is to memorialize our nation's veterans through sharing their 
stories. The NCA partners with universities, schools, teachers, 
professors, and students of all levels to research veterans interred in 
NCA cemeteries and how they contributed to their country and their 
communities.
    Currently, the NCA sponsors research for the VLP through federal 
contract, which is slightly different than a grant. The government uses 
grants and cooperative agreements as a means of assisting researchers 
in developing research for the public good, whereas it uses contracts 
as a means of procuring a service for the benefit of the government. 
Grants are much more flexible than contracts. Typically in federal 
contracts, changes cannot be made to the scope of work or budget, 
whereas in grants these changes can usually be made with the 
university's approval. Failure to deliver under a federal contract can 
have potential legal or financial consequences to all parties at the 
University, whereas in the case of a grant typically a final report 
explaining the outcome is sufficient.
    While DAV does not have a resolution specific to this program, we 
support the intent of the program to remember those who have served and 
sacrificed and are laid to rest in our National Cemeteries.

                                 <F-dash>
              Prepared Statement of David A. Butler, Ph.D.
COMMENTS CONCERNING H.R. 1628

THE ENEWETAK ATOLL CLEANUP RADIATION STUDY ACT

    Chairwoman Luria, Ranking Member Bost and members of the 
Subcommittee, thank you for the opportunity to testify today. My name 
is Dr. David Butler and I serve as a Scholar in the Health and Medicine 
Division of the National Academies of Sciences, Engineering, and 
Medicine and as Director of its Office of Military and Veterans Health. 
Accompanying me is Dr. Ourania Kosti, Senior Program Officer in the 
National Academies' Nuclear and Radiation Studies Board and Principal 
Investigator for the Radiation Effects Research Foundation Program, 
which provides support to a cooperative Japan-US research organization 
that studies radiation effects in the survivors of the atomic bombings 
of Hiroshima and Nagasaki.
    The National Academy of Sciences was created more than 150 years 
ago through a congressional charter signed by Abraham Lincoln in order 
to serve as an independent, authoritative body outside the government 
that could advise the nation on matters pertaining to science and 
technology. Every year, approximately 6,000 Academies members and 
volunteers serve pro bono on our consensus study Committees or 
convening activities. We do not advocate for specific policy positions. 
Rather, we enlist the best available expertise across disciplines to 
examine the evidence, reach consensus, and identify a path forward. Our 
reports, proceedings and other publications are available via the web 
in PDF form without charge.
    The National Academies has a long history of advising the federal 
government on the health effects of radiation exposures in general and 
radiation exposures resulting from military activities in particular. 
This work originated with a November 1946 directive from President 
Truman asking our organization to undertake a program to study the 
long-range biological and medical effects of the atomic bomb on man. 
Since then, we have-among other efforts-conducted reviews of the 
methods used to assign radiation doses to service personnel at nuclear 
weapons tests, an examination of the use of film badge dosimetry in 
atmospheric nuclear tests, studies of the mortality of military 
participants in U.S. nuclear weapons tests, and in 2003, a 
comprehensive review of the dose reconstruction program of the Defense 
Threat Reduction Agency. The National Academies has also previously 
reviewed dose assessments generated by the federal government for 
personnel exposed to radioactive materials as a result of their work at 
the Department of Energy's Hanford, Fernald, and Savannah River nuclear 
weapons production facilities.
    The Office of Military and Veterans Health that I direct includes 
the Medical Follow-up Agency, which was established after World War II 
and which maintains a collection of epidemiologic data on over 100 
study populations of former military personnel. These data include 
information on the causes of death of participants in the Operation 
CROSSROADS atmospheric nuclear test series that took place in the 
Bikini Atoll in the Marshall Islands.
    I have included a list of National Academies of Sciences, 
Engineering, and Medicine reports related to ionizing radiation 
exposure due to military service and clean-up operations and radiation 
dose reconstruction in the materials submitted for the Subcommittee's 
attention.
    Turning to the legislation under consideration in this hearing, 
H.R. 1628 outlines the parameters of a study that would allow for a 
more complete understanding of the radiation doses received by those 
involved in the clean-up operations undertaken at Enewetak Atoll from 
1977 to 1980 in response to nuclear testing in the area in the 1940s 
and 50s. It takes as its starting point a 2018 Defense Threat Reduction 
Agency report that presented the results of a radiation dose assessment 
for military personnel involved in the clean-up operations.
    A radiation dose assessment-which is also called a dose 
reconstruction-is, in brief, a means of characterizing a person's 
received ionizing radiation dose through an accounting of the radiation 
sources, their source strengths and the routes and duration of 
exposure. The 2003 National Academies review of the DTRA dose 
reconstruction program I mentioned identified six basic elements of any 
radiation dose assessment:

    1. Definition of exposure scenarios: the location and activities of 
individuals in areas where radiation exposure could occur, the time 
spent in those locations, and the characteristics of the radiation 
environment in those areas.

    2. Identification of exposure pathways: the relevant pathways of 
external (proximity to sources) and internal (through ingestion or 
inhalation of, or skin contact with sources) exposure to radioactive 
substances.

    3.Development and implementation of methods of estimating dose: the 
data, assumptions, and methods of calculation used to estimate dose 
from the relevant exposure pathways in the assumed scenarios.

    4.Evaluation of uncertainties in the estimates of dose: assessment 
of the effects on estimated dose of uncertainties in assumed exposure 
scenarios and uncertainties in models and data used to estimate dose in 
assumed scenarios, to obtain an expression of confidence in the 
estimated dose.

    5.Presentation and interpretation of results: documentation of the 
assumptions and methods of estimating dose and discussion of the 
results in context of purpose of the dose reconstruction.

    6.Quality assurance and quality control: the systematic and 
auditable documentation of the dose reconstruction process and results. 
[p. 30-38]

    Depending on the available information, a dose assessment will 
include some combination of direct or indirect measurements obtained, 
for example, by film badges and field survey instruments; and estimates 
of unmeasured parameters that are based on historical data, proxies for 
exposure such the subject's job, the physics of the radioactive 
materials, and human biology and physiology. A radiation dose 
assessment often entails of the calculation of the estimated upper-
bound dose-that is, the dose that would occur if all of the uncertain 
components of the analysis were set to the plausible value that would 
in combination yield the highest estimate.
    The proposed study would address two primary questions related to 
the Enewetak veterans:

    <bullet>  whether information exists to conduct a revised or 
alternative radiation dose assessment that would consider exposures and 
exposure pathways that were not part of the 2018 radiation dose 
assessment; and
    <bullet>  whether conducting such a revised or alternative 
radiation dose assessment is feasible and would likely yield 
substantively improved estimates of the radiation dose received by 
members of the Armed Forces who participated in the cleanup of Enewetak 
Atoll.

If the answers to those questions were ``yes'', the study would go on 
    to

    <bullet>  identify the sources of the data for the new assessment, 
including a delineation of the protocol to be used in conducting such 
an assessment;
    <bullet>  estimate the time and funding needed to conduct the 
assessment;
    <bullet>  identify the major sources of uncertainty in the 
assessment and how such sources may affect the estimates generated by 
it; and
    <bullet>  identify the best means to carry out the new assessment.

    The National Academies believes that this is a scientifically-sound 
approach to addressing lingering questions regarding the exposures of 
the Enewetak veterans and that the results would allow these veterans, 
their loved ones, and the Federal Government to make more fully 
informed decisions.
    Thank you for your attention. Dr. Kosti and I would be happy to 
answer your questions.
   National Academies of Sciences, Engineering, and Medicine reports 
  related to ionizing radiation exposure due to military service and 
         clean-up operations and radiation dose reconstruction
    Health Risks from Exposure to Low Levels of Ionizing Radiation 
(1956; 1972; 1977; 1980; 1990; 1999; 2006)
    Federal Research on the Biological and Health Effects of Ionizing 
Radiation (1981)
    Review of the Methods Used to Assign Radiation Doses to Service 
Personnel at Nuclear Weapons Tests. (1985)
    Mortality of Nuclear Weapons Test Participants. (1985)
    Review of the U.S. Army Ionizing Radiation Dosimetry System (1986)
    Film Badge Dosimetry in Atmospheric Nuclear Tests (1989)
    The Hanford Environmental Dose Reconstruction Project: A Review of 
Four Documents (1994)
    A Review of Two Hanford Environmental Dose Reconstruction Project 
(HEDR) Dosimetry Reports Columbia River Pathway and Atmospheric Pathway 
(1995)
    Radiation Dose Reconstruction for Epidemiologic Uses (1995)
    Adverse Reproductive Outcomes in Families of Atomic Veterans: The 
Feasibility of Epidemiologic Studies (1995)
    Mortality of Veteran Participants in the CROSSROADS Nuclear Test 
(1996)
    An Evaluation of Radiation Exposure Guidance for Military 
Operations: Interim Report (1997)
    A Review of the Radiological Assessments Corporation's Fernald Dose 
Reconstruction Report (1997)
    Exposure of the American People to Iodine-131 from Nevada Nuclear-
Bomb Tests: Review of the National Cancer Institute Report and Public 
Health Implications (1999)
    Potential Radiation Exposure in Military Operations: Protecting the 
Soldier Before, During, and After (1999)
    The Five Series Study: Mortality of Military Participants in U.S. 
Nuclear Weapons Tests (2000)
    Letter Report to Review and Comment on the Phase II Draft Report 
Prepared for the CDC by the Risk Assessment Corporation (RAC) Titled 
``Savannah River Site Environmental Dose Reconstruction Project Phase 
II'' (2000)
    A Review of the Dose Reconstruction Program of the Defense Threat 
Reduction Agency (2003)
    Gulf War and Health: Updated Literature Review of Depleted Uranium 
(2008)
    Review of the Toxicologic and Radiologic Risks to Military 
Personnel from Exposures to Depleted Uranium During and After Combat 
(2008)
    (Underlined titles are available in PDF form via embedded links in 
the digital copy of this document.)

                                 <F-dash>
                        QUESTIONS FOR THE RECORD

From: Principal Deputy General Counsel (02)

subj: Issues Relating to Implementation of Procopio v. Wilkie

To: Under Secretary for Benefits (20)

Chairman, Board of Veterans' Appeals (01)

QUESTIONS PRESENTED:

    1.Does the Department of Veterans Affairs (VA) have the authority 
to promulgate regulations and implement policies regarding the evidence 
necessary to prove service within the 12 nautical mile territorial sea 
of Vietnam?
    2.Is the Board of Veterans' Appeals (Board) permitted or required 
to remand cases where the evidence of record is insufficient to 
determine whether the veteran served within the 12 nautical mile 
territorial sea of Vietnam?

HELD:

    1.VA has the authority to promulgate regulations and implement 
policies regarding the evidence necessary to establish service within 
the territorial sea of Vietnam, so long as the regulations and policies 
are consistent with the existing laws governing the consideration of 
evidence in VA benefits cases.
    2.When the evidence of record is insufficient to determine whether 
the veteran served within the 12 nautical mile territorial sea of 
Vietnam, the Board should generally remand the case for further factual 
development. However, if the file contains sufficient evidence for such 
a determination, the Board should decide the case.

DISCUSSION:

    1.Section 1116 of title 38, United States Code, provides that a 
veteran who ``served in the Republic of Vietnam'' during the period 
beginning on January 9, 19621 and ending on May 7, 1975, shall be 
considered exposed to an herbicide agent, and that exposure in turn 
will be presumed to be the cause of certain enumerated diseases. VA had 
historically interpreted the statutory phrase ``served in the Republic 
of Vietnam'' as incorporating a requirement that the Veteran served on 
land or inland waterways. See Haas v. Peake, 525 F.3d 1168, 1180-83 
(Fed. Cir. 2008). In Procopio v. Wilkie, 913 F.3d 1371, 1380-81 (Fed. 
Cir. 2019) (en bane), the U.S. Court of Appeals for the Federal Circuit 
(Federal Circuit) held that veterans who ``served in the 12 nautical 
mile territorial sea of the 'Republic of Vietnam''' are entitled to 
presumptive service connection under 38 U.S.C. Sec.  1116, so long as 
they meet the section's other requirements.
    The court did not address the evidence necessary to support a 
finding that a particular veteran served within the territorial sea of 
Vietnam. The Veterans Benefits Administration (VBA) and the Board have 
asked the Office of General Counsel to address VA's authority to 
promulgate regulations and implement policies regarding that issue and 
the necessity or appropriateness of remanding appealed cases affected 
by the Procopio decision.
    2.VA is authorized to prescribe all rules and regulations which are 
necessary or appropriate to carry out the laws administered by VA and 
are consistent with those laws. 38 U.S.C. Sec.  501(a). This includes 
rules regarding ``the nature and extent of proof and evidence'' 
required ``to establish the right to benefits,'' id. Sec.  501(a)(1), 
as well as ``the methods of making investigations,'' id. Sec.  
501(a)(3). VA may also implement policies that convey guidance to VBA 
adjudicators, though they are not binding on the Board and do not have 
the force of law. See Gray v. Sec'y of Veterans Affairs, 875 F.3d 1102, 
1108-09 (Fed. Cir. 2017), cert. granted, 139 S. Ct. 451 (2018); 
Disabled Am. Veterans v. Sec'y of Veterans Affairs, 859 F.3d 1072, 
1077-78 (Fed. Gir. 2017). Accordingly, VA may establish rules and 
policies regarding the evidence necessary to prove a veteran's service 
within the territorial sea of Vietnam, but any such rule or policy must 
be consistent with the existing laws governing the consideration of 
evidence in VA benefits cases.
    3.For example, VA could promulgate a regulation requiring specific 
types of evidence supporting a veteran's bare assertion that his or her 
ship entered the territorial sea of Vietnam. SeeArzio v. Shinseki, 602 
F.3d 1343, 1347 (Fed. Cir. 2010) (noting that a regulation may provide 
``additional prerequisites for establishing service connection for 
particular circumstances''); Nat'/ Org. of Veterans' Advocates v. Sec'y 
of Veterans Affairs, 330 F.3d 1345, 1352 (Fed. Cir. 2003) (NOVA) 
(upholding 38 C.F.R. Sec.  3.304(f)'s requirement that ``credible 
supporting evidence'' confirm a veteran's assertion of an in-service 
stressor for post-traumatic stress disorder claims). To be clear, VA is 
required to consider ``all information and lay and medical evidence of 
record in a case,'' so VA can never limit its inquiry to the point of 
precluding the full and fair consideration of lay evidence on all 
matters that lay evidence is capable of establishing. 38 U.S.C. Sec.  
5107(b); see Jandreau v. Nicholson, 492 F.3d 1372, 1377 (Fed. Cir. 
2007) (noting that laypersons are competent to provide some kinds of 
evidence and may not be competent to provide others). However, VA could 
certainly make a regulation delineating scenarios in which lay evidence 
is sufficient to establish presence within the territorial sea of 
Vietnam and scenarios when it may be inherently 
unreliable.Alternatively, VA could review all procurable information 
and compile a confirmed list of the Naval ships that entered the 
territorial sea of Vietnam.
    4.As noted above, any such rule or policy could not preempt 
existing laws governing the consideration of evidence in VA benefits 
cases. This means that, even if VA were to compile a ship list or 
promulgate a corroboration requirement, ``all information and lay and 
medical evidence of record'' in a case must be considered. 38 U.S.C. 
Sec.  5107(b); see NOVA, 330 F.3d at 1352 (noting that the ``credible 
supporting ev,idence'' requirement ofSec.  3.304(f) ``is consistent 
with Sec.  5107(b) by not precluding the consideration of lay 
evidence''); 38 C.F.R. Sec.  3.303(a). And in a given case, if there is 
an ``approximate balance of positive and negative evidence'' on the 
question of a veteran's service within the territorial sea of Vietnam 
after ``careful consideration of all procurable and assembled data,'' 
that issue must be ``resolved in favor of the claimant.'' 38 C.F.R. 
Sec.  3.102; see 38 U.S.C. Sec.  5107(b). \1\
---------------------------------------------------------------------------
    \1\ This provision is commonly referred to as the ``benefit of the 
doubt'' rule or the ``equipoise'' standard. See Mariano v. Principi, 17 
Vet. App. 305, 313 (2003).
---------------------------------------------------------------------------
    5.However, if the record before the decisionmaker does not supply a 
basis for resolving factual questions, that does not mean the evidence 
is in ``equipoise''; rather, it means that additional development is 
needed. See Chotta v. Peake, 22 Vet. App. 80, 86 (2008) (issue that 
requires speculation ``has not been proven to the level of 
equipoise''); see also Fagan v. Shinseki, 573 F.3d 1282, 1287 (Fed. 
Cir. 2009) (``benefit of the doubt'' rule is ``not a means of 
reconciling actual conflict or a contradiction in the evidence'' 
(citing 38 C.F.R. Sec.  3.102)); 38 U.S.C. Sec.  5103A(a) (requiring 
``reasonable efforts'' in obtaining relevant records), (c) (requiring 
efforts to obtain Federal records to ``continue until the records are 
obtained unless it is reasonably certain that such records do not exist 
or that further efforts to obtain those records would be futile''); 
Shoffner v. Principi, 16 Vet. App. 208, 213 (2002) (VA has ``discretion 
to determine how much development is necessary for a determination of 
service connection to be made'' (citing 38 C.F.R. Sec.  3.304(c))). 
Where all procurable data has not been assembled in a case before the 
Board, remand will be warranted. See Jones v. Shinseki, 23 Vet. App. 
382, 390 (2010) (``it is the Board's duty to remand for further 
development'' if it is not clear that ``all procurable and assembled 
data'' has been obtained); Tucker v. West, 11 Vet. App. 369, 374 (1998) 
("[W]here the record is otherwise inadequate, a remand is the 
appropriate remedy.'').
    6.Given that Procopio announced a rule of law conferring new 
significance to the 12 nautical mile demarcation, it is to be expected 
that many appellate records will not contain information necessary to 
determine whether the veteran ever crossed the 12 nautical mile 
threshold. In such cases, a Board remand for additional factual 
development is both permissible and necessary. Nevertheless, some cases 
may be capable of immediate decision. For example, if the record 
contains persuasive evidence that a given veteran entered a bay or 
harbor recognized as within Vietnam's territorial sea, or if the record 
contains a deck log establishing that the ship went within 12 miles of 
the mainland while the veteran was serving on board, this evidence 
would support the conclusion that the veteran entered the territorial 
sea of Vietnam. Similarly, the Board may determine that all procurable 
data related to the factual questions at issue, including whether the 
veteran ``served in the Republic of Vietnam'' as defined in Procopio, 
has been assembled. In such a scenario, the Board may deny application 
of the presumption, although the circu--mstances under which the record 
can be deemed complete with respect to the newly significant question 
of whether the veteran crossed the 12 nautical mile threshold will 
likely be limited. In both of those scenarios, however, there would be 
no reason to remand for further development on the question of whether 
the veteran ``served in the Republic of Vietnam'', and the Board would 
be obligated to decide the case, absent other issues warranting remand.

    Richard J. Hipolit

                                 <F-dash>
                   Materials Submitted For The Record

                   LETTER FROM PAUL R. LAWRENCE, Ph.D

SUBJ: Procopio v. Wilkie

    This letter provides interim procedures for controlling claims 
affected by the U.S. Court of Appeals for the Federal Circuit (Federal 
Circuit) decision in Procopio v. Wilkie.

Background

    On January 29, 2019, the Federal Circuit held that the clear intent 
of 38 U.S.C. Sec.  1116 is that a Veteran who served in the terdtorial 
sea of the ``Republic of Vietnam'' is entitled to the presumption of 
exposure to Agent Orange. This class of Veterans is generally known as 
``blue water'' Navy Veterans; but any claim based on the court's 
expanded definition of exposure, regardless of branch of service, might 
be included.
    Claims that might be affected by the Procopio ruling include those 
based on herbicide exposure for which the only evidence of exposure is 
service on a vessel within the 12- nautical mile territorial sea of the 
Republic of Vietnam or other service offshore, depending upon VA's 
evaluation of the court's decision.
    The decision will require VBA to extend the presumption of service 
connection where the claimant can establish (1) service in the 
te11``itorial seas of Vietnam in the time period specified in 38 USC I 
l 16(a) and (2) that he or she suffers (or :mffered, in the case of 
death claims) from one of the diseases listed in 38 C.F.R. Sec.  
3.309(e).

Current Status

    VA filed a motion to stay implementation, which suspends final 
action on claims potentially affected by the Procopio decision, while 
VA continues to evaluate the comt's decision.

Controlling claims potentially affected by Procopio

    Until Procopio litigation and subsequent determinations have been 
resolved, rating decisions in these claims cannot take place. Pending 
further guidance, regional offices must control claims from ``blue 
water., Vietnam Veterans seeking presumptive service connection with 
end prnduct (EP) 335 as explained below.

New claims (Veteran or survivor) for service connecti n for a disease 
    associated with herbicide exposure

    <bullet>  Establish the appropriate EP (110, 0I 0, 020, 140 etc.) 
for all claimed condition(s)
    <bullet>  Apply the Agent Orange flash
    <bullet>  If the claimed condition is not shown under 38 CFR 3.309, 
decide the issue following normal processing rules
    <bullet>  Proceed with development and rating for all claimed 
issues, in the normal manner, based on existing regulations, manual 
provisions, and other guidance to include consideration of service 
connection for any claimed condition on a direct, indirect, or 
presumptive basis

    <bullet>  G1-ant claimed contentions under existing exposure rules

    <bullet>  Rate and promulgate under pending EP, clearing the EP
    <bullet>  Do not put at issue or defer any issues where Procopio is 
the only basis for conceding herbicide exposure
    <bullet>  If no issues can be granted without consideration of 
Procopio, change (PCHG) to BP 335
    <bullet>  Send normal notification regarding issues addressed in 
the rating
<bullet>  Establish new EP for contentions potentially eligible under 
    Pl'ocopio
    <bullet>  Establish separate EP 335- Review or EP335- PMC Review
    <bullet>  Apply the ``Blue Water Navy'' Flash (regardless of branch 
of service)
    <bullet>  Add contentions still requiring adjudication based on 
Procopio exposure
    <bullet>  Send notification to the claimant containing the approved 
paragraph below
    <bullet>  Add an AO - Blue Wate. r N otice tracked item with 30-day 
suspense date
    <bullet>  Claim status: Open
    <bullet>  The claim will recall during the next production run and 
be held in 499 until further action can be taken

Reopened claims previously denied for Agent Orange exposure

    If a Veteran's or survivor's claim for service connection for a 
disease associated with herbicide exposure has previously been denied 
(both on a direct and presumptive basis) and there is no basis to 
establish entitlement except under Procopio:

    <bullet>  Establish the claim using EP 335 REVIEW - Review, or 
EP335- PMC Review claim labels
    <bullet>  Send notification to the claimant containing the approved 
paragmph
    <bullet>  Add an AO - Blue Water Notice tracked item with 30-day 
suspense date
    <bullet>  Claim status: Open
    <bullet>  The claim will recall during the next production run and 
be held in 499 until further action can be taken.

Approved paragraph:

    The following language will be used to acknowledge receipt of a 
claim [or appeal] for service connection that includes Procopio 
exposure:

    <bullet>  ``We have received your claim [or appeal] for (insert the 
disability(ies), or death, accrued or burial claim) based upon claimed 
herbicide exposure. Your claim [or appeal] may be affected by a recent 
decision by the U.S. Court of Appeals for the Federal Circuit, Procopio 
v. Wilkie. VA is evaluating the court's decision for further action. 
Currently, VA has temporarily suspended deciding these claims and 
appeals until further guidance is received from the Depattment of 
Veterans Affairs General Counsel. Once we have that guidance, we will 
resume processing your claim [or appeal].''

Controlling appeals affected by P1-ocopio

    Until VA resolves issues related to Procopio litigation, appeals 
teams must establish separate VACOLS records with the appropriate 
VACOLS diary code. In addition, the RO must control appeals from ``blue 
water'' Vietnam Veterans seeking presumptive service connection with 
end product (BP) 335 as explained below.

New Appeals involving only Procopio issues

    <bullet>  Establish a VACOLS record for only Procopio issue(s). In 
addition, add a VACOLS diary using diary code VBA046 Blue Watef Stay 
with a suspense of 30 days (default).
    <bullet>  If a Veteran files an appeal on a Procopio issue together 
with an appeal of non- Procopio issue(s), control only the Procopio 
issue as explained above. Establish a separate VACOLS record for the 
non- Procopio issue(s) and process those issue(s) in the standard 
manner.
    <bullet>  Establish the claim using EP 335 - Review, or EP335- PMC 
Review claim labels as appropriate for the Procopio issue.
    <bullet>  Enter custom tracked item on the EP 335, ``Appeal pending 
Procopio decision'' with 30-day suspense date.
    <bullet>  Send a 11otification letter to the claimant containing 
the approved paragraph.

Existing appeals involving Procopio issues

    <bullet>  Continue to process the appeal for all non-Procopio 
issues. Process those issues in the standard manner (which could 
include issuing a SOC/SSOC or other actions).
    <bullet>  Establish a new VACOLS record for any Procopio issues. In 
addition, add a VAOLCS diary using diary code VBA046 Blue Water Stay 
with a suspense of 30 days (default).
    <bullet>  Establish the claim using EP 335 -Review, 01 EP335 PMC 
Review claim labels as appropriate for the Procopio issue.
    <bullet>  Enter custom tracked item on the EP 335, ``Appeal pending 
Procopio decision'' with 30Hday suspense date.
    <bullet>  Send a notification letter to the claimant containing the 
approved paragraph.

Further guidance

    This guidance provides the basic procedures for handling claims and 
appeals based on Procopio exposure that cannot be adjudicated under 
current Agent Orange exposure procedures. VBA wiH develop additional 
procedures and will provide further guidance to regional office 
personnel as necessary.

Questions

    Questions concerning this letter and other issues related to 
Procopfo should be submitted to the VA VBA WAS/ C0 /21 l Policy 
mailbox. For ease of communication and consistency, Compensation 
Service will coordinate appropriate responses with the Office of Field 
Operations, Appeals Management Office, and Pension and Fiduciary 
Service.

                                 <F-dash>
                    MEMORANDUM FROM CHERYL L. MASON
    SUBJ: STAY LIFTED ON ADJUDICATION OF APPEALS FOR COMPENSATION BASED 
ON ALLEGED EXPOSURE TO HERBICIDE AGENTS IN THE OFFSHORE WATERWAYS .OF 
THE REPUBLIC OF VIETNAM.

    1. REFERENCES

    a. 38 U.S.C. Sec.  1116;

    b. 38 C.F.R. Sec.  3.307(a)(6);

    c.Haas v. Peake, 525 F.3d 1168 (Fed. Cir. 2008)

    d.Procopio v. Wilkie, No. 17-1821 (U.S. Fed. Cir. Jan. 29, 2019);

    e.Chairman's Memorandum O1-18-15, ``Stay of Adjudication of Appeals 
for Compensation Based on Alleged Exposure to Herbicide Agents in the 
Offshore Waterways of the Republic of Vietnam'' (Oct. 22, 2018).

    2. PURPOSE OF THIS MEMORANDUM

    The purpose of this memorandum is to rescind a stay on the 
adjudication of appeals which may be affected by the ruling of the 
United States Court of Appeals for the Federal Circuit (Federal 
Circuit) in Procopio v. Wilkie, No. 17-1821 (U.S. Fed. Cir.) imposed by 
Chairman's Memorandum O1-18-15, as well as to set forth procedures for 
the resumption of processing of cases affected by the stay.

    3. BACKGROUND

    a.Congress has established a presumption of exposure to herbicide 
agents for those veterans who, during active military, naval, or air 
service, ``served in the Republic of Vietnam'' during a period 
beginning on January 9 1962, and ending on May 7, 1975. 38 U.S.C. Sec.  
1116 (a)(l)(A). The Secretary of Veterans Affairs issued a regulation 
defining ``service in the Republic of Vietnam'' to include the ``waters 
offshore'' if the conditions of service involved duty or visitation in 
the Republic of Vietnam. 38 C.F.R. Sec.  3.307 (a)(6)(iii). Both the 
statutory phrase ``served in the Republic of Vietnam'' and the 
implementing regulation were found ambiguous as applied to service in 
the waters adjoining the landmass of Vietnam. Haas v. Peake, 525 F.3d

MEMORANDUM NO. 01-19-02

    1168, 1184-85 (Fed. Cir. 2008). VA interpretated both the statute 
and regulation to require service on the actual landmass or on the 
inland waterways of the Republic of Vietnam, which the Federal Circuit 
found reasonable. Id. at 1189-93.
    b.On January 29, 2019, the Federal Circuit issued an en bane 
decision in Procopio v. Wilkie, reversing its prior determination that 
VA's interpretation of the statute and regulation was reasonable. 
Instead, the Court held that the statutory phrase ``the Republic of 
Vietnam'' included the 12 nautical mile territorial sea of that nation. 
Procopio, slip op. at 10. By extension, the presumption of herbicide 
agent exposure extends to those veteran with . ervice in the 
territoriaJ seas of the Republic of Vjetnam. On March 21, 2019, the 
Federal Circuit denied the Sec retary ' s motion to stay the entry of 
mandate. Mandate was issued on March 22, 20 l9.

4. LIFTING OF STAY PROCEDURES

    a. All cases with appeals pending before the Board that involve 
issues that were previously stayed by the Board pursuant to Chairman's 
Memorandum No. 01- 1 8- 15 will be distributed in a manner prescribed 
by the Chairman or her de ignee. Case distribution will be consistent 
with the Board's statutory requirements under 38 U.S.C. Sec. Sec.  7107 
and 7112 regarding consideration of appeals in docket order, with 
certain exceptions. To the extent possible, cases will be redistributed 
to the Veterans Law Judge to whom they were previously assigned.

    5. RESCISSIONS

    a.Chairman's Memorandum No. 01-18-15 (Oct. 22, 2018) entitled 
``Stay of Adjudication of Appeals for Compensation Based on Alleged 
Exposure to Herbicide Agents in the Offshore Waterways of the Republic 
of Vietnam,'' is hereby rescinded in its entirety.

    b. This memorandum is effective until expressly rescinded, 
modified, or superseded.

                                 <F-dash>
                       STATEMENTS FOR THE RECORD

      AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO (AFGE)
    Chairwoman Luria, Ranking Member Bost, and Members of the 
Subcommittee:
    The American Federation of Government Employees, AFL-CIO (AFGE) and 
its National Veterans Affairs Council (NVAC) appreciate the opportunity 
to submit a statement for the record for the May 1, 2019, House 
Committee on Veterans' Affairs, Subcommittee on Disability Assistance 
and Memorial Affairs (DAMA) hearing on pending legislation. AFGE 
represents more than 700,000 employees in the federal and D.C. 
governments, including over 250,000 front line employees at the 
Department of Veterans Affairs (VA) who provide vital care and services 
to veterans. This includes the employees who work throughout the 
Veterans Benefits Administration (VBA) and the Board of Veterans 
Appeals' serving veterans every day.
    AFGE wants to take this opportunity to comment on the draft update 
of H.R. 299, the ``Blue Water Navy Vietnam Veterans Act of 2019,'' and 
the ancillary effects its implementation could have on the claims 
process. Like all VA compensation claims, ``Blue Water Navy'' claims go 
through a process where they are evaluated by both Veteran Service 
Representatives (VSRs) and Rating Veteran Service Representatives 
(RVSRs) to ensure that veterans get the benefits they have earned. 
While all claims go through a similar process, different types of 
claims require different amounts of attention and time based on their 
complexity. Relative to other claims, ``Blue Water Navy'' claims are 
highly labor intensive and require specialized attention.
    ``Blue Water Navy'' claims take significantly more time to process 
than most claims. In particular, it takes more time to gather evidence 
for these claims both because of the significant amount of time that 
has elapsed since the Vietnam and Korean Wars and the specificity of 
evidence required to corroborate an entitlement to benefits, including 
the exact time and geographic coordinates of when and where a 
particular service member was serving. However, as a result of existing 
VBA performance standards, VBA does not consider the complexity and 
meticulous nature of claims handled by VSRs and RVSRs. As a result, 
VSRs and RVSRs have been unfairly penalized for handling complex 
claims. While VSRs and RVSRs are qualified and capable of processing 
these claims, the system of evaluating these employees should take into 
account the complexity of ``Blue Water Navy'' claims and the time and 
attention needed to accurately process and evaluate them for the 
benefit of both employees and the veterans they serve.
    In turn, as the Subcommittee considers H.R. 299, and its eventual 
implementation, AFGE urges the Subcommittee and VBA to consider steps 
to rectify the system of evaluating VSR and RVSR performance, 
particularly for labor intensive and complex claims. The DAMA 
Subcommittee has considered similar issues as recently as November 2018 
when the Subcommittee examined the Office of the Inspector General 
(OIG) report released last year titled ``Denied Posttraumatic Stress 
Disorder Claims Related to Military Sexual Trauma.'' \1\is report 
examined the National Work Queue (NWQ) and its effect on Military 
Sexual Trauma (MST) claims, and how the NWQ's failure to assign MST 
claims to designated and specialized VSRs and RVSRs, who in turn serve 
in a specialized ``lane,'' negatively impacted veterans with MST 
claims. Prior to the implementation of the NWQ, VSRs and RVSRs worked 
in designated lanes that handled similar types of cases repeatedly, 
giving those employees the opportunity to develop an expertise in 
certain types of claims. This made them more accurate and efficient in 
their performance, which both benefited them in their own performance 
evaluations and allowed them to better serve veterans, particularly 
those with rarer or more complex claims. Presently, VSRs and RVSRs do 
not work in official lanes, and are expected to process all cases 
without developing any beneficial specialization. In its report, the 
OIG concluded that eliminating specialization was detrimental to 
veterans with MST claims. As the OIG report explains, prior to the 
implementation of the NWQ:
---------------------------------------------------------------------------
    \1\ 
---------------------------------------------------------------------------
    VA OIG 17-05248-241 / August 21, 2018

    The Segmented Lanes model required VSRs and RVSRs on Special 
Operations teams to process all claims VBA designated as requiring 
special handling, which included MST- related claims. By implementing 
the NWQ, VBA no longer required Special Operations teams to review MST-
related claims. Under the NWQ, VSRs and RVSRs are responsible for 
processing a wide variety of claims, including MST-related claims. 
However, many VSRs and RVSRs do not have the experience or expertise to 
process MST-related claims. \2\
---------------------------------------------------------------------------
    \2\ VA OIG 17-05248-241 / Page iii / August 21, 2018

    Using the same rationale that should assign MST cases to a 
``Special Operations'' lane, AFGE recommends that ``Blue Water Navy'' 
claims and other highly complex claims should also be assigned to a 
``Special Operations'' lane due to the level of difficulty and 
expertise needed to process these claims. In turn, under the 
``Segmented Lanes model,'' VSRs and RVSRs processing cases in the 
``Special Operations lane'' should have their workload and performance 
adjusted to reflect case complexity. Those adjustments should be 
reestablished for the benefit of both VBA employees and the veterans 
they serve.
    AFGE appreciates the House Committee on Veterans' Affairs and its 
Subcommittee on Disability Assistance and Memorial Affairs considering 
the potential impact of this legislation on VBA employees. We look 
forward to working with the Committee and Subcommittee to address these 
problems facing VSRs and RVSRs and ensuring that veterans receive the 
benefits they have earned in an accurate and efficient manner.
    Thank you for the opportunity to provide input on this important 
issue.

                                 <F-dash>
                         ASSOCIATION OF US NAVY
    Dear Chairman Takano and Ranking Member Roe,
    The Association of the United States Navy is grateful for the 
strong, bipartisan support in both the House and Senate in favor of 
providing benefits to our Blue Water Navy Vietnam Veterans, who still 
today suffer from the devastating effects of being exposed to the 
herbicide Agent Orange while at sea.
    However, we are concerned that the latest version of HR 299, the 
Blue Water Navy Vietnam Veterans Act of 2019, includes language that we 
feel might limit the recent case of Procopio v. Wilkie, which found 
that the original intent of Congress in the Agent Orange Act of 1991 
includes veterans who served in the Republic of Vietnam's territorial 
sea, with the possibility of including veterans who served in ``waters 
offshore'' that would extend past the territorial sea.
    Because the current language of the bill appears to confine 
``waters offshore'' to the territorial sea, we fear this would prevent 
potentially thousands of Navy Vietnam veterans from claiming benefits 
for Agent Orange exposure.
    Accordingly, we ask that the House Veterans Affairs Committee 
insert the words, ``including the territorial seas of such Republic 
pursuant to the maximum extent authorized by international law,'' 
after, ``served in the Republic of Vietnam.''
    AUSN continues to support any effort to get our Navy Vietnam 
veterans the benefits they have earned through the sacrifice they have 
given this nation. After years of fighting for these benefits and with 
victory close at hand through the. Procopio decision, we ask that 
Congress make these adjustments and put forward the best bill possible 
for our veterans.

    Sincerely,

    RADM Christopher W. Cole, USN (Ret.)
    Chief Executive Officer
    Association of the United States Navy

                                 <F-dash>
                        CONGRESSMAN DOUG LAMALFA
    Chairwoman Luria, and Ranking Member Bost, thank you for allowing 
me to present a statement for the Subcommittee on my legislation, H.R. 
1126, the Honoring Veterans' Families Act.
    This is a simple bill. As you reviewed it, you probably noticed it 
takes up just one page of substantive legislative text. This issue was 
originally brought to my office by a constituent who runs a chapel in 
Chico, California, Clark Masters. My office immediately recognized its 
importance and elevated it to the Department of Veterans Affairs, who 
were aware of the issue and assisted us in drafting a legislative fix 
for the 21 million veterans across the nation.
    Despite its simplicity, H.R. 1126 corrects a tremendous error in 
the gravemarker benefit that our veterans and their families have 
earned. This error obstructs the recognition our military spouses and 
their families deserve in enduring the hardships of military life, and 
supporting our veterans while they protected us.
    Today, with the support of the Department of the Veterans Affairs, 
and your assistance, H.R. 1126 takes its next step towards passage in 
the House of Representatives. Chairwoman Luria and Ranking Member Bost, 
thank you again for your support on considering this measure with an 
amendment in the nature of a substitute, I look forward to working with 
you both to continue advancing this legislation.

                                 <F-dash>
                    JOHN WELLS (Photos upon request)
                    About Military-Veterans Advocacy
    Military-Veterans Advocacy Inc. (MVA) is a tax-exempt IRC 501[c][3] 
organization based in Slidell Lmrniana that works for the benefit of 
the ann:d forces and military veterans. Through litigation, legislation 
and education, MVA works to advance benefits for those who are serving 
or have served in the military. In support of tlm, MVA provides support 
for various legislation on the State and Federal levels as well as 
engaging in targeted litigation to assist those who have served. Our 
organu.ation consists entirely of volunteers who do not draw a salary 
:from MVA.
    Along with the Blue Water Navy Vietnam Veterans Association, Inc 
(BWNWA) MVA bas been the driving force behind the Blue Water Navy 
Vietnam Veterans Act (HR 299).
    Working with Members of Congress and United States Senators from 
across the political spectrum, MVA and BWNVVA provided technical 
infonnation and support to sponsors who have worked tirelessly to 
partially restore the benefits stripped from the Blue Water Navy 
veterans fifteen years ago. Currently HR 299 has 323 co-sponsors. A 
previom version passed the House unanirmusly in the I 15 th Congress 
but died in the Senate. The offset which still exists in this version 
of HR 299 was part of the reason it failed in the Senate.
    Military-Veterans Advocacy's Executive Director Commander John B. 
Wells USN (Ret.)
    MVA's Executive Director, Commander John B. Wells, USN (Retired) 
has long been viewed as the technical expert on the Blue Water Navy 
saga. A 22-year veteran of the Navy, Commander Wells served as a 
Surrace Warfure Officer on six different ships, with over ten years at 
sea. Hepossessed a mechanical engineering subspecialty, was qualified 
as a Navigator and for corrnnand at sea and served as the Chief 
Engineer on several Navy ships. As Chief Engineer, he wasdirectly 
responsible fur the water distillation and distrbution system He is 
well versed in the science surrmmding this bill and is familiar with 
all aspects of surface ship operations. This includes the hydrological 
effect of wind, tides and ClllTents.
    Since retirement, Commander Wells has becmre a practicing attorney 
with an emphasis on military and veterans' law. He.is colll1Sel on 
several pending cases concerning the Blue Water Navy and has filed 
amicus curiae brie:fs in other cases. He has tried cases in state, 
federaL military and veterans com1s as well as other federal 
administrative tribunals. Since 20 l0 he has visited virtually every 
Congressional and Senatorial office to discuss the irryortance of 
enacting a bill to partially restore benefits to those veterans who 
served inthe bays, harbors and territorial seas of the Republic 
ofVietnam He i5 also recognized in the veteran's comnnmity as the 
subject matter expert on this matter.
               Historical Background Sm1otmdine I-JR 299
    ln the 1960's and the first part of the l 970's the United States 
sprayed over
    These regulations allowed the presurq>tion of exposure throughout 
the Vietnam Service Medal area, the dark solid line rmrked on Exhibit 
l.
    Tn 1997 the VA General ColillSei issued a precedential opinion 
excWing service members who served offshore but not within the land 
borders ofVietnam The opinion construed the phrase ``served in the 
Republic ofVietnam'' as defined in 38 U.S.C. Sec.  101(29)(A) not to 
apply to service members whose service was on ships and who did not 
serve within the borders of the Republic of Vietnam during a portion of 
the ''Vietnam era.'' The opinion stated that the definition of the 
phrase ``service in the Republic ofVietnam'' in the Agent Orange 
regulation, 38 C.F.R. Sec.  3.307(a)(6)(fu), ''requires that an 
individual actually have been present within the boundaries of the 
Republic to be considered to have served there,'' and that for purposes 
of both the Agent Orange regulation and section IO l(29)(A), service 
``in the Republic of Vietnam'' does not include service on ships that 
traversed the waters oflshore of Vietnam absent the service member's 
presence at some point on the landmass of Vietnam''
    After lying dormant for a few years, this General CoUll'>efs 
opinion was incorporated into a policy change that was pubfu.hed in the 
Federal Register during the last days of the Clinton Adinirw tration. 
The final rule was adopted in .federal Register in May oftbatyear.5 The 
VA recogniz.ed the exposure presmnption for the ``inland'' waterways 
but not for offihore waters or other locations.
    Historically the VA's Adjudication guidance, the M2 l-l Manua 
allowed the exposure presumption to be extended to all veterans who had 
received the Vietnam service meda in the absence of''contradictory 
evhlence.'' In a February 2002 revision to the M21- I Marnia the VA 
incorporated the VA General Counsel Opinion and the May 200l final rule 
and required a showing that the veteran has set foot on the land or 
entered an internal river or stream This ''boots on the ground'' 
requirement was in effect until the Procopio decision.
    Since 2008 various versions of the Blue Water Navy bill langw;hed 
in Congress, often stymied but the Pay as You Go Act. After years of 
fiustration, MVA and the Blue Water Navy Vietnam Veterans Association 
turned to the courts. Despite many years of discussion, it was the 
court who achieved these benefits for the Blue Water Navy benefits.
                             Law of the Sea
    Despite VA protestations to the contrary, the exclusion of the Blue 
Water Navy veterans from the presumption of exposure was never about 
science. The decisim stems from an irationai arbitrary and capricious 
finding of an incompetent General Counsels office. The basis behind tlm 
deadly detennination was an nll)roper statutory interpretation, made 
indefiance of accepted principles concerning the law of the sea as well 
as international treaties signed and ratified by the United States. In 
defense of the General Counsers office, Military-Veterans Advocacy 
believes the initial action was taken because of ignorance rather than 
rmliciousness. Their unconscionable defense of a bad decision. however, 
was nothing sort of abhorrent. The VA has accepted the court ruling in 
Procopio and Secretary Wilkie has repeatedly stated that he does not 
support or envision a petition for

    1. In localities where the coastline is deeply indented and cut 
into, or if there is a fringe of islands along the coast in its 
immediate vicinity, the method of straight baselines joining 
appropriate points may be employed in drawing the baseline from which 
the breadth of the territorial sea is measured.
    Article 6 ofthe 1958 Conventiongoes onto say:
    The outer limit of the territorial sea is the line every point of 
which is at a distance from the nearest point of the baseline equal to 
the breadth of the territorial sea.
    The United Nations on the Convention on the Law of the Sea (UNCLOS) 
takes a similar approach. Article 3 states as follows:
    Every State bas the right to establish the breadth of its 
territorial sea up to a limit not exceeding 12 nautical miles, measured 
from baselines detennined in accordance with this Convention.
    Article 7 Sec.  1 goes on to say:
    1. In localities where the coastline is deeply indented and cut 
into, or if there is a fringe of islands along the coast in its 
innrediate vicinity, the method of straight baselines joining 
appropriate points may be employed in drawing the baseline :from which 
the breadth of the territorial sea is measured.
    The geographic points in the current language of HR 299 and the 
proposed Amendment mirror the territorial sea. For this reason, inlight 
of Procopio, they are unnecessary and should be removed. We have 
discussed tlm rmtter with Secretary Wilkie and provided him copies of 
the treaty and the analysis. Any atterrpt to limit the breadth of the 
territorial sea would be subject to litigation and MVA believes that 
such limitation would fuil Our co-counsel agrees.
                     Waters OO:-,hore post Procopio
    In a previous version of HR 299, MVA supplied the HVAC the 
geographic points found in the legislatioti Due to State Departrrent 
concerns about the term ``territorial sea'' the Committee, in 
consultation with MVA, decided to use the term ``waters offshore.'' At 
the time tbi<; rmde sense. In the wake of Procopio, however, it no 
longer does. As fur the State Departrrent's long-standing objection to 
the Vietnarrese claim, Procopio has made their protest tlX)Ot, at least 
as it applies to veterans' Jaw.
    Procopio actually went further that defining the territorial sea. 
It aJso addressed the issue of''waters offshore.'' In doing so, it 
opened an opportunity to include ships, rmstly aircraft carriers, under 
the presumption mnbrella.
    38 C.F.R states in pertinent part:

    certainly a limitation should be drawn, Congress needs to take 
caretbat it does not limit the tenn to the currently accepted 
territorial sea. At a minimum we believe that 'waters offshore'' 
extends through the contiguous wne. The contiguous zone is a belt of 
water extending another 12 miles from the territorial sea. It probably 
extends further. But what it will do is encompass several carriers not 
included in the territorial sea.
    Hydrologists tell us that the discharge prume of the Mekong River 
extends ``several hundred kilometers'' into the South China Sea. 
Assuming ``several hundred'' means 300+ then the ph.lme would extend at 
least 161.987 nautical miles from the mainland. We know from a New 
Jersey environmental study, that dioxin from an Agent Orange spill 
inthe Passax; River was found in seafood 150 nautical miles from shore. 
At its widest point, the territorial sea was approximately 90 nautical 
miles from the rminland. Accordingly, it would be :fair to assume that 
the ``waters offshore'' extends 60 nautical miles from the territorial 
sea or 72 nautical miles from the baseline.
    We currently have a suit pending in the Court of Appeals fur 
Veterans Claim<; which addressed this issue. The veteran's ship, an 
aircraft carrier, appears to be stightly outside the territorial sea, 
although we are still tracking its various transits. 'The VA has 
already conceded, however, that the ship was in 'waters offshore.'' We 
believe we have a strong argument to cover this carrier as long as the 
Congress does not define 'waters offshore'' as in the current version 
of HR.299.
    While no court has yet accepted the theory delineated in the 
previous paragraph, we do intend to litigate the issue. Based on 
Procopio, they should, extend the presurq,tion for some distance. But 
they will accept none of it if Congress passes a bill limiting the term 
'waters offshore'' to the geographic points that tmk.e up the 
territorial sea. That is the current language of HR.299 .
    MVA notes that the .Takano Amendment does delete the term 'waters'' 
from 'waters offshore.'' This appears to have been an inadequate 
attempt to address our concerns. Thi<; merely inserts a third term into 
the controversy which will open the door to a finding of ambiguity. 
Should a court find this wording ambiguous, as they must, it will allow 
them to :rmve to step two in the Chevron analysis, where they are 
required to give ``great defurence'' to agency interpretation Our 
Procopio co-counsel agrees.
    Procopio bas given us the opportwrity to cover carriers operating 
outside of the territorial sea that were no doubt exposed to the dioxin 
Thi<; opportunity willbe lost furever if Congress defines waters 
offshore by using the last years language. The courts will look at the 
law and proclaim that ``Congress has spoken.'' We cannot afford that. 
Thousands of sailors willbe left behind.

Stay of Proceedings

    The Procopio mandate issued on March 22, 2019. Stays of Blue Water 
cases have been lifted in the Court of Appeals for Veterans Claims and 
the Board ofVeterans Appeals. The VA is m:,ving forward with 
implementation. There is no need to build a delay mechanism into this 
bill

                                 <F-dash>
                   KEITH KIEFER (Photos upon request)
    Thank you for the opportunity to represent NAAV, Enewetak Atoll 
Radiological Cleanup Veterans and myself before this Committee. I would 
also like to thank you for your interest in the plight of the Enewetak 
Atoll Radiological Cleanup Veteran.
    In the interest of full discloser, I am an Enewetak Atoll 
Radiological Cleanup Veteran & based on my present health status, I 
would not benefit from HR1377 (legislation independent from HR1628) or 
this legislation (HR1628) unless it was amended to study the health 
issue.s of this Special Cohort and make suitable changes to tittle 38. 
This is not saying I don't have effects due to Ionization Radiation 
Exposure, the effects will be discussed later.
    The NAAV membership and non members are split on their support on 
HR1628, however, are unanimous in their appreciation of genuine 
interest and support. I will not beat around the bush and explain some 
of the rational for this divide, as I understand it.

    1)Concern of the effects and delay of related pending legislation

    First, there is concern that HR1628 will directly or indirectly 
result in a delay of a hearing on HR1377 and passage.
    NAAV membership and non members are in agreement we don't want any 
delays on the passage of HR1377. Nor can these Veterans afford to have 
HR1377 delayed.
    Many of the Enewetak Atoll Cleanup Veterans have Medical and 
financial needs not being addressed because they are not recognized as 
Atomic Veterans. Delay in the passage of HR1377 will reinforce some 
veterans belief that the VA (administrative side) mission statement is: 
``Deny, Delay until they Die''.
    Both Bills can coexist in Law. However, these veterans can not 
afford to have HR1377 delayed. They need the Health care now. The best 
estimate we have is only about ten percent of these Veterans remain 
alive. Of those alive, most have significant health issues. Under title 
38 twenty one (21) diseases have been accepted as being caused by 
Ionization Radiation exposure and presumed to be service connected,with 
qualifications. The qualifications in general are; an individual was in 
a specific identified area with the potential to have been exposed to 
ionization radiation, contract one or more of the 21 diseases and in 
some cases meet a window of time in which the disease was contracted. 
HR1377 simply makes clear the Enewetak Cleanup Veterans are part of the 
Atomic Veteran special cohort group. See additional background notes.

    2) Concern over the process, unfettered access, and integrity of 
the study/research.

    Second, there is concern that HR1628 will only be as good as the 
data provided for the study and the integrity of the institute 
conducting the study (some studies are designed to provide the customer 
(those paying for the study) the documentation to support their 
assumption.) Past veteran experience is that neither the VA or DTRA 
have been forthcoming in providing facts that support the Veterans' 
claims. With the VA contracting for the study, there is at a minimum, 
the appearance of a conflict of interest.

    3)Additional/alternate methods to provide science based data.

    Alternate studies that could be completed potentially resulting in 
supporting veteran data in a shorter time period for less cost would 
be:

    a)Acquiring a list of the service members and their service number 
(SSN,) access the Social Security (SS) data base and determine the 
percentage of Cleanup Veterans in their late 50s/ early 60s that have 
passed on (died) and compare this to the expected mortality rate for 
this age group. If it is statistically higher one could conclude (since 
the common .denominator is Enewetak Cleanuexperience) the cause of the 
higher death rate is Enewetak service. Expanding this to include those 
still alive with health issues will only reinforce the cause as the 
common denominator having been ionization exposure.

    b)It is our understanding Susan Thaul, Ph. D from the Congressional 
Research Employees Association did a study of Nevada Desert Te t 
Veterans concluding the death rate for Prostate Cancer was 20% higher 
than individuals that were not a test participant. The delta most 
likely would have been higher if those alive with a cancer (prostrate) 
were also studied. Also, its our understanding this type of study does 
not require special legislation, the budget is already established, it 
simply requires a legislator's (Congressmen or Senators) request.

    4)Review of the DTRA ``FACT SHEET''

    We believe their is merit in an independent, non bias, party with 
unfettered access to data and veterans to review the DTRA ``FACT 
SHEET'' making corrections to reflect an accurate account of the 
activity. Their is a trust issue with DTRA and the VA's (administrative 
side) reliance on faulty data. See attached photos showing the lack of 
proper PPE.
    5)Address the narrow limited presumptive disease list.
    We also believe their is merit in an independent, non, bias, party 
with unfettered access to data and veterans to review the presumptive 
disease list and expand the list if the study supports this.
    This as one more example of military toxic exposure causing adverse 
health conditions which has been ignored for far too long. Because it 
is very burdensome and costly to show a nexus between their exposure(s) 
and particular health conditions that erupt years after exposure, 
HR1377 should be adopted to include the Cleanup Veterans as Atomic 
Veterans. Denying these men this opportunity simply because DTRA and t 
e Department of Defense would never admit to these activities at atomic 
sites is morally unjust. The nuclear testing and cleanup performed at 
Enewetak Atoll should entitle these veterans to the same presumptions 
for radiation-related illnesses when applying for VA disability 
compensation as in other incidents of service-related toxic exposure. 
There is no discernible reason.why these veterans should be denied 
equal treatment under the law.

BACKUP NOTES

    Their shouldn't be any dispute to the following facts: the title of 
the 1977 to 1980 operation was ``Enewetak Atoll Radiological Cleanup 
Project'', it was a Humanitarian project, 43 atomic bombs were 
detonated at the atoll, soil was scraped up from islands and 
transported to Ruint island and deposited in Cactus crater and capped 
with 18 inches of concrete. What is in dispute is the level of 
radiation and what if any PPE (Personnel Protection Equipment) was 
available and used. (See attached photos for level of PPE used.) (The 
level of radiation a veteran was exposed to has been an ongoing issue 
for decades. This is why the Presumed disease list was developed.)
    If the radioactive soil contamination level was below that of a non 
contaminated site, there would not be a need to scrape and remove the 
contaminated soil. It was determined the soil was contaminated at a 
level that was hazardous to the Marshall islanders' ability to return. 
In contrast, the Defense Threat Reduction Agency (DTRA) (It should be 
noted the Atomic Energy Commission (AEC) was a party of the Cleanup 
project and DTRA is a child of the (AEC),) DTRA claims: ``the highest 
dosimeter record entry was 0.070 rem'' (``below the 2006 US population 
annual dose of 0.620 rem''). What they don't say is over what period 
(time) the 0.07 rem exposure occurs, nor the inability of a rad badge 
to record exposure to Alpha, Beta or neutron radiation, additional 
exposure pathways or failure of these devices in a high heat and 
humidity environment. Three radioactive elements, predominately 
present, that Rad badges would not record are the alpha particles 
emitted by Plutonium or the high energy Beta particles from Cesium 137 
or Beta particles from Strontium 90. The DTRA reported 0.620 rem annual 
background exposure is higher than reported by most sources. These 
sources state background radiation of 0.300 rem annually for the US and 
0.400 rem annually for Denver, Colorado is typical. If the DTRA claim 
of a dose level was 0.070 rem was accurate, scraping and transporting 
the soil to another island would not have occurred. Further, additional 
remediation of the islands (after 1980) would not have been required 
(after the failed cleanup mission). Under the 2000 environmental 
restoration award approximately $103 million of further decontamination 
occurred. See Graham, Bill. 11Written Testimony of Bill Graham, Public 
Advocate (retired), Marshall Islands Nuclear Claims Tribunal.'' 
Subcommittee on Asia, the Pacific, and the Global Environment. 
Committee on Foreign Affairs. United States House of Representatives. 
May 20, 2010.
    When in question, the benefit of doubt is to be in favor of the 
Veteran. HR1377 does this. If a Veteran has not been exposed to 
ionization radiation, the Veteran is likely not to contract one of the 
21 recognized radiological induced diseases. The VA would not have 
additional liability or medical cost if they didn't have one of these 
diseases.

    ******

    Enewetak Atoll is a group of Islands, part of the Marshal Islands 
in the South Pacific which was the site of at least 43 Atomic bomb 
tests. Between January 1, 1977 to December 31, 1980 approximately 4033 
Armed Services Veterans and 4000 government employees and contractors 
were involved with the Enewetak Atoll Radiological Cleanup Project. The 
mission was to remove radiological contaminated soil and debris, 
rehabilitating the islands to a safe radiological level so the native 
inhabitants could return and live on their native islands. Even after 
three plus years of effort this mission failed.'
    Presently, two programs exist for qualifying individuals exposed to 
Ionization Radiation and some of its effects (The Cleanup Veterans are 
not included in either program). One program is administrated out of 
the Department of Justice (Radiation Exposure Compensation Act, REGA) 
and the other the Veterans Administration (VA) (Title 38 CFR).It should 
be noted that Title 38 CFR paragraph 3.715 provides for an offset of 
REGA compensation preventing double dipping.
    The VA has two groups consisting of Veterans exposed to Ionization 
Radiation. Atomic Veterans (1945 to 1962) and Occupational Exposure 
Veterans (Veterans exposed to Depleted Uranium (DU) and Veterans in 
Japan during the Humanitarian efforts surrounding the Fukushima 
(Operation Tomodachi) March 12 to May 11, 2011). Enewetak Atoll 
Radiological Cleanup Veterans have been excluded from the Atomic 
Veteran category, and the Occupational exposure Veterans category. The 
1945 to 1962 veterans exposed to Ionization Radiation are classified as 
both an Atomic Veteran and Occupational Exposure Veteran. Bill(s) 
introduced in the 116th session, S555/HR1377 Mark Takai Atomic Veterans 
Healthcare Act, intend to rectify this deficiency.
    The Defense Threat Reduction Agency (DTRA) and the VA defy logic, 
claiming the Enewetak Atoll Cleanup Veterans were not exposed to 
Ionization Radiation, and rely on misinformation provided during the 
mission to the US Senate and US Congress. It does not take a rocket 
scientist to dispel this myth. If dangerous radiation contamination did 
not exist, why spend three years and $100 million plus dollars moving 
110,000 cubic yards of Gont --a--rnina--td-- --Qil ci--[ld material to 
the island of Ruint?
    Then capping the contents with 18 inch thick cement panels made 
from contaminated soil and portland cement? Why was it determined after 
1980 that the islands were not fit for human habitation and another 
$103 plus million was spent to remediate the . islands? With some of 
the radioactive contamination having a half life in excess of 24,000 
years and a survey in 1977 showing the levels listed below, how could 
the veterans and inhabitants not be exposed?

    From: NVO-214 ENEWETAK FACT BOOK (A RESUME OF PRE-CLEANUP 
INFORMATION) COMPILED 1977 PUBLISHED SEPTEMBER 1982

    (Note values must be multiplied by 4,320 (180days x 24 hours in a 
day) to obtain the annual exposure without additional exposures for 
most veterans present). A non- radiation worker can receive a whole 
body dose of no more that 0.1 rem/year from industrial ionizing 
radiation. This exposure would be in addition to the average 0.3 rem/ 
year from natural background radiation and the 0.05 rem/year from man-
made sources such as medical x-rays.)

    1 uR/h = 8.766 mR/year = 0.008.766 A/year
    1 mR/h = 8.766 A/year
    1 R/h = 8766 A/year

    Dose - Atoll Island code name/native name 1 uR/h = Alvin/Jinedrol

    1 uR/h = Bruce/Ananij
    1 uR/h = Clyde/Jimimi 1 uR/h == Glenn/lkuren 1 uR/h = Henry/Mut
    1 uR/h = Irwin/Boken 1 uR/h = Rex/Jedrol 1 uR/h = Sam/Boko 1 uR/h = 
Tom/Munjor
    1 uR/h = Uriah/lnedral 1 uR/h = Van
    1 uR/h = Walt/Bokandretok 1 - 2 uR/h = Keith/Kidrenen
    1 - 5 uR/h = James/Ribewon 5 uR/h = David/Muti/Japtan
    2.6 R/h = Fred/Eniwetok Enew
    7 R/h = Elmer/Parry/Madrin or Medren 90 pCi/g Plutonium-239 = 
Percy/Taiwel 235 R/h = Leroy/Rigili/Biken
    270 R/h = Vera/Arambiru/Alembel 294 R/h = Wilma/Piirai/Billae
    651 R/h = Ursula/Rojoa/Lojwa (Lojwa Base Camp location) 774 R/h = 
Tilda/Biijiri/Bijire
    1,251 R/h = Nancy/Yieri/Elle 1,252 R/h = Olive/Aitsu/Aej
    1,753 R/h = Kate/Mujinkarikku/Mijikadrek 1,776 R/h = Lucy/Billee/
Kidrinen
    1,981 R/h = Sally/Aoman/Aomon
    2,785 R/h = Mary/Bokonarappu/Bokenelab 3,154 R/h = Clara/Eybbiyae
    3,354 R/h = Daisy/Lidilbut/Louj
    3,382 R/h = Belle/Bogombogo/Bokombako 3,383 R/h = Alice/Bogallua/
Bokoluo
    3,501 R/h = Janet/Engebi/Enjebi (Aggregate Quarry and Lojwa Base 
Camp Concrete Slabs)
    4,329 R/h = Pearl/Rujiyoru/Lujor
    5,277 R/h = Helen/Bogeirik/Bokaidrik 6,184 R/h = Irene/Bogan/Boken
    9,533 R/h = Edna/Sanildefonso/Bokinwotme 10,643 R/h = Ruby/Eberiru/
Eleleron
    62,849 R/h = Yvonne/Runit/Runit (Cactus Dome location) 128,729.6 R/
h = Enewetak Atoll Atomic Cleanup Mission

    The Veterans experienc--e has been RECA has a processing time of 
less than two years and in general is ``just'' in its determinations, 
while the VA in general is over a decade of claim and appeal processes. 
For an individual(s) coping with the debilitating physical and 
financial aspects of cancer(s,) RECA has been the difference between 
financial ruin and hope.
    NAAV, AMAC (Association of Mature American Citizens, 1.8 million 
members and growing), American Legion (2.4 million members), VFW 
(Veterans of Foreign Wars, 1.4 million members) and other veterans 
organizations in the past have supported our legislation.
    We have had numerous Enewetak Radiological Cleanup Veterans pass 
away in the resent months. Most of these Veterans range in age from 
late fifties to early sixties. Presently, the Enewetak Radiological 
Cleanup Veterans are in a state of limbo.
    To those that.are predisposed to believe the DTRA ``Fact Sheet'' 
documents, I would ask the common sense question: If the level of 
radiation was safe, why was the name of the project titled'' Enewetak 
Atoll Radiological Cleanup Project''? Why wasn't it titled `` Enewetak 
Atoll Cleanup Project''? Why are the islands still considered unsafe 
for human habitation? Why is the thyroid incidence at a twenty eight 
percent rate when the national average is 0.028%, and of that 7 out of 
8 are women? Why did approximately 111,000 cubic yards of contaminated 
soil have to be scraped up and transported to Cactus Crater on Ruint 
Island, then capped with eighteen inch thick concrete? Why are the 
Coconuts from the island containing Cesium 137 unsafe for human 
consumption? How did Plutonium, with a half life of 24,100 years 
disappear in about 30 years? Why are their numerous documents and 
evidence disputing these reports? The list goes on.

Part of my experience

    As I mentioned earlier, I am an Enewetak Radiological Cleanup 
Veteran. I would not benefit from the passage of this legislation. That 
being said I, NAAV and the other Veteran organizations strongly 
advocate for its passage. Veterans like Paul Edward Laird II that has 
dealt with Kidney cancer and Renal Cell Carcinoma Bladder cancer at the 
same time. Each were a different type of cancer. To date he has had 
seven forms of cancer among a number of other diseases. He passed in 
March of 2019.
    I was stationed at Nellis AFB, Nevada at the time I received TOY 
(Temporary Duty) orders to go to Enewetak Atoll for 180 days as part of 
the Enewetak Atoll Radiological Cleanup Project. I was told by those 
handling the project from Nellis AFB that I would not receive any more 
radiation than walking the streets of New York City or wearing a watch 
with a Radium dial. Af3 part of the project I received no baseline 
Sperm count, Blood analysis or Urine analysis. I was young, naive, a 
late bloomer (going into the service at 6 ft 1'' 160 lbs. and leaving 
the service at 6 ft 5'' 160 lbs.) and believed I would not knowingly be 
put in harms way. Prior to leaving for Enewetak Atoll, on my own I had 
a Sperm Count test completed which came back normal. I arrived at 
Hickham AFB late on a Saturday. On Monday I was issued several Jungle 
fatigues, Combat boots and a ``Rat Patrol'' hat. No orientation or any 
other instructions. Tuesday morning, I believe, I was on a C130 landing 
On Wake Island for a several hour layover and refueling. w e arrived 
late evening, possibly Wednesday. I was placed, by myself, in what 
appeared to be an abandoned building with no sides, a hole ridden 
corrugated roof, no fan,just my duffle bag, a cot, and a sheet.
    The heat and humidity was intense. I awoke the next morning with 
several Geckos on my stomach. I was amazed at the dilapidated state of 
everything, lack of vegetation and existence of abandoned damaged WW 11 
ships and other military equipment. This was more primitive than any of 
my duties in remote Alaska --. Again, I received no orientation related 
to the Radiological Cleanup Project or associated risks.
    My AFSC (US Air Force Specialty Code) was 30434 Ground Radio Repair 
and Maintenance. Like many of my assignments, because of our expertise 
and versatility we were assigned tasks outside of our normal duty and 
function . Enewetak was not an exception. I was on just about every 
island digging up damaged/cut communication lines, repairing and 
burying the cables. Often new trenches would have to be hand dug to 
place and bury cables. The soil was contaminated with radioactive 
material. I was never issued a film badge or dosimeter. I had no 
respirator or even dust mask. I never saw any of the soil wetted down 
when being excavated and there always was dust due to winds and other 
operations. I was involved with the operation, maintenance and repair 
of the three 10KW HF transmitters, teletype, MARS (Military Amateur 
Radio Station) and PBX (phone system). We were also responsible for 
emergency generators.
    I was involved with most communications for Medivac operations 
(communication to aircraft and doctors in Hawaii or Kwajalein during 
emergency medical situations.) Most of the medical situations were due 
to shark or eel attacks (they were particularly mean and aggressive at 
Enewetak Atoll) and heat stroke. The communications equipment was 
salvaged from a Navy ship. We worked 10 to 12 hour days, six days a 
week for $345 a month. We received an air lift of fresh vegetables, 
fruit, milk, meat and mail once a week. We were allowed one five minute 
call a week back state side. The toilets and other none potable water 
was sea water drawn in from the lagoon. Potable water was provided 
through a desalinization plant. The water again was pulled from the 
lagoon. The lagoon water which we bathed in, swam, snorkeled, dived and 
boated in was more than likely contaminated with radioactive material 
due to the past underwater nuclear tests and pushing contaminated soil 
into it. The EIS (Environmental Impact Study) and other documents state 
this was not done, but I saw it in progress. Hind sight, it was not 
very smart getting water from the lagoon. While on the atoll many of us 
drank coconut milk and the meat of coconuts grown on the islands as 
well as some fish caught. I was not told or aware these items were 
contaminated until years later. The first indication I had that my 
health was more than likely compromised by my time on the atoll was 
upon getting out of the service and returning home to my wife. During 
the entire time we have been married we have never used any birth 
control methods. My wife was not getting pregnant. After months I was 
tested and found to be considered sterile. The Gonads and reproquqtiye 
organs are the most sensitive to radiation. Many studies have shown 
both Military and civilian pilots flying at high altitude have a lower 
sperm count and more likely to have daughters than sons due to the 
higher level of cosmic radiation exposure. The order of the body's 
sensitivity to radiation most sensitive to least is the Gonads, 
Thyroid, immune system, blood, bones, etc.-- Radiation causes premature 
aging and the younger the person is, the greater the effect. Some are 
more sensitive to radiation than others. I continued for years having 
unexplained fevers, muscle and deep bone pain that would come and go 
without any of the normal causes being present. I went to doctors 
trying to find answers to the cause of these symptoms. I even had one 
doctor suggest it was all in my head. I felt the doctors were not 
competent to solve my problems and I was wasting my time, money, and 
their time. I stopped going to the doctors for years, still suffering. 
Through my wife's research, she believed I had an auto immune disorder 
call Lupus SLE. I didn't test positive for this. I continued to suffer 
with these symptoms and intermittent diarrhea for years until one day 
while in bed, my lower back felt like it was on fire. I called my wife 
over, asking her if it was my imagination or was my back on fire. She 
said ``Yes, your back is burning up'' and ``Have you been laying on a 
heating pad?'' to which I replied ``No.'' I thought maybe I had a 
kidney infection; so once again went to the doctor. The first doctor 
ran a number of tests and exams believing I had Rheumatoid Arthritis. 
Prior to referring me to a Rheumatologist, she wanted me to have a full 
physical first. I had a full physical and this doctor found I had.a 
thyroid problem. This was after 1996 and the Atomic Veteran oath of 
Secrecy had been lifted. I explained to the doctor about Enewetak and 
the Radiological Cleanup Project. He told me that it was clear to him 
that my problems were, more likely than not, due to my radiation 
exposure, I would have a life time of health problems and Should apply 
for VA healthcare and a Service Connected Disability. My father had 
applied for VA Healthcare over a year earlier to the same facility. 
Within three months I was accepted and in the VA Healthcare. My father 
waited almost another year before being accepted. My Service Connected 
Disability claim was for Sperm count (sterile) and the thyroid 
condition due to Ionization Radiation. Over a year later, without any 
questions or communications, the claim was denied using the Sperm count 
which was normal before going over to Enewetak as the basis for denial, 
the thyroid condition was never addressed. This illustrates the 
predisposition to denial of a claim. My health continued to 
deteriorate.
    At about age forty, I was told I had the bone structure of a ninety 
year old and needed to have both hips replaced. I have not been in 
sports or an occupation that would account for excessive wear and tear. 
For almost twenty years I was denied hip replacements, claiming I was 
too --young and would have them worn out prior to dying. I have had 
three surgeries on my feet due to abnormal bone growth. Strontium 90 
found on Enewetak Atoll is known to affect bones. I have abnormal bone 
growths on my spine, degenerative bone disease, arthritis and ps inal 
st other issues. I have a number of autoimmune diseases (radiation affe 
ts the immune system,) and have an abnormal blood disorder which causes 
blood clots. I have had five Pulmonary Embolisms (PE); on one 
occurrence a bilateral PE in which I came within seconds of dying. This 
has been, after much testing, determined to be caused by a disease 
called Lupus Anticoagulant, an autoimmune disorder. Again, blood and 
the immune system is affected by radiation. I have non diabetic 
neuropathy, also know to be caused by radiation. Some of the additional 
aliments are a duodenal ulcer, an enlarged prostrate, pre cancerous 
pulps in the colon, multiple kidney stones and several teeth that have 
broken (fallen apart) while eating scrambled eggs. I also have severe 
sleep apnea. I have no approved Service Connected Disabilities, and no 
Social Security Disability while the State of Minnesota OMV (Department 
of Motor Vehicles) and Metro Transit classify me as disabled. I can add 
additional information as well as back up my statements with factual 
documentation should this Committee desire it.
    Because I have not contracted cancer yet, I will not benefit from 
HR1377.
    Just a few additional notes:
    A film badge will not detect radiation from Plutonium. They are 
also damaged by heat and humidity.
    It is difficult to determine the internal radiation dose due to 
cuts, inhalation or ingestion.
    Islands were contaminated with other toxic materials such as 
Beryllium and Agent Orange.
    Documents obtained under FOIA question why certain radioactive 
elements were not found at Enewetak Atoll during radiological surveys; 
i.e. uranium, since this is a decayed state of Plutonium.
    I did. not see any military personal wearing PPE (Personal 
Protective Equipment,) only scientists, with the exception of during 
a.photo op.
    The veterans involved with this operation are proud to have served 
their country and, if disappointed, it would be that the operation was 
not more successful and that the government is not acknowledging the 
health risks of the operation, nor taking care of. those with radiation 
induced illnesses.
    The first I knew the mission was not successful was from a CBS 
March 1980 60 Minutes report with Morley Schaffer titled Remember 
Enewetak.
    Dupont stated in a memo that, of those using respirators, they were 
the wrong type and would be ineffective with Radiation.
    The Enewetak Atoll Radioiogical Cleanup Project was either the best 
planned scenario for plausible deniabi--lity or the poorest planned 
Radiological Cleanup Project.

                                 <F-dash>
                              KEN BROWNELL
    Greetings,

    I was a spec.4 (51810) in the U.S.Army active duty from July 1976 
to July of 1980. During my time in the service myself and 30 + men were 
sent to the Marshall Islands/ Enewetak Atoll( May 17th to October of 
1977) It was our job to begin construction of a 500 man base camp on 
one of thj:! northern islands, Lojwa. This island is between 2 islands 
used for atomic testing.Lojwa was contaminated but later was deemed 
safe. Every day we dealt with heavy dust from the construction 
equipment and constant heat of the day at times 115+ degrees. We worked 
an avarage 12 hour day 6 days a week. When first arriving on the island 
we slept in tents had our meals from paper bags that had been prepared 
early in the morning. we had no showers, bath rooms or dining 
facilities.
    Our bill(s) have been in the House now for several sessions. Myself 
and 3 other Veterans have spoke at the round table meeting this last 
session. Many Enewetak veterans have visited Washington to speak with 
represenitives. Proof has been provided showing that DOD/DTRA have 
falsified the documents ( in favor of the Government) that we were 
never in danger from contamination from radioactive materials! many 
fellow Veterans have passed away from different forms of Cancer!
    I belive this new bill ( HR 1628) is just another attempt to slow 
down and delay the new bill ( HR 1377) from passing and moving on to 
the Senate! We do not need another study at this time. the surviving 
members of the Enewetak cleanup project need help now along with the 
decedents.

                                 <F-dash>
                ROBERT CELESTRIAL (Photos upon request)
    Chairwoman Elaine Luria
    VA Subcommittee on Disability Assistance and Memorial Affairs

    Congressman Mike Bost
    VA Subcommittee, Ranking Member

    Congressman Greg Steube (Fl)
    H.R. 1628 Author

    Greetings Congresswoman Luria, Congressman Bost and Congressman 
Steube.

    First, I would like to thank the three of you for your military 
services. Thank you for allowing me to present my testimony on H.R. 
1628. With all due respect I am not an expert on dose reconstruction 
and the effects of exposure to ionizing radiation. I am just an old 
retired Sergeant, from the U.S Army. I served six months on Lowja 
Island from Oct 1977 to April 1978.
    Lowja island is one of the 11011hern islands within the Enewetak 
Atoll. Yes. there is a difference between Enewetak Island and Enewetak 
Atoll. Enewetak Island is in the southernmost part of the Ato ll.
    I arrived on Enewetak island on October 1977 and on the next day I 
took a two-ho ur boat ride to Lowja Camp on Lowja island where we lived 
for six months. One of my first assignments was to drain the sea water 
out of the crater on Runit island. No protective gear just military 
sho1ts, rubber boots, and maybe a dusk mask. Our decontamination 
procedure at that time was to jump into the shallow part of the lagoon 
and that was it.
    To make a long story short, we were tasked to remove radiated 
debris from different Jslands and bury them in the crater on Runit 
island which our men poured concrete to cap off the crater on ground 
zero. There are videos today that shows us working on top or above the 
crater as we wore shorts and some without shirts due to the unbearable 
heat, well for some since I am from Guam, I was somewhat accustom 
myself.
    In 1980 the Marshallese people were allowed to move back to the 
islands that we have cleaned and were deemed contaminated at that time. 
Then a year later they were removed from the same islands due to 
reports that indicated that they were being exposed to high levels of 
radiation. Today there are only two islands that are occupied by the 
Marshallese people in the southern part of the Enewetak Atoll.
    Some reports from the Department of Energy and the National 
Academies of Science have reported that the Runit Dome today is still 
reading high levels of radiations after fifty (50) years which we 
carried with bare hands and buried the debris in the Runit dome.
    Honorable Chairwoman Luria, as I said earlier that I am not a 
scientist nor a physician only a U.S. Veteran who served on Lowja to 
cleanup radiated debris and help bury them on Runic island.
    For point of information, the crater on Runit island was from a 
nuclear detonation in 1958.
    H.R. 1628 does not distinguish between Enewetak (the southern 
island), and Lowja. A study of Enewetak veterans may confuse in 
addressing the concerns of the veterans who were stationed in Lowja 
island, where reports confirm high levels of contamination without 
dispute.
    We ask for immediate inclusion of the Lowja veterans in the Atomic 
Veterans Program without further study or delay. We were never told the 
risk we were facing while we were doing the cleanup without protective 
gear. After my assignment to Lowja I was treated at Walter Reed for 
swollen and bleeding skin and rashes throughout my body. Even then. and 
through my ultimate disability retirement, they did not correlate what 
I was suffering with the exposure to nuclear radiation. Only when the 
Human Radiation Experiments Advisory Committee documents were 
declassified in 1994 was I able to understand the implications of my 
exposure.
    In conclusion, even though I oppose this study that the National 
Academy of Science is being asked by the VA in H.R.1628, I humbly 
request that the National Academy of Science distinguish the difference 
between the Lowja veterans and the Enewetak veterans for various 
reasons. One, there is a VA report titled ``Radiological Cleanup At 
Enewetak Atoll'' that indicated that, 'veterans participating in 
cleanup wore protective clothing and radiation dose measuring devices 
when needed and had regular radiation checks.'' In addition, the repo1t 
further indicated that, ``veterans who participated in the cleanup at 
Enewetak Atoll encounter low levels of radiological contamination and 
have a low risk of health problems.'' Second, earlier reports prior to 
the cleanup miss io n indicates that the nor the rn islands have high 
levels of radiation and Plu to niu m and that was the main concern from 
the U.S . Government prior to returning the Marsha lles e people to the 
same islands that were used in the Pacific Nuclear Testing. Today there 
are roughly over 600 living veterans that were part of the cleanup and 
just a few months ago Mr. Paul Lai rd passed away from his fight with 
his fifth Cancer. Mr. Paul was from Maine and was stationed on Lowja in 
1977.
    It is evident that there are conflicting reports with inaccuracies 
that states that we were exposed to low levels of radiation which, in 
fact there are numerous reports indicating that these islands that we 
worked on daily where highly contaminated with Strontium 90, Cesium 
137, and Plutonium.
    With your military experience and expertise I am hoping that logic 
and reason may prevail in your decisions in determining whether a study 
is necessary since we do have a bill, H.R. 1377, that will actually 
serve the veterans in receiving their VA benefits from their exposure 
to high levels of radiation during the cleanup at Enewetak Atoll. Thank 
you and may God bless!

    Chairwoman Elaine Luria
    VA Subcommittee

    Greetings, to you and all the Committee members. I am submitting 
this attachment to clarify my opposition to H.R. 1628. I believe that a 
study is important for all the veterans that conducted the cleanup on 
Enewetak Atoll. First, I would like to say that I have not found one 
report stating or acknowledging us the Lowja Veterans. Second, we were 
stationed on the Northern tip of the Atoll (Enewetak) and we were 
basically the ones that did all the moving of debris and contaminated 
soil from one Island to the Runit Island Dome. It is also important to 
know that Enewetak Island not (Enewetak Atoll) is located at the 
Southern most part of the Atoll. H.R. 1628 mentions ``Enewetak Cleanup 
Veterans and a study on Enewetak Veterans. We are afraid that we the 
Lowja Veterans may be by passed on this study or grouped in with the 
Enewetak Island Veterans which numerous reports have stated the 
Southern most Islands do read low level radiation. My request is that 
there is a distinction between the two Islands Lowja and Enewetak 
Island in any study.
    If it may help, 43 nuclear and Hydrogen bombs were detonated in the 
Northern part of the Atoll and Runit Island being one of them that 
created a huge crater. The Crater was full of seawater when I arrived 
on Lowja Island and Me and my fellow veterans were ordered to drain the 
water out of that crater, so we could build the dome. Knee deep in mud, 
sand and exposed to radiated seawater is what we experienced, and it is 
not the study or Bill I am opposed to, it is the distinction between us 
the Lowja cleanup veterans being mistaken for the Enewetak Island 
Veteran. Thank you and May God bless us all!

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
